App. 1
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

KENT ERIC LEBERE,
Petitioner - Appellant,
v.
TRAVIS TRANI, Warden;
THE ATTORNEY
GENERAL OF THE
STATE OF COLORADO,

No. 20-1117
(D.C. No. 1:03-CV01424-MSK-MEH)
(D. Colo.)

Respondents - Appellees.
-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

(Filed Apr. 2, 2021)
Before TYMKOVICH, Chief Judge, HOLMES and
BACHARACH, Circuit Judges.
-----------------------------------------------------------------------

This matter is before the court on Appellant’s Petition for Panel Rehearing and for Rehearing En Banc.
The petition for panel rehearing is denied.
The petition for rehearing en banc was transmitted to all the judges of the court who are in regular
active service. As no member of the panel and no judge
in regular active service on the court requested that
the court be polled, that petition is also denied.

App. 2
The panel has sua sponte revised the Order Denying Certificate of Appealability issued on March 1,
2021, to correct a clerical error. The Clerk of Court
shall issue the attached revised Order Denying Certificate of Appealability, effective nunc pro tunc to the
date the original Order Denying Certificate of Appealability was filed, March 1, 2021.
Entered for the Court
/s/ Christopher M. Wolpert
CHRISTOPHER M. WOLPERT, Clerk

App. 3
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

KENT ERIC LEBERE,
Petitioner - Appellant,
v.
TRAVIS TRANI, Warden; THE
ATTORNEY GENERAL OF
THE STATE OF COLORADO,

No. 20-1117
(D.C. No. 1:03-CV01424-MSK-MEH)
(D. Colo.)

Respondents - Appellees.
-----------------------------------------------------------------------

ORDER DENYING
CERTIFICATE OF APPEALABILITY*
-----------------------------------------------------------------------

(Filed Mar. 1, 2021)
Before TYMKOVICH, Chief Judge, HOLMES and
BACHARACH, Circuit Judges.
Kent Eric LeBere, a Colorado state prisoner, requests a certificate of appealability (COA) to appeal
the district court’s denial of his 28 U.S.C. § 2254 petition for habeas relief. We deny Mr. LeBere’s request
for a COA and dismiss this matter. See 28 U.S.C.
§ 2253(c)(1)(A).
* This order is not binding precedent except under the doctrines of law of the case, res judicata, and collateral estoppel. It
may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

App. 4
I.

Background

The State of Colorado charged Mr. LeBere with
murdering Linda Richards. At trial, the State offered
testimony from Ronnie Archuleta, a jailhouse informant who was housed with Mr. LeBere prior to trial. Mr.
Archuleta testified that Mr. LeBere confessed to killing
Ms. Richards. A jury found Mr. LeBere not guilty of
first degree murder, felony murder, and manslaughter,
but convicted him of second degree murder and arson.
He was sentenced to sixty years’ imprisonment.
While Mr. LeBere’s direct appeal was pending, Mr.
Archuleta recanted his trial testimony. Mr. Archuleta
claimed that the detective investigating the murder,
J.D. Walker, had given him information about the murder and induced him to fabricate a confession. The
state court denied Mr. LeBere’s request for a new trial
based on Mr. Archuleta’s recantation. Mr. LeBere then
filed his § 2254 habeas petition, raising a claim that
the State improperly withheld exculpatory evidence in
violation of Brady v. Maryland, 373 U.S. 83 (1963).
This is the third time Mr. LeBere appears before
this court seeking review of the district court’s denial
of his habeas petition. In his first appeal, we reversed
the district court’s denial of his Brady claim as procedurally barred. See LeBere v. Abbott, 732 F.3d 1224,
1225 (10th Cir. 2013). On remand, both Mr. Archuleta
and Detective Walker were deposed. Mr. Archuleta testified that Mr. LeBere never confessed to him and that
Detective Walker provided him information to concoct
a false confession in exchange for lenient treatment in

App. 5
his own case. According to Mr. Archuleta, Detective
Walker instructed Mr. Archuleta to falsely testify that
Mr. LeBere was the source of the information even
though Detective Walker knew that he had provided
the information to Mr. Archuleta. Contrary to Mr. Archuleta’s testimony, Detective Walker testified that Mr.
Archuleta had reported Mr. LeBere’s confession to him.
A magistrate judge recommended denying Mr.
LeBere’s habeas petition on the ground that Detective Walker’s testimony was more credible than Mr.
Archuleta’s, but the district court denied relief on a
different ground. It determined that evidence that Detective Walker directed Mr. Archuleta to fabricate a
confession by Mr. LeBere and fed him information to
do so and then they both falsely testified about it, was
immaterial to Mr. LeBere’s conviction. The court therefore denied habeas relief on the Brady claim.
In his second appeal, we noted that Mr. LeBere
framed his Brady claim “as two distinct subclaims related to Archuleta’s recantation": (1) “that the government suppressed evidence that Walker and Archuleta
conspired to manufacture a false confession”; and (2)
“that Walker and Archuleta committed perjury by testifying to the contrary.” LeBere v. Trani, 746 F. App’x
727, 731 (10th Cir. 2018). We determined “that the evidence allegedly not disclosed—that Walker induced
Archuleta to concoct a false confession by providing
him details about the crime—is material regardless of
the subsequent perjury.” Id. at 732. We therefore declined to address Mr. LeBere’s second subclaim.

App. 6
In addressing the materiality of the suppressed
evidence identified in the first subclaim, we explained
that:
In addition to undermining Archuleta’s credibility, the suppressed evidence would have
strongly supported LeBere’s theory that police had conducted an insufficient investigation. If Walker was willing to conspire with an
inmate to procure a false confession, the jury
might well conclude that the investigation
was aimed at convicting LeBere rather than
uncovering the truth.
Id. We further explained that “[s]howing that Walker
encouraged an informant to lie would have had an impact on the case as a whole.” Id. We ultimately “conclude[d] that the suppressed evidence [was] sufficient
to undermine our confidence in the verdict.” Id. at 733.
Although we noted that the State argued that the
district court’s decision could be affirmed on the alternative ground that Mr. Archuleta’s recantation was not
credible, we explained that “[w]e sit in review of the
district court’s decision, not the magistrate judge’s recommendation.” Id. We therefore “[left] it to the district
court on remand to consider credibility in the first instance.” Id.
On remand, the district court explained that “[a]s
both the Magistrate Judge and the 10th Circuit recognized, the question comes down to one of credibility:
whether Mr. Archuleta’s testimony about having conspired with Detective Walker is more credible than

App. 7
Detective Walker’s testimony that Mr. Archuleta selfreported Mr. LeBere’s alleged confession without any
prompting.” Aplt. App., Vol. 2 at 453. The court then focused on what it considered to be the specific factual
dispute. It noted that even assuming that Mr. Archuleta fabricated the alleged confession, the “pertinent question” was “whether Mr. Archuleta fabricated
the alleged confession at the direction of (or, at the very
least, with the knowledge of ) Detective Walker.” Id. at
454. Stated another way, “if Mr. Archuleta decided to
fabricate Mr. LeBere’s alleged confession on his own
initiative, without the knowledge of Detective Walker,
then the prosecution’s failure to disclose that fabrication to Mr. LeBere cannot be a Brady violation.” Id.
The court acknowledged that “[a] Brady claim may
arise where the prosecution [is] negligent in failing to
prevent false testimony from being presented.” Id. at
454 n.3. But the court explained that it did “not understand Mr. LeBere to contend that, if Mr. Archuleta fabricated the alleged confession of his own accord and
never advised Detective Walker of that fact, that confession was nevertheless so transparently false that
Detective Walker should have recognized that Mr. Archuleta had concocted it.” Id. In other words, Mr.
LeBere “[did] not clearly argue that Detective Walker’s
acceptance of Mr. Archuleta’s story as presented constituted a degree of negligence sufficient to give rise to
a Brady violation.” Id.
The court ultimately found that, based upon its “review of the record as a whole, Detective Walker’s version
of events [was] more credible than Mr. Archuleta’s,”

App. 8
and that Mr. LeBere’s Brady claim failed as a result.
Id. at 466. The court therefore adopted the magistrate
judge’s recommendation and denied Mr. LeBere’s habeas petition.
II.

Discussion

“We may grant a COA only if the petitioner makes
a substantial showing of the denial of a constitutional
right.” Milton v. Miller, 812 F.3d 1252, 1263 (10th Cir.
2016) (internal quotation marks omitted). To be entitled to a COA, Mr. LeBere must show “that reasonable
jurists could debate whether . . . the petition should
have been resolved in a different manner or that the
issues presented were adequate to deserve encouragement to proceed further.” Id. (internal quotation marks
omitted).
The narrow question on remand from Mr. LeBere’s
second appeal related solely to the credibility of Detective Walker versus Mr. Archuleta. We explained that
“the district court will either find that Archuleta’s testimony is not credible (in which case both subclaims
fail), or it will find that Archuleta is credible (in which
case it will grant habeas relief ).” LeBere, 746 F. App’x
at 732 n.2. The district court ruled that Detective
Walker was more credible and therefore denied Mr.
LeBere’s habeas petition.
Instead of challenging that ruling, Mr. LeBere now
seeks to raise two new Brady arguments. First, he
asserts that “[e]ven crediting Detective Walker’s habeas testimony over Archuleta’s, . . . Detective Walker

App. 9
suborned perjury and committed perjury himself, by
allowing Archuleta to testify to details of LeBere’s
false ‘confession’ that Walker believed not to be true
and that were in fact false.” COA Mot. at 34-35. He further asserts that Detective Walker “failed to disclose
that he did not believe key aspects of Archuleta’s testimony.” Id. at 35. Second, Mr. LeBere argues that
“[e]ven if there was no overt conspiracy [between Detective Walker and Mr. Archuleta], [he] can still prove
his Brady claim if he shows the State withheld evidence it should have known was false.” Id. at 39.
We decline to grant Mr. LeBere a COA because he
did not raise these particular Brady arguments before
the district court and he cannot “stretch the canopy of
his [original Brady claim] to cover” these new arguments. Milton, 812 F.3d at 1263. “We have long applied
the rule that we do not consider issues not raised in
the district court.” Owens v. Trammell, 792 F.3d 1234,
1246 (10th Cir. 2015). If an “argument was not raised
in [an appellant’s] habeas petition, it is waived on appeal.” Id. This waiver principle holds true even where,
as is the case here, the prisoner is seeking relief under
the same type of claim. Mr. LeBere cannot allege a
Brady claim and “then usher in anything fitting under
that broad category as the same claim.” Milton, 812
F.3d at 1264.
Mr. LeBere cites extensively to Detective Walker’s
deposition from the habeas proceeding, see COA Mot.
at 6-7; id. at 35-37, to support his argument that “Detective Walker suborned perjury, and committed perjury himself, by allowing Archuleta to testify to details

App. 10
of LeBere’s false ‘confession’ that Walker believed not
to be true and that were in fact false” in violation of
Brady, id. at 34-35. He argues:
[T]he District Court viewed this as an all-ornothing question: either grant LeBere’s petition if you believe Archuleta, or deny LeBere’s
petition if you believe Walker. Respectfully,
there is a third option that LeBere presented
and which requires habeas relief: even if
Walker is believed, his own admissions in habeas proceedings show the State suppressed
material exculpatory evidence at LeBere’s
trial by suborning Archuleta’s perjury, vouching for that perjury, and withholding facts
known to unmask the perjury. Even setting
aside any credibility disputes, Walker’s testimony shows that the State failed to disclose
critical exculpatory information. This is a
Brady violation that merits habeas relief.
Id. at 38 (emphasis added) (citations omitted).
But Mr. LeBere does not cite to where he presented
this Brady argument to the district court. Mr. LeBere
filed the operative pleading in this case—his amended
habeas petition—on August 12, 2009. The Brady claim
presented in the amended habeas petition is premised
on allegations that Detective “Walker went about procuring a confession”; “Walker knew that LeBere never
confessed to murdering Ms. Richards”; and “[Walker]
knew that Archuleta’s testimony about the confession
was false, because Archuleta created the ‘confession’
with information that Walker supplied.” Aplt. App., Vol.
1 at 35-36. The amended habeas petition explicitly

App. 11
links the Brady claim to Detective Walker inducing Mr.
Archuleta to concoct the false confession. See id. at 37
(“In this case, the prosecution committed two separate
Brady violations, both of which stemmed from Walker’s
tampering with Archuleta.”); id. at 38 (“Walker knew
that LeBere never confessed, and Walker knew that
Archuleta was able to offer his perjured testimony only
thanks to information that Walker himself provided.
This led to Walker’s own perjury, through his testimony that Archuleta obtained the ‘confession’ from
LeBere, rather than from information that Walker provided.” (citation omitted)); id. at 39 (“Walker visited Archuleta several times in jail and gave Archuleta police
reports to prepare for his testimony. These facts are exculpatory Brady material because it shows that LeBere’s
supposed confession was a lie concocted by Archuleta,
and made possible and encouraged by Walker.”).
Mr. LeBere’s new Brady argument is based on
the factual premise that he previously disputed—that
Mr. Archuleta self-reported to Detective Walker that
Mr. LeBere had confessed to him and Detective Walker
played no role in inducing Mr. Archuleta to concoct the
allegedly false confession. The new Brady argument is
based on the theory that Detective Walker did not believe key aspects of Mr. Archuleta’s testimony about
Mr. LeBere’s confession, but Detective Walker failed to
disclose those beliefs to Mr. LeBere’s defense lawyers,
or tell the jury. Mr. LeBere asserts that “Walker affirmatively vouched for Archuleta and committed
perjury himself when he told the jury he had corroborated those details and did believe Archuleta.” COA

App. 12
Mot. at 38. He contends that “[t]he failure to disclose
Archuleta’s perjury, the commission of the perjury by
vouching for Archuleta’s testimony, and concealing
knowledge that an assault could not have been committed at Cheyenne Canyon as Archuleta testified,
each constitute a Brady violation.” Id. This new Brady
argument is based on Detective Walker’s testimony at
his deposition in the habeas proceedings on remand
after the first appeal, but Mr. LeBere never sought to
further amend his habeas petition to raise this new argument after the deposition.
Mr. LeBere’s second argument suffers from the
same defect as his first. He argues that he can “prove
his Brady claim even if there was no proven express
agreement [between Detective Walker and Mr. Archuleta]” because of “Walker’s constructive knowledge
that Archuleta would testify falsely and his failure
to disclose that information.” COA Mot. at 41. He
acknowledges the district court’s conclusion that he
did not present a constructive-knowledge theory, but
he argues it is “plainly incorrect.” Id. at 41 n.3. For support, he first cites to an argument in his COA motion
in his second appeal to this court. See id. (citing Aplt.
App., Vol. 2 at 406). But an argument in a motion to
our court in a prior appeal does not show Mr. LeBere
presented the issue to the district court. He next cites
to a footnote in his habeas reply brief, which states
“ ‘[m]ost importantly, the State does not make any argument that in this case the misconduct of Walker and
the perjured testimony of Archuleta and Walker were
unknowable by the prosecutors or other state actors.’ ”

App. 13
Id. (quoting Aplt. App., Vol. 1 at 249 n.2). But that
statement relates to the State’s alleged knowledge
about Detective Walker’s misconduct in feeding evidence to Mr. Archuleta and inducing him to concoct a
false confession and then both of them presenting false
testimony about Mr. LeBere’s false confession. This reference does not show that Mr. LeBere presented an argument to the district court that Detective Walker had
constructive knowledge that Mr. Archuleta would testify falsely about Mr. LeBere’s confession. Finally, Mr.
LeBere cites to his amended habeas petition where he
outlined the factors for prevailing on a Brady claim
and included a citation to a case with the parenthetical
“that even negligent or inadvertent suppression is nevertheless suppression for Brady purposes.” Id. (quoting
Aplt. App., Vol. 1 at 34). But this citation to a general
legal proposition without any accompanying factual
development does not adequately present a constructive-knowledge argument to the district court. Mr.
LeBere has failed to show that he presented a Brady
argument in district court based on Detective Walker’s
constructive knowledge.
III. Conclusion
Although Mr. LeBere’s amended habeas petition
raised a Brady claim, he never raised the precise arguments he is now presenting in his COA request. In
light of our general rule against considering issues for
the first time on appeal, we will not consider these arguments now as a ground for a COA. See Owens, 792
F.3d at 1246 (“We have long applied the rule that we

App. 14
do not consider issues not raised in the district court to
bar not only a bald-faced new issue presented on appeal, but also situations where a litigant changes to a
new theory on appeal that falls under the same general
category as an argument presented [below]. Because
the argument was not raised in [the] habeas petition,
it is waived on appeal.” (citation and internal quotation
marks omitted)).
Accordingly, we deny Mr. LeBere’s request for a
COA and dismiss this matter.
Entered for the Court
Jerome A. Holmes
Circuit Judge

App. 15
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Senior Judge Marcia S. Krieger
Civil Action No. 03-cv-01424-MSK-MEH
KENT ERIC LEBERE,
Applicant,
v.
TRAVIS TRANI, Warden, and
THE ATTORNEY GENERAL
OF COLORADO OF COLORADO,
Respondents.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

ORDER ADOPTING RECOMMENDATION
AND DENYING PETITION
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed Feb. 28, 2020)
THIS MATTER comes before the Court pursuant
to a remand from the 10th Circuit Court of Appeals
(# 177). This case presents a habeas corpus Petition by
Mr. LeBere pursuant to 28 U.S.C. § 2254, and the 10th
Circuit has directed the undersigned to “consider [the]
credibility” of two witnesses who have given testimony
regarding the issues raised in Mr. LeBere’s Petition.
The Court has considered the entirety of the record in
this case.

App. 16
FACTS
This case involves both extensive underlying facts
and a complicated procedural history, but a full recitation regarding those issues is not necessary in order to
resolve the matters before the Court.1 It is sufficient to
observe that on the evening of October 15, 1998, following a fight with her fiancée, Linda Richards went alone
to a bar. There, she met Mr. LeBere, spent several
hours drinking with him, and left the bar with Mr.
LeBere around 12:30 a.m. Mr. LeBere told the bartender that Ms. Richards was giving him a ride home.
What happened in the ensuing 90 minutes is unknown. But at about 2:00 a.m., a witness contacted
Colorado Springs police to report a minivan on fire at
a self-serve car wash. After the fire was extinguished,
investigators discovered the partially-burned body of
Ms. Richards inside the minivan. (The minivan was
registered to Ms. Richards’ father.) The medical examiner ultimately concluded that Ms. Richards had been
strangled to death. There was also evidence that she
had had recently had sexual intercourse, but there was
insufficient DNA evidence to reach any conclusions as
to with whom and under what circumstances.
Although police briefly considered alternative suspects, including two homeless men camping near the
car wash and Ms. Richards’ fiancée, suspicion quickly
focused on Mr. LeBere, who had been seen by witnesses
1

Lengthy factual recitations can be found in the Magistrate
Judge’s Recommendation (# 167) and the 10th Circuit’s decision.
LeBere v. Trani, 746 Fed.Appx. 727 (10th Cir. 2018).

App. 17
in a neighborhood in the vicinity of the car wash
around 2:15 a.m., recorded on security cameras as visiting a 7-11 convenience store near the car wash at or
about 2:35 a.m., and had taken a cab ride from the 711 to his residence at about 2:45 a.m. During questioning, Mr. LeBere initially gave false information to the
police about his activities the evening before: he told
police that he walked home alone from the bar, then
later admitted to leaving the bar with Ms. Richards,
but stated that she drove him home. (Following his arrest, Mr. LeBere related a third story to his aunt: that
after leaving the bar with Ms. Richards, she drove
them to another bar across town and near the car
wash, but that Mr. LeBere had felt sick by that time
and excused himself, walking to the 7-11 where he
called for a cab.) Police arrested Mr. LeBere a few days
later, and he was charged with three alternative counts
of First-Degree Murder and one count of SecondDegree Arson.
The key issue presented here concerns an alleged
confession that Mr. LeBere made during his pre-trial
detention. Mr. LeBere was housed with several other
detainees, including Ronnie Archuleta. Mr. Archuleta
was known to serve as a confidential informant to police, both inside and outside jail. (As discussed below,
he was also known by police to fabricate information.)
Although the circumstances – and indeed, existence –
of that confession are hotly disputed and discussed in
greater detail below, it is sufficient at this point to observe that Mr. Archuleta told Colorado Springs Police
Detective J.D. Walker that he would testify that Mr.

App. 18
LeBere had confessed to having sex with Ms. Richards,
strangling her, and then driving the minivan to the car
wash and setting it on fire to conceal any physical evidence. In exchange for Mr. Archuleta’s assistance,
Detective Walker and Ann Joyce, a Colorado Springs
District Attorney, allegedly offered Mr. Archuleta a favorable plea deal that allowed him to avoid additional
jail time on the check fraud charges he was currently
facing.
Mr. LeBere went to trial in 1999. Along with the various circumstantial evidence that was presented against
him, the trial court allowed Mr. Archuleta to testify
about Mr. LeBere’s alleged confession. Mr. Archuleta’s
reputation for untruthfulness was also addressed
in detail on both direct- and cross-examination. Mr.
LeBere’s defense focused on the fact that police had
hastily decided to charge Mr. LeBere and had not materially investigated alternative suspects, such as the
homeless men or Ms. Richards’ fiancée. Ultimately, the
jury acquitted Mr. LeBere of charges of First-Degree
Murder and Felony Murder, but convicted him on
charges of Second-Degree Murder and Second-Degree
Arson. Mr. LeBere was then sentenced to 60 years in
prison on the charges.
About six months after the trial had concluded,
Mr. Archuleta reached out to Mr. LeBere’s attorney,
stating that “his conscience was bothering him” and
admitting that he had testified falsely about Mr. LeBere’s jailhouse confession. Mr. Archuleta claimed that
Detective Walker had offered to give Mr. Archuleta favorable treatment on his own criminal charges if he

App. 19
gave testimony that implicated Mr. LeBere. Mr. Archuleta stated that Mr. LeBere had not given out
any information about the crime, and that Detective
Walker stated that he “needed a confession.” Mr. Archuleta stated that Detective Walker then provided
key pieces of information to Mr. Archuleta to allow Mr.
Archuleta to fabricate an alleged “confession” that was
rendered more credible because it contained heretofore
unreported details about the crime. Mr. Archuleta later
signed an affidavit relating this version of events.
Based on these facts, Mr. LeBere filed this habeas
corpus petition pursuant to 28 U.S.C. § 2254, seeking to set aside his conviction because (among other
things) Detective Walker’s efforts to induce Mr. Archuleta to fabricate a confession by Mr. LeBere constituted Brady material that the prosecution failed to
disclose. After certain procedural developments that
are not germane here, Mr. LeBere’s present habeas Petition asserts that single Brady claim.2 In conjunction
with that petition, both Mr. Archuleta and Detective
Walker gave video depositions (# 151). This Court
referred the matter to the Magistrate Judge for a
2

The 10th Circuit describes that single claim as presenting
“two distinct subclaims”: that the District Attorney failed to disclose that Detective Walker and Mr. Archuleta “conspired to manufacture a false confession” and that Detective Walker and Mr.
Archuleta “committed perjury by testifying to the contrary.”
LeBere v. Trani, 746 Fed.Appx. 727, 731 (10th Cir. 2018). But the
10th Circuit concluded that Mr. LeBere “cannot prevail on subclaim two without also prevailing on subclaim one,” such that “in
neither scenario would [ ] resolution of the second subclaim affect
the ultimate outcome.” Id. at 732 n. 2.

App. 20
Recommendation, and the Magistrate Judge recommended (#167) that Mr. LeBere’s Petition be denied.
The Magistrate Judge found that Mr. Archuleta’s version of events (that Detective Walker directed him to
fabricate a confession by Mr. LeBere and the two men
conspired to develop the details of the false confession)
was less credible than Detective Walker’s version of
events (that Mr. Archuleta reported to Detective Walker,
unprompted, that Mr. LeBere had confessed to the
crime, and that Mr. Archuleta’s testimony at Mr. LeBere’s trial was not shaped in any way by Detective
Walker). Thus, the Magistrate Judge concluded that
Mr. LeBere had not carried his burden of demonstrating that the prosecution withheld impeaching Brady
evidence relating to Detective Walker’s interactions
with Mr. Archuleta.
This Court adopted (# 169) the Recommendation
that Mr. LeBere’s Petition be denied, albeit on different
grounds. The Court concluded that even if Mr. Archuleta’s current version of events – that he fabricated
Mr. LeBere’s alleged confession – is true, evidence regarding that fabrication was not material because
there was ample independent evidence demonstrating
Mr. LeBere’s guilt and because Mr. Archuleta’s credibility was already thoroughly and effectively impeached during trial (particularly because the jury’s
rejection of the First-Degree Murder and Felony Murder charges suggested that the jury did not believe Mr.
Archuleta’s testimony that Mr. LeBere confessed to
sexually assaulting Ms. Richards and then murdering
her to conceal evidence of that assault).

App. 21
On appeal, the 10th Circuit reversed. LeBere v.
Trani, 746 Fed.Appx, 727 (10th Cir. 2018). It concluded
that “the impact the suppressed evidence could have
had” at trial was broader than simply impeaching Mr.
Archuleta’s testimony about Mr. LeBere’s alleged confession; it could also have “strongly supported LeBere’s
theory that police had conducted an insufficient investigation.” Id. at 732. The 10th Circuit focused on trial
testimony by Detective Walker where he described
himself as the “lead detective” and “pivot point” of
the investigation. If the jury believed that Detective
Walker had conspired with Mr. Archuleta to fabricate
a confession, “the jury might well conclude that the [police] investigation was aimed at convicting LeBere rather than uncovering the truth.” Id. Finding that this
Court erred in rejecting Mr. Archuleta’s recantation as
immaterial, the 10th Circuit remanded the matter to
this Court “to consider credibility in the first instance.
On remand, the district court may adopt a magistrate
judge’s credibility finding, or if it concludes that an evidentiary hearing is appropriate, conduct a hearing
and observe the witnesses independently.” Id. at 733.
The Court, having reviewed all of the evidence in
the record, is now prepared to make the credibility
finding directed by the 10th Circuit.
ANALYSIS
A thorough recitation of the Brady analysis is unnecessary. As both the Magistrate Judge and 10th Circuit recognized, the question comes down to one of

App. 22
credibility: whether Mr. Archuleta’s testimony about
having conspired with Detective Walker is more credible than Detective Walker’s testimony that Mr. Archuleta self-reported Mr. LeBere’s alleged confession
without any prompting.
In considering this question, the Court begins with
the choice framed by the 10th Circuit’s instructions:
the Court may adopt the Magistrate Judge’s credibility
findings (favoring Detective Walker’s version of events),
or the Court may elect to conduct a de novo evidentiary
hearing to receive testimony from Mr. Archuleta and
Detective Walker.
The Court finds that conducting an independent
evidentiary hearing is unnecessary. Mr. LeBere appears to agree that the Court should resolve this matter on the current record, without conducting an
evidentiary hearing. Docket # 150 at 24-25. In addition,
the parties had a full opportunity to develop the testimony of both Mr. Archuleta and Detective Walker via
their depositions, and it does not appear to this Court
that productive areas of inquiry were left unexplored.
And although evidentiary hearings often provide as an
opportunity for the factfinder to observe a witness’ demeanor, the Court has had an opportunity to view the
witnesses’ demeanor because both depositions were
videotaped. For these reasons, the Court adopts the
Magistrate Judge’s credibility finding, but does so in
light of the Court’s independent review of the witness’
deposition testimony.

App. 23
Before beginning its analysis, it is helpful to focus
on the specific factual dispute for which a credibility
determination is required. The question is not whether
Mr. Archuleta testified falsely that Mr. LeBere had confessed; the Court will assume that he did. The question
is not even whether Mr. Archuleta fabricated the alleged confession; again, the Court can assume that he
did. The pertinent question is whether Mr. Archuleta
fabricated the alleged confession at the direction of (or,
at the very least, with the knowledge of ) Detective
Walker. Put differently, if Mr. Archuleta decided to fabricate Mr. LeBere’s alleged confession on his own initiative, without the knowledge of Detective Walker, then
the prosecution’s failure to disclose that fabrication to
Mr. LeBere cannot be a Brady violation.3 Thus, the
3

A Brady claim may arise where the prosecution is negligent
is failing to prevent false testimony from being presented. See e.g.
U.S. v. Garcia, 793 F.3d 1194, 1207 (10th Cir. 2015) (claim may
arise if “the prosecution did not correct testimony that it should
have known was false”) (emphasis in original). Here, the Court
does not understand Mr. LeBere to contend that, if Mr. Archuleta
fabricated the alleged confession of his own accord and never advised Detective Walker of that fact, that confession was nevertheless so transparently false that Detective Walker should have
recognized that Mr. Archuleta had concocted it.
Mr. LeBere does argue that Detective Walker could have
identified alternative explanations for Mr. Archuleta’s claim that
he derived knowledge of certain details of the case (e.g. a distinctive tattoo on Mr. LeBere that Mr. Archuleta could simply have
observed in day-to-day interactions at the jail; the fact that police
had previously shown a composite sketch of a suspect to Mr.
LeBere himself while canvassing his neighborhood, as that fact
had been reported in news coverage of the crime) from sources
other than Mr. LeBere confessing. But Mr. LeBere does not clearly
argue that Detective Walker’s acceptance of Mr. Archuleta’s story

App. 24
credibility determination focuses on the conversations
between Mr. Archuleta and Detective Walker.
Mr. Archuleta’s testimony
Mr. Archuleta testified in his deposition that he
could not recall “how [he] came to be speaking with
[Detective] Walker about [Mr.] LeBere,” explaining
that it was “17 years ago, 18 years ago.” Docket # 1509 at p. 15-16.4 Mr. Archuleta did not recite the specific
words or instructions that Detective Walker gave him
at that first meeting; he testified only to his “understanding5 [ ] that [Detective] Walker wanted me to get
information on [Mr.] LeBere . . . because of the fact that
I had done it before in other cases, been able to talk to
people.” P. 16.

as presented constituted a degree of negligence sufficient to give
rise to a Brady violation.
4
Hereafter, the Court will refer to Mr. Archuleta’s deposition
transcript solely by page number, in the format P. ___. For precision, the Court will use the page numbers in the transcript itself,
as opposed to the pagination placed on that exhibit by the
CM/ECF system.
5
The specific question posed to Mr. Archuleta did not ask
him to recall what Detective Walker said, but instead, what
Detective Walker wanted. “When you and [Detective] Walker discussed [Mr.] LeBere, what did you understand about what [Detective] Walker wanted?” P. 16 (emphasis added). The breadth of
the question is instructive – it left open the opportunity for Mr.
Archuleta to respond with what he believed were instructions either as to the confession or as to his testimony at trial. But Mr.
Archuleta’s response does not indicate that he understood either
type of instruction to have been given.

App. 25
The critical moment was when Mr. Archuleta
purportedly reported back to Detective Walker (on an
unknown date) that he was unable to obtain information from Mr. LeBere. This is the moment when,
presumably, Detective Walker would have instructed
Mr. Archuleta to fabricate a confession. However, Mr.
Archuleta testified that he was unable to recall what
Detective Walker said at this time: “I don’t remember
how he – how he responded” to the news that, despite
Mr. Archuleta’s attempts, Mr. LeBere had not revealed
any information. P. 17. Mr. Archuleta only remembered
that Detective Walker “ . . . had a binder” that contained police reports and other case-specific information
and that “he show[ed]” the binder to Mr. Archuleta. P.
17-18. Ultimately, Mr. Archuleta testified that all of the
specific factual details in the alleged confession were
obtained from his conversations with Detective Walker
or from reviewing the police reports. P. 20-22. But Mr.
Archuleta does not relate the specific contents of any
conversations he had with Detective Walker about
these events, any instructions that Detective Walker
gave him with regard to his testimony, or any specific
discussions the men had about the contents of the
binder.
The quid pro quo for Mr. Archuleta’s alleged fabrication of the confession was an agreement by Detective
Walker and Assistant District Attorney Ann Joyce that
Ms. Joyce would not file habitual criminal charges
against Mr. Archuleta, and would waive a condition
that otherwise made Mr. Archuleta ineligible for probation on his pending charges. P. 18-19. In essence,

App. 26
such agreement allowed Mr. Archuleta to be released
from jail almost immediately (upon satisfaction of a
restitution obligation), rather than face the possibility
of 10 years of imprisonment on the habitual criminal
charge. P. 19. As to the terms of the alleged agreement,
Mr. Archuleta’s testimony is also vague. He generally
relates being “told by [Detective] Walker and [Ms.]
Joyce” about this offer, but he offers no specific details
about when the offer was made, how it was conveyed,
and by whom, among other things. P. 19. Mr. Archuleta
testified that, at some point thereafter, the District Attorney’s office “didn’t want to go through with” the deal
he had made with Detective Walker and Ms. Joyce, and
that the office was “dragging their feet on it.” P. 19. Mr.
Archuleta states that his attorney “called a hearing in
front of [a judge] to force them to go through with the
deal,” and ultimately, the deal was enforced. P. 19.
Detective Walker’s testimony
In his deposition, Detective Walker testified that
his first contact with Mr. Archuleta regarding this case
was on October 28, 1998. Docket # 151-7 at p. 27. Detective Walker had been told by jail staff that an inmate claimed to have information about Mr. LeBere’s
case P. 28. Detective Walker arranged to meet that inmate – Mr. Archuleta – at the jail. P. 28. At that meeting, Mr. Archuleta was brought into the room with
Detective Walker and stated “I didn’t know you were
on this case.” P. 34-35. Detective Walker testified that
Mr. Archuleta then launched into an extensive narrative which Detective Walker describes in detail. P. 35,

App. 27
37-43. Mr. Archuleta explained that he gathered information from Mr. LeBere over five days of discussions,
beginning with a discussion about whether Mr. LeBere
would be able to secure a bond (as Mr. Archuleta had
previously worked for a bail bondsman) given the
charges against him. P. 37-38. Mr. Archuleta told Detective Walker that Mr. LeBere confessed to him, detailing many specific facts (which the Court need not
catalog).6
At the conclusion of Mr. Archuleta’s story, Detective Walker asked “what do you want out of this What
do you want for this information?” Mr. Archuleta responded “I don’t want anything. I’m just tired of this
shit,” which Detective Walker understood to mean that
Mr. Archuleta was offended by what Mr. LeBere had
described and “wanted to do the right thing and tell
some authority and that’s what he was doing with me.”
P. 45. Detective Walker ended the interview at that
time, telling Mr. Archuleta that “I won’t be back” because “I don’t want you to think that you’re my police
agent.” P. 45. In response, Mr. Archuleta “br[ought] up
Ann Joyce . . . and that he wanted a continuance from
6

At various points recounting this narrative, Detective
Walker makes clear that he did not believe certain portions of
what Mr. Archuleta was stating. Based on his prior experience
with Mr. Archuleta, Detective Walker was aware that Mr. Archuleta “ad libs a lot of things” or sometimes fabricates certain
details. P. 43. Overall, however, Detective Walker believed that
Mr. Archuleta had actually secured a genuine confession from Mr.
LeBere because many of the details provided by Mr. Archuleta
matched evidence that the police had from their investigation. P.
53-54.

App. 28
Ann Joyce” which would allow him enough time to
make required restitution payments “so he could get
out of jail.” Detective Walker stated that he would “see
what I can do regarding the restitution.” P. 46. Detective Walker denied that there was ever a discussion of
any quid pro quo for Mr. Archuleta’s information or
subsequent testimony against Mr. LeBere. P. 46.
Detective Walker had two further communications
with Mr. Archuleta in the following days. At some point
in late October or early November 1998, Mr. Archuleta
asked jail staff to page Detective Walker, and they did
so. Detective Walker then spoke on the phone to Mr.
Archuleta, and Mr. Archuleta explained that he was in
fear for his safety because Mr. LeBere (and perhaps
other inmates in his unit) were threatening him. (Paradoxically, it appears that Mr. Archuleta may also have
complained that he was being moved to protective isolation.) Detective Walker told Mr. Archuleta to let the
deputies at the jail know about the threats. P. 64-66.
On November 6, 1998, Detective Walker met in
person with Mr. Archuleta at the jail to “talk[ ] about
the deal that Ann Joyce was going to make with him.”
P. 68-69. Detective Walker had contacted Ms. Joyce to
inquire about the charges against Mr. Archuleta. Ms.
Joyce advised that “he was in on a 90-day sentence” on
a check fraud case, and that she had a standing plea
offer on such cases – payment of restitution by a certain date, followed by a sentence of probation. P. 46-47.
Detective Walker then contacted Mr. Archuleta’s attorney, and his attorney advised Detective Walker that
Mr. Archuleta was simultaneously serving a separate

App. 29
90-day sentence of which Ms. Joyce was unaware. P. 7172. When Detective Walker informed Ms. Joyce of the
additional sentence, she indicated that “the deal was
off ” and that she could do nothing to help with the second sentence. P. 73. Detective Walker does not know
what happened to Mr. Archuleta after that. P. 73.
Collateral evidence
At Mr. LeBere’s trial, Deputy Brian Dey, an El
Paso County Sheriff ’s Deputy who worked at the jail,
testified about an encounter that he had with Mr. Archuleta on October 26, 1998, two days before Mr. Archuleta first met with Detective Walker. Deputy Dey
testified that Mr. Archuleta approached him and stated
“You need to keep an eye on inmate LeBere.” According
to Deputy Dey:
Inmate Archuleta stated to me that Inmate
LeBere was talking about his [crime] in the
ward, and he said that – he said he did commit
the crime, and the reason he burned the van
was because that’s where he had sex with her
before she was killed. Those were his exact
words. And he also indicated that – that if his
case went to trial, that he was going to kill
himself. (Testimony of Jan. 11, 1999, p. 58.)
Deputy Dey memorialized this incident in a written report that he provided to his supervisor. It is this report
that was ultimately provided to Detective Walker and
which induced Detective Walker to have his first meeting with Mr. Archuleta.

App. 30
Mr. Archuleta was asked about Deputy Dey’s written report during Mr. Archuleta’s 2015 deposition.
When shown Deputy Dey’s report during the deposition, Mr. Archuleta stated that “it’s a bullshit report.”
P 58. Mr. Archuleta never specifically disputed the substantive content of the report – i.e. he never expressly
denied that he told Deputy Dey that Mr. LeBere had
confessed to him. Instead, Mr. Archuleta took issue
with the fact that Deputy Dey reported this conversation having occurred shortly after midnight, and Mr.
Archuleta explained that “we’re locked down” at that
time of night, and thus, “there’s no way I could have
walked up to” Deputy Dey to convey that information.
P 58-59. Asked point-blank if he was “claiming [he]
never said those things,” Mr. Archuleta seemingly deflected, answering “That is what I’m saying, ma’am. I’m
saying there is no way I could have said that at that
time.” P. 61 (The Court’s underlining is based on Mr.
Archuleta’s vocal emphasis on the highlighted words,
audible on the video recording of his deposition at
1:08:55.) The attorney conducting the deposition returns to this issue again later, asking “So you did talk
to Deputy Dey, didn’t you?” Mr. Archuleta answers “I
might have. I don’t remember . . . All I’m saying is that
this report, the time on it that says I talked to him,
that couldn’t have been.” P. 69. Mr. Archuleta acknowledged that he knows of no reason why Deputy Dey
would have lied about having had that conversation. P.
60-61.

App. 31
Reputation for truthfulness
Detective Walker testified that he considered Mr.
Archuleta to be a “chronic liar” who “ad libs a lot of
things,” attributing them to a third party when, Detective Walker believed, such statements were Mr. Archuleta’s own creations. P. 43, 47-48. Detective Walker
acknowledged that the Colorado Springs Police Department had once indicated that Mr. Archuleta “wasn’t
reliable” and wasn’t to be used as a paid informant
P. 58-59. And, by Mr. Archuleta’s own admission, he
knowingly and intentionally gave false testimony in
Mr. LeBere’s case, both at a preliminary hearing and
again during trial.
The record does not reveal any evidence that Detective Walker has a reputation for untruthfulness. Mr.
LeBere has adduced some evidence that Detective
Walker has been disciplined by the Colorado Springs
Police Department for failure to observe certain police
procedures, but those disciplinary charges do not involve allegations of untruthfulness by Detective Walker.
Mr. LeBere also seeks to impeach Detective Walker’s
testimony by pointing out that Detective Walker never
followed up on some of the leads that Mr. Archuleta’s
information provided (e.g. by investigating whether there
were security cameras in the area where Mr. Archuleta
claimed Mr. LeBere confessed to taking Ms. Richards).
Findings
The Court finds that Detective Walker’s testimony about his interactions with Mr. Archuleta are

App. 32
substantially more credible that Mr. Archuleta’s version of those interactions. Several observations support this conclusion.
First, Mr. Archuleta’s testimony lacked meaningful details, providing only a skeletal description of key
events and moments. In the undersigned’s experience
as a factfinder, a witness’ ability to recall and convey
details about an important event lends credibility to
the witness’ testimony about that event; similarly, a
witness who cannot recall or does not convey details
when one would expect the witness to recall those details is typically found to be less credible about that
event. Even assuming that Mr. Archuleta’s experiences
with law enforcement are tempered with a healthy
dose of cynicism, one would expect that the moment at
which a law enforcement officer expressly7 asked him
to fabricate evidence to secure a murder conviction
would have come as somewhat of a shock to Mr. Archuleta, and thus, one would expect that Mr. Archuleta
would remember that moment with clarity and precision even many years later. (Similarly, to the extent that Mr. Archuleta’s testimony is understood to
7

Perhaps Detective Walker’s request was not express at all.
Perhaps, like a carefully-crafted film noir scene, Detective Walker
responded to Mr. Archuleta’s report that Mr. LeBere was remaining tight-lipped with a sarcastic “oh, that’s too bad,” conspicuously tapped his fingers on the binder of police reports a few
times, and then abruptly announced that perhaps he would leave
the room for ten or fifteen minutes to get a cup of coffee. Once
again, the lack of any meaningful detail in Mr. Archuleta’s description of events leaves the critical moment when he and Detective Walker reached their nefarious agreement entirely to the
reader’s imagination.

App. 33
contend that he personally met with Ms. Joyce8 to discuss a plea deal, Mr. Archuleta’s inability to describe
any details of a momentous meeting where he was told
he would be rewarded for complying with a law enforcement’s request to fabricate evidence further undercuts his credibility.)
One might also expect that Mr. Archuleta would
have had some discussion with his attorney about the
request because it impacted the disposition of his
pending case. But there is no reference to Mr. Archuleta’s attorney until Mr. Archuleta complains that
the District Attorney was not moving swiftly enough.
One might expect that Mr. Archuleta would recall
the process by which he acquired the relevant details
of the crime – whether he read one or many police reports or whether Detective Walker largely instructed
him orally, and whether Detective Walker guided him
about which pieces of evidence in the police reports
were critical and which could be ignored or whether
Mr. Archuleta selected the key information. One would
assume that Mr. Archuleta could remember and describe the amount of time he spent reading and discussing the contents of those reports with Detective
Walker and the process (if any) by which they rehearsed and refined the details of the “confession.” Yet
8

Mr. Archuleta’s testimony is somewhat ambiguous as to
whether he met in person with Ms. Joyce, talked on the phone
with Ms. Joyce, or whether all of his communications with Ms.
Joyce were exchanged through Detective Walker as an intermediary. Once again, that ambiguity and lack of detail weighs
against Mr. Archuleta’s credibility as a witness.

App. 34
Mr. Archuleta’s testimony elides any and all mention
of such events, offering little more than the bare statement that “it happened.”
In contrast, Detective Walker’s testimony contains
the sort of details – about dates, times, locations,
events preceding and following – that lend credibility
to his version of events. And his recollection that Mr.
Archuleta initiated the process of offering information
about the crime is buttressed by the fact that Mr. Archuleta engaged in similar behavior with jail staff.
The Court also agrees with the Magistrate Judge
that Deputy Dey’s report is unimpeached collateral evidence that strongly suggests that Detective Walker’s
version of events is more credible than Mr. Archuleta’s.
Deputy Dey’s report fundamentally undercuts Mr. Archuleta’s version of events: that he did not talk to Mr.
LeBere about the crime until Detective Walker asked
him to, and that Mr. LeBere was not forthcoming, forcing Detective Walker to demand a fabricated confession instead. Deputy Dey’s report indicates that Mr.
Archuleta was claiming to have received a substantial
confession from Mr. LeBere two days before Mr. Archuleta first met with Detective Walker. Mr. LeBere
has never suggested that Deputy Dey fabricated the
report, and indeed, when pressed, Mr. Archuleta himself testified that it was possible that he spoke to Deputy Dey, albeit not at the time of day that Deputy Dey
listed in the report. (Notably, Mr. Archuleta never specifically contended that Deputy Dey’s report had to be
fabricated because Mr. Archuleta never received any
confession from Mr. LeBere.)

App. 35
In his Objections (# 168) to the Magistrate Judge’s
Recommendation, Mr. LeBere argues that “the timing
of the Deputy Dey report” actually supports Mr. Archuleta’s contention that Detective Walker asked him
to fabricate a confession and provided him with the information to do so. Mr. LeBere’s Objections posit that
“Archuleta’s act of approaching Deputy Dey, Walker becoming aware that Archuleta was willing to inform on
LeBere, and Walker helping Archuleta manufacture a
confession” are a plausible sequence of events.
That may be, but it is not the sequence of events
that Mr. Archuleta testified occurred, nor is it the series of events recited in Deputy Dey’s report. Mr. Archuleta was unambiguous in his testimony that Mr.
LeBere never made any confession to him and never
spoke about the case, P. 14-15, yet Deputy Dey’s report
states that Mr. Archuleta reported just such a confession to Deputy Dey. And it is undisputed that Mr. Archuleta reported that confession to Deputy Dey days
before Detective Walker could have provided Mr. Archuleta with the details necessary to fabricate that
confession. Had Mr. Archuleta admitted that he fabricated a skeletal confession when speaking to Deputy
Dey, and that he told Detective Walker that the confession was false and that Detective Walker nevertheless
instructed him to just go with it, Mr. LeBere’s argument might be persuasive.9 But that is not what Mr.
9

Were this Court entitled to speculate, it might conclude
that Mr. Archuleta, on his own initiative, approached Deputy Dey
and lied about Mr. LeBere confessing to him, believing that he
could exchange (false) testimony about that confession for more

App. 36
Archuleta claims occurred, and Deputy Dey’s report
dramatically undercuts the credibility of Mr. Archuleta’s
stated version of events.
There are also internal inconsistencies in Mr. Archuleta’s version of events. Mr. Archuleta makes clear
that he acceded to Detective Walker’s request for a fabricated confession because Ms. Joyce was willing to offer him a plea that would allow him to leave jail almost
immediately. But Mr. Archuleta’s own testimony is
that Ms. Joyce thereafter “dragged her feet” and forced
Mr. Archuleta to seek court intervention to enforce a
plea offer. One might expect that Ms. Joyce not holding
up her end of the bargain and securing Mr. Archuleta’s
prompt release would cause Mr. Archuleta to back
out of the deal (particularly once a court had already
ordered his release). But Mr. Archuleta thereafter
favorable treatment on his existing charges. Deputy Dey reported
that confession to Detective Walker, and Detective Walker agreed
to meet Mr. Archuleta to discuss the purported confession. It may
be that Mr. Archuleta knew of specific details about Mr. LeBere’s
case from recent news reports (as Mr. LeBere sometimes argues)
and he simply repeated those facts to Detective Walker, couching
them as Mr. LeBere’s confession. It may be that Mr. Archuleta
simply constructed the confession from several lucky guesses. Or
it may be that Mr. Archuleta was able to manipulate Detective
Walker into inadvertently revealing facts about the case that Mr.
Archuleta was able to weave back into the false confession to
make it appear more plausible (much like the “cold reading” techniques that “psychics” use to create the impression that they
know hidden information about their customer). But the Court
finds that the key component of Mr. Archuleta’s version of events
– that Detective Walker knew that the alleged confession Mr. Archuleta claimed to have received was false – is not credible given
the record herein.

App. 37
continued to cooperate with the prosecution after his
release, giving testimony at Mr. LeBere’s trial. Although this apparent inconsistency alone is of limited
weight in the credibility analysis, it suggests that Detective Walker’s version of events – Ms. Joyce offered a
typical plea deal to Mr. Archuleta, but Mr. Archuleta’s
concurrent sentence on other charges prevented Ms.
Joyce’s offer from conveying any real benefit – more
plausibly explains the delay in Mr. Archuleta’s release
and is therefore more credible.
Finally, the Court considers the parties’ relative
reputations for truthfulness. Mr. Archuleta is, by his
own admission, a liar. He either gave false testimony
at both the preliminary hearing and at the trial in Mr.
LeBere’s case, or he gave false testimony in an affidavit
recanting his trial testimony; in either event, Mr. Archuleta’s truthfulness is already suspect. His untrustworthiness is corroborated by evidence that the
Colorado Springs Police Department also concluded
that he is not reliable. Mr. LeBere’s suggestion that Mr.
Archuleta is telling the truth this time, unlike the
many instances in the past when he has lied under
oath, is one that the Court meets with considerable
skepticism.
By contrast, nothing in the record suggests that
Detective Walker has a record of untruthfulness.
Whether Detective Walker executed his duties competently is a question that this Court need not explore,
as it does not bear on the question of credibility. And
although Mr. LeBere suggests that Detective Walker’s
version of events is incredible because Detective

App. 38
Walker did not follow up on the additional information
that Mr. Archuleta provided, this Court cannot conclude that Mr. Archuleta’s “new” facts were the type of
bombshells that, if investigated, were likely to lead to
evidence that would substantially bolster the existing
case against Mr. LeBere. The Court does not necessarily assume that, as a law enforcement officer, Detective Walker carries an inherent patina of truthfulness;
once again, in its experience as a factfinder, the undersigned has found on several occasions that law enforcement officers’ testimonies have been as incredible as
ordinary witnesses. But Detective Walker’s version of
events starts with the benefit that it describes an unremarkable series of events (an informant reports that
he has obtained information, and that information conforms to the known facts of the case) and that version
of events fits neatly alongside all of the other evidence
in this case. Mr. Archuleta’s version of events, on the
other hand, starts with a remarkable premise (that a
police officer would, contrary to police procedure, societal expectations, and even criminal law, expressly ask
another person to fabricate evidence), conflicts with
other evidence in the case, and raises red flags about
its truthfulness.
Accordingly, the Court finds that, upon review of
the record as a whole, Detective Walker’s version of
events is more credible than Mr. Archuleta’s. With that
finding, Mr. LeBere’s Brady claim collapses: Mr.
LeBere has failed to show by a preponderance of the
evidence that Detective Walker knew (or even should
have known) that Mr. Archuleta’s claim that Mr.

App. 39
LeBere had confessed to him was false. Because the
prosecution had no reason to believe that Mr. Archuleta’s statements about Mr. LeBere confessing were
false, Brady did not obligate the prosecution to reveal
such non-existent concerns to Mr. LeBere. Thus, the
Court adopts the Magistrate Judge’s Recommendation
and denies Mr. LeBere’s petition.
CONCLUSION
For the foregoing reasons, the Court OVERRULES Mr. LeBere’s Objection (# 168), ADOPTS the
Magistrates Judge’s August 8, 2016 Recommendation
(# 167), and DENIES Mr. LeBere’s Amended Application for Writ of Habeas Corpus Pursuant to 28 U.S.C.
§ 2254 (# 62). To the extent that the Court must consider whether to grant a Certificate of Appealability
pursuant to 28 U.S.C. § 2253(c), and considering the
standards of Slack v. McDaniel, 529 U.S. 473 (2000),
the Court finds that, given the factual findings contained herein, Mr. LeBere has not made a substantial
showing of a denial of a constitutional right. Thus, the
Court DENIES a Certificate of Appealability.
Dated this 28th day of February, 2020.
BY THE COURT:
/s/ Marcia S. Krieger
Marcia S. Krieger
Senior United States
District Judge

App. 40
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

KENT ERIC LEBERE,
Petitioner - Appellant,
v.
TRAVIS TRANI, Warden;
THE ATTORNEY
GENERAL OF THE
STATE OF COLORADO,

No. 16-1499
(D.C. No. 1:03-CV01424-MSK-MEH)
(D. Colo.)

Respondents - Appellees.
-----------------------------------------------------------------------

ORDER AND JUDGMENT*
-----------------------------------------------------------------------

(Filed Aug. 15, 2018)
Before BRISCOE, LUCERO, and BACHARACH, Circuit Judges.
-----------------------------------------------------------------------

Kent LeBere appeals the district court’s denial of
his 28 U.S.C. § 2254 habeas petition. We conclude that
the district court took an improperly narrow view of
the evidence LeBere claims the government improperly withheld. See Brady v. Maryland, 373 U.S. 83
* This order and judgment is not binding precedent, except
under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

App. 41
(1963). Exercising jurisdiction under 28 U.S.C. § 1291,
we reverse and remand for further proceedings.
I
A
Around 2 a.m. on the morning of October 16, 1998,
witnesses reported a burning van inside a self-serve
carwash stall in Colorado Springs. Police and firefighters arrived on the scene within minutes. After extinguishing the blaze, they discovered a badly burned
body between the front seats. A subsequent investigation revealed that the fire was intentionally set, and
that the victim, Linda Richards, had been strangled before the fire began. Spermatozoa were discovered, but
were not sufficient to conduct DNA testing.
Detective J.D. Walker was the lead detective for
the Richards investigation. After identifying the body,
investigators contacted her fiancé, Russell Herring.
Herring told police that he had last seen Richards at
approximately 7 p.m. the prior evening. The couple had
an argument and Richards left “in a hysterical manner.” Police learned that Richards spent much of the
night at Crazy Mike’s Bar.
A bartender reported that Richards was drinking
and playing pool with a man later identified as LeBere
at the bar for several hours. At one point, the bartender
asked him if he was going to “get lucky,” and LeBere
responded that he and Richards “were talking about a
one night stand,” but “Richards did not believe in one

App. 42
night stands.” When the two left together at about
12:30 a.m., LeBere told a bartender that Richards was
giving him a ride home. That bartender later assisted
police in preparing a composite sketch.
Police also obtained a surveillance video from a
convenience store near the crime scene. A bartender
identified LeBere in the video at approximately 2:35
a.m. An employee of the convenience store recalled
that he saw a cab in the parking lot shortly after
LeBere left. Investigators learned from a cab company
that LeBere had been picked up at 2:45 a.m. and
dropped off a short distance from his residence. Officers canvassed that area with the composite sketch and
eventually arrested LeBere.
When interviewed by police, LeBere admitted that
he was with Richards at Crazy Mike’s Bar. He initially
claimed that he left the bar alone, but later stated that
he left with Richards and that she gave him a ride
home. LeBere was charged with first degree murder after deliberation and felony murder.
At trial, two employees of Crazy Mike’s Bar identified LeBere. The convenience store video of LeBere
was played for the jury. A woman who lived near the
car wash testified that she saw LeBere walking past
her house shortly after 2:00 a.m. A cab driver testified
that he knew LeBere was the individual he picked up
from the convenience store after he saw a photo of
LeBere on television news. The government introduced
testimony regarding LeBere’s inconsistent statements
to police, and LeBere’s aunt testified that he told her

App. 43
that Richards was driving him to another bar when he
felt sick and took a cab home. LeBere had his hair cut
the day after the murder.
The government also offered testimony from a jailhouse informant, Ronnie Archuleta. Archuleta was
housed with LeBere prior to trial. On October 26, 1998,
Archuleta reported to Deputy Brian Dey that LeBere
had confessed to him Dey wrote a report indicating
that LeBere told Archuleta he burned the van because
he had sex with Richards in the vehicle before she was
killed. Detective Walker, who knew Archuleta from
previous encounters, met with Archuleta on October
28, 1998. Walker relayed Archuleta’s account at trial,
stating that LeBere confessed that he met Richards in
a bar, she gave him a ride home, he had sex with her,
then panicked and choked her before driving to the
car wash and burning the vehicle to destroy any evidence. According to Walker, some of the information Archuleta reported would only be known to the killer.
Archuleta’s testimony at trial was consistent with that
report. Archuleta also stated that Walker promised to
talk to the district attorney about one of Archuleta’s
pending cases, and that he ultimately was given a deal,
receiving probation on that case.
LeBere’s primary defense theory was that law enforcement had prematurely narrowed its investigation. He noted that police interviewed two homeless
men camping near the car wash on the night of the
murder, but failed to investigate them as potential suspects. A woman contacted police because she saw a van
at the carwash just before 2 a.m., with a man standing

App. 44
nearby who did not match LeBere’s description. She
did not identify LeBere in a photo lineup or in the convenience store video.
LeBere argued that Richards’ fiancé, Herring,
should have been treated as a suspect. Herring admitted that police had been called to the home he and
Richards shared, that their fights became “physical,”
that he slapped Richards on one occasion hard enough
that she went to the emergency room, and that he once
pushed her van out of the driveway with his vehicle
after a fight. Herring told police that he had not left
home on the night of the murder. But a neighbor reported to police that he thought he heard a pickup
truck backing over a curb near Herring’s house that
night. Police never called back. Richards’ father testified that he saw condensation or dew on Herring’s
truck at about 6:30 a.m. the morning after the murder.
But an expert testified that meteorological conditions
that morning could not have caused dew to form, and
thus the moisture was likely caused by someone having been inside the vehicle.
The defense also sought to undermine Archuleta’s
credibility. Walker conceded that he previously described Archuleta as a chronic liar. The jury learned of
Archuleta’s three prior felony convictions. And Archuleta admitted that LeBere had been warned by
another inmate not to talk to him because he was a
“snitch.”
A jury found LeBere not guilty of first degree murder, felony murder, and manslaughter, but convicted

App. 45
him of second degree murder and arson. He was sentenced to sixty years’ imprisonment.
B
While LeBere’s direct appeal was pending, Archuleta contacted LeBere’s attorney and recanted his
trial testimony. He claimed that Walker had given him
information about the murder and induced him to fabricate a confession. LeBere moved for a new trial based
on the recantation. Archuleta refused to appear at a
hearing on that motion because he believed he would
be jailed on other charges. The state court denied a new
trial.
LeBere then filed a § 2254 petition in federal
court, but subsequently moved to stay the petition
while he exhausted state court remedies. The state
courts denied relief. As to his Brady claim relating to
Walker and Archuleta, the state court concluded that
it raised the same issue that was previously rejected in
LeBere’s motion for a new trial. LeBere then returned
to federal district court, where the Brady claim was denied as procedurally barred. However, we reversed
that determination on appeal, holding that if “a state
court refuses to adjudicate a claim on the ground that
it has been previously determined, the court’s decision
does not indicate that the claim has been procedurally
defaulted.” LeBere v. Abbott, 732 F.3d 1224, 1230 (10th
Cir. 2013) (quotation omitted).
On remand, both Archuleta and Walker were deposed. Archuleta testified that LeBere never made any

App. 46
confession. Instead, Archuleta claimed that Walker
wanted him to get information on LeBere’s case, and
after he was unsuccessful in doing so, Walker showed
him LeBere’s case file. With information provided by
Walker, Archuleta concocted a false confession story in
exchange for lenient treatment in his own case. According to Archuleta, Walker knew that the information
provided came from police reports rather than LeBere,
but Walker instructed him to testify that LeBere was
the source. Walker again testified that Archuleta reported LeBere’s confession to him.
A magistrate judge recommended denying LeBere’s
petition on the ground that Walker’s testimony was
more credible than Archuleta’s. The district court denied relief on different grounds. It concluded that
LeBere’s claim based on perjured testimony failed because he had not shown that the prosecutor was aware
of the alleged perjury. As to his Brady claim, the district court asked two questions: “1) was the verdict dependent upon Mr. Archuleta’s testimony, and 2) was
the impeachment evidence necessary to raise doubt as
to the veracity of Mr. Archuleta’s testimony?” Answering both questions in the negative, it concluded that
the Brady evidence was not material. LeBere timely
appealed, and we granted a certificate of appealability.
II
Because LeBere’s Brady claim was not decided on
the merits in state court, the government concedes
that AEDPA deference does not apply. See Romano v.

App. 47
Gibson, 239 F.3d 1156, 1171 (10th Cir. 2001). “[W]e review the district court’s legal conclusions de novo and
its factual findings, if any, for clear error.” Mitchell v.
Gibson, 262 F.3d 1036, 1045 (10th Cir. 2001).
To prevail on a Brady claim, a petitioner must
show: “(1) the government suppressed evidence; (2) the
evidence was favorable to the defendant; and (3) the
evidence was material.” United States v. Reese, 745
F.3d 1075, 1083 (10th Cir. 2014). Evidence is material
if “there is a reasonable probability that, had the evidence been disclosed, the result of the proceeding
would have been different.” Cone v. Bell, 556 U.S. 449,
469 (2009). “[A] showing of materiality does not require
demonstration by a preponderance that disclosure of
the suppressed evidence would have resulted ultimately in the defendant’s acquittal.” Kyles v. Whitley,
514 U.S. 419, 434 (1995). Instead, material evidence is
that which “could reasonably be taken to put the whole
case in such a different light as to undermine confidence in the verdict.” Id. at 435. We evaluate materiality in the context of the entire record. Moore v. Gibson,
195 F.3d 1152, 1182 (10th Cir. 1999).
LeBere frames his challenge as two distinct subclaims related to Archuleta’s recantation. First, he contends that the government suppressed evidence that
Walker and Archuleta conspired to manufacture a
false confession. Second, he argues that Walker and Archuleta committed perjury by testifying to the contrary.

App. 48
As to the latter subclaim, LeBere argues that the
district court mischaracterized his Brady argument
as one arising under Napue v. Illinois, 360 U.S. 264
(1959). “A Napue violation occurs when (1) a government witness committed perjury, (2) the prosecution
knew the testimony to be false, and (3) the testimony
was material.” United States v. Garcia, 793 F.3d 1194,
1207 (10th Cir. 2015).1 LeBere has not advanced evidence suggesting that the prosecution was aware of the
alleged perjury. But he argues that such evidence was
unnecessary because he is seeking relief under Brady,
not Napue. We have previously stated that “[a] defendant may have a Brady claim if the . . . prosecution did
not correct testimony that it should have known was
false.” Garcia, 793 F.3d at 1207. And because Walker
was a police officer, LeBere contends that Walker’s
knowledge of the claimed perjury is imputed to the
prosecution under ordinary Brady principles. See Moore
v. Gibson, 195 F.3d 1152, 1164 (10th Cir. 1999) (“Knowledge of police officers or investigators will be imputed
to the prosecution.”).
In this case, we do not need to resolve any tension
between Napue and Brady, or determine whether police knowledge of perjury is imputed. See Briscoe v.
LaRue, 460 U.S. 325, 327 (1983) (noting that a “prosecutor’s knowing use of perjured testimony violates due
process,” but the Supreme Court “has not held that the
1

The standard for materiality under Napue differs from the
standard under Brady. Perjured testimony is material under Napue “unless failure to disclose it would be harmless beyond a reasonable doubt.” United States v. Bagley, 473 U.S. 667, 680 (1985).

App. 49
false testimony of a police officer in itself violates constitutional rights”). We conclude that the evidence allegedly not disclosed—that Walker induced Archuleta
to concoct a false confession by providing him details
about the crime—is material regardless of the subsequent perjury. Accordingly, we have no need to address
LeBere’s second subclaim.2
As noted above, the district court analyzed
LeBere’s claim by asking whether the verdict was dependent on Archuleta’s testimony and whether the
suppressed evidence was necessary to impeach Archuleta. But the Supreme Court has explained that
“[o]ne does not show a Brady violation by demonstrating that some of the inculpatory evidence should have
been excluded, but by showing that the favorable evidence could reasonably be taken to put the whole case
in such a different light as to undermine confidence in
the verdict.” Kyles, 514 U.S. at 434-35. We agree with
LeBere that the district court took an improperly narrow view of the impact the suppressed evidence could
have had.

2

LeBere’s two subclaims are necessarily linked. He contends: (1) Walker fed Archuleta information to concoct a false confession, and then (2) they lied about having done so. The second
contention cannot be true unless the first is also true. Accordingly,
at this point in the litigation, LeBere cannot prevail on subclaim
two without also prevailing on subclaim one. That is, as described
in Part III, infra, the district court will either find that Archuleta’s testimony is not credible (in which case both subclaims fail),
or it will find that Archuleta is credible (in which case it will grant
habeas relief). In neither scenario would our resolution of the second subclaim effect the ultimate outcome.

App. 50
In addition to undermining Archuleta’s credibility,
the suppressed evidence would have strongly supported LeBere’s theory that police had conducted an
insufficient investigation. If Walker was willing to conspire with an inmate to procure a false confession, the
jury might well conclude that the investigation was
aimed at convicting LeBere rather than uncovering the
truth. It may have questioned what other evidence police ignored, or even whether investigators fabricated
other evidence. The government responds that Walker
did not conduct the entire investigation, so much of it
remains untainted by his actions. But Walker testified
that as the lead detective, “all leads” and “information
[that] comes in” was referred to him. He described himself as the “pivot point” of the investigation. Showing
that Walker encouraged an informant to lie would have
had an impact on the case as a whole.
We similarly reject the government’s argument
that the suppressed evidence is immaterial because
the jury likely disbelieved Archuleta anyway. The jury
acquitted LeBere of felony murder and murder after
deliberation. Archuleta’s testimony was the only evidence directly indicating that LeBere was guilty of
those charges. But even assuming that the jury did not
believe Archuleta, the suppressed evidence would have
done far more than impeach him: it could have caused
the jury to question the entire investigation.
This is not to say that the undisputed evidence is
insufficient to support the verdict. There appears to be
no dispute that LeBere left a bar with Richards before
the murder, was present in her van, and was near the

App. 51
scene of the crime shortly after her death. LeBere’s
story when interviewed by police was not entirely consistent. And he had a haircut the day after the murder,
which could indicate an attempt to evade identification. But the materiality inquiry must not be confused
with a test of the sufficiency of the evidence. Kyles, 514
U.S. at 434.
Although there was substantial circumstantial evidence of guilt, other evidence in the record raises
doubts. Two homeless men were also near the scene of
the crime but were not investigated. An eyewitness
saw a man standing near Richards’ van just before the
fire who did not match LeBere’s description. And Herring, who admitted to abusing Richards, may have lied
to police about staying home the night of the murder.
The suppressed evidence fits neatly with LeBere’s theory that law enforcement prematurely concluded that
he was guilty rather than investigating other available
leads. When coupled with the suppressed evidence,
this information could have prompted the jury to reasonably doubt LeBere’s guilt. We conclude that the
suppressed evidence is sufficient to undermine our
confidence in the verdict. See id.
III
The government spends most of its brief arguing
that we should affirm on the alternative ground that
Archuleta’s recantation was not credible. We decline to
do so. “The evaluation of credibility is not a function for
the appellate court.” United States v. Miller, 460 F.2d

App. 52
582, 587 (10th Cir. 1972). Although the magistrate
judge recommended that the district court reject Archuleta’s recantation as not credible, the district court
denied relief on different grounds. We sit in review of
the district court’s decision, not the magistrate judge’s
recommendation. See Colo. Bldg. & Constr. Trades
Council v. B.B. Andersen Constr. Co., 879 F.2d 809, 811
(10th Cir. 1989).
Accordingly, we leave it to the district court on remand to consider credibility in the first instance. On
remand, the district court may adopt a magistrate
judge’s credibility finding, or if it concludes that an evidentiary hearing is appropriate, conduct a hearing
and observe the witnesses independently. See Wildermuth v. Furlong, 147 F.3d 1234, 1236 (10th Cir. 1998);
United States v. Orrego-Fernandez, 78 F.3d 1497, 1501
(10th Cir. 1996).
IV
For the foregoing reasons, we REVERSE and REMAND for further proceedings.
Entered for the Court
Carlos F. Lucero
Circuit Judge

App. 53
BRISCOE, Circuit Judge, dissenting.
I respectfully dissent. In my view, the district court
correctly denied LeBere’s petition for writ of habeas
corpus filed pursuant to 28 U.S.C. § 2254. I therefore
vote to affirm.
I
A
On October 20, 1998, LeBere was charged by information in the District Court of El Paso County, Colorado, with three counts of murder in the first degree
and one count of second degree arson. Count One
charged him with deliberately and intentionally causing the death of Linda Richards, in violation of Colo.
Rev. Stat. § 18-3-102(1)(a). Counts Two and Three
charged LeBere with killing Richards in the course of
committing arson and sexual assault, in violation of
Colo. Rev. Stat. § 18-3-102(1)(b). Lastly, Count Four
charged LeBere with second-degree arson in connection with the burning of Richard’s van.
The case proceeded to trial in August 1999. The
circumstantial evidence of LeBere’s involvement in
Richards’ death and the burning of her van was substantial, if not overwhelming. Specifically, the circumstantial evidence established the following:
• at approximately 9:00 p.m. on the evening
of October 15, 1998, Richards entered a bar
named Crazy Mike’s, located on the east side

App. 54
of Colorado Springs, and proceeded to sit and
drink;
• LeBere, who had been playing pool in the
bar, approached Richards at the bar, sat down,
and began talking to her;
• Richards and LeBere spent the next several hours drinking together at the bar;
• a bartender asked LeBere if he was “gonna
get lucky,” and LeBere responded that he
and Richards had talked about a “one night
stand,” but that Richards did not believe in
one night stands;
• Richards and LeBere left the bar together
at approximately 12:30 a.m. on October 16,
1998;
• although LeBere had previously told the
bartender that he was going to walk home, he
told the bartender as he was leaving that
Richards was going to give him a ride home;
• according to the pathologist who performed the autopsy, Richards was manually
strangled at some point between 12:30 a.m.
and 2:00 a.m. on October 16, 1998;
• at approximately 2:15 a.m. on October 16,
1998, a woman who lived on the west side of
Colorado Springs heard a car horn steadily
blaring from the direction of a nearby car
wash; the woman then observed LeBere walking away from the car wash and towards a 7Eleven convenience store;

App. 55
• at approximately 2:30 a.m. on October 16,
1998, Richards’ van was observed to be on fire
at that same car wash;
• after firefighters extinguished the fire,
they found Richards’ partially-clothed body
wedged between the two front seats of the
van;
• at approximately 2:35 a.m. on October 16,
1998, LeBere was videotaped on a surveillance camera inside of the 7-Eleven store;
• between 2:45 a.m. and 3:00 a.m. on October 16, 1998, a cab driver picked LeBere up
outside the 7-Eleven store;
• the cab driver described LeBere as “very
nervous” and indecisive about where he
wanted to be dropped off at;
• the cab driver ultimately dropped LeBere
off a short distance from LeBere’s residence;
• LeBere’s aunt, with whom LeBere lived,
observed LeBere arrive home shortly after
3:00 a.m. on October 16, 1998;
• LeBere told his aunt that he had been at
Crazy Mike’s with a woman, had left with the
woman in her van to go to another bar, but became sick, decided he needed to go home, and
then walked around until he found a 7-Eleven
store and called a taxi for a ride home;
• midday on October 16, 1998, LeBere visited a barber and had his hair cut significantly shorter;

App. 56
• when questioned by the police, LeBere
first told them that he had walked home from
Crazy Mike’s alone; LeBere then changed his
story and told the police that he left the bar
with Richards at approximately 1:30 a.m. and
that she drove him to his residence.
To prove that LeBere killed Richards intentionally
or in the course of committing another felony (sexual
assault or arson), the prosecution also presented testimony from Ronnie Archuleta, an inmate who had been
housed with LeBere shortly after his arrest. Archuleta
testified that LeBere admitted to him that he had
raped Richards, strangled her to death, and burned her
van to conceal the evidence. According to Archuleta,
LeBere said he killed Richards so she would not be able
to identify him from a phoenix tattoo on his arm.
LeBere’s defense strategy focused, in part, on challenging Archuleta’s credibility. As the district court
noted, “[t]he jury learned that . . . Archuleta had been
convicted of fraud, forgery, and criminal impersonation.” Aplt. App. at 129. “He admitted that he was in
danger of being prosecuted as a habitual offender,
which would likely result in him spending up to eighteen years in prison, and that he was testifying against
LeBere to avoid it and to receive favorable treatment
from prosecutors.” Id. “Witnesses testified that . . .
Archuleta [wa]s a chronic liar.” Id. In particular, “[a]
former deputy police chief testified that after . . . Archuleta had worked as a confidential informant, the
Colorado Springs vice and narcotics unit decided to
stop using him because he made a false report, was

App. 57
unreliable, and did not tell the truth.” Id. “LeBere also
showed that . . . Archuleta could have gleaned the information he testified to from local newspaper reports
that predated . . . LeBere’s alleged confession.” Id.
LeBere’s attacks on Archuleta’s credibility proved
successful. The jury convicted LeBere only of seconddegree murder and second-degree arson, and acquitted
him on the various first-degree murder counts.
B
LeBere exhausted his state court remedies and
now seeks federal habeas relief from his convictions. At
issue is LeBere’s claim that the prosecutors in his case
“relied on perjured testimony” from Archuleta “and
withheld potentially exculpatory evidence material to
his defense,” i.e., evidence that lead detective J.D.
Walker assisted Archuleta in concocting a false confession story, “in violation of Brady v. Maryland, 373 U.S.
83 (1963).” LeBere v. Abbott, 732 F.3d 1224, 1225 (10th
Cir. 2013). LeBere’s claim rests entirely on Archuleta’s
post-trial recantation of his trial testimony.
The magistrate judge issued a report and recommendation recommending that LeBere’s petition be denied. In doing so, the magistrate judge made extensive
findings of fact based on the evidence in the record,
including videotaped depositions of Archuleta and
Walker that were taken during discovery in the federal habeas proceedings. The magistrate judge noted
“that the ultimate resolution of [LeBere’s] Brady claim
turn[ed] on the relative credibility of Archuleta and

App. 58
Walker” because “[i]t [wa]s readily apparent based on
their conflicting deposition testimony . . . that they
[could not] both be telling the truth about [LeBere’s]
jailhouse confession and their own trial testimony.”
Aplt. App. at 86-87. The magistrate judge ultimately
found “that the preponderance of the evidence demonstrate[d] Walker’s testimony [wa]s credible and Archuleta’s recantation [wa]s not.” Id. at 92. For that reason,
the magistrate judge “[wa]s not persuaded that the
prosecution either relied on perjured testimony from
Archuleta and Walker or that Walker met with Archuleta and provided him information enabling Archuleta
to give false testimony.” Id.
LeBere filed written objections to the report and
recommendation. After considering his objections, the
district court issued an order adopting the magistrate
judge’s recommendation to deny LeBere’s petition for
federal habeas relief. The district court did not resolve
LeBere’s Brady claim on the basis of the respective
credibility of Walker and Archuleta. Aplt. App. at 122.
Instead, the district court “assume[d] that Colorado
suppressed the impeachment evidence,” and in turn
concluded that the jury’s verdict was not dependent
upon Archuleta’s testimony and that the impeachment
evidence was not necessary to raise doubt as to the
veracity of Archuleta’s testimony. Id. at 123. In other
words, the district court concluded that “the verdict
[wa]s sufficiently supported by evidence other than . . .
Archuleta’s testimony, and . . . that the jury [apparently]
did not find his testimony to be credible in significant

App. 59
respects.”1 Id. at 129. Accordingly, the district court
concluded “that the suppression of the impeachment
evidence did not result in a denial of due process to . . .
LeBere.” Id.
II
A
LeBere argues on appeal that “the District Court
erred when it found that [he] could not maintain a
Brady claim based on the State’s presentation of perjured testimony and that any suppression of evidence
by the State was not material to LeBere’s conviction.”
Aplt. Br. at 35. Because LeBere’s Brady claim was not
decided on the merits in state court, we review the district court’s legal conclusions de novo and its factual
findings, if any, for clear error. Underwood v. Royal, 894
F.3d 1154, 1162 (10th Cir. 2018).
In Brady, the Supreme Court held “that the suppression by the prosecution of evidence favorable to an
accused upon request violates due process where the
evidence is material either to guilt or to punishment,
irrespective of the good faith or bad faith of the prosecution.” 373 U.S. at 87. Evidence qualifies as material
and must be disclosed by the prosecution under Brady
when there is “any reasonable likelihood” it could have
“affected the judgment of the jury.” Giglio v. United
States, 405 U.S. 150, 154 (1972) (quoting Napue v.
1

Ironically, both the state trial court and the Colorado Court
of Appeals reached the same conclusion when LeBere moved for
a new trial on the basis of Archuleta’s recantation.

App. 60
Illinois, 360 U.S. 264, 271 (1959)). To prevail on a Brady
claim, a petitioner need not show that it is “more likely
than not” that he would have been acquitted had the
new evidence been admitted. Smith v. Cain, 565 U.S.
73, 75 (2012) (internal quotation marks omitted). Instead, the petitioner must show only that the new evidence is sufficient to “undermine confidence” in the
verdict. Id. (internal quotation marks and brackets
omitted).
The rule announced in Brady applies to evidence
that undermines the credibility of a witness. Giglio,
405 U.S. at 153-54. But, that said, “evidence impeaching an eyewitness may not be material if the State’s
other evidence is strong enough to sustain confidence
in the verdict.” Smith, 565 U.S. at 76.
Finally, the Supreme Court has emphasized that
“[r]ecantation testimony is properly viewed with great
suspicion.” Dobbert v. Wainwright, 468 U.S. 1231, 1233
(1984). “It upsets society’s interest in the finality of
convictions, is very often unreliable and given for suspect motives, and most often serves merely to impeach
the cumulative evidence rather than to undermine
confidence in the accuracy of the conviction.” Id. at
1233-34.
B
In addressing LeBere’s Brady claim, the majority
takes the same approach as the district court and assumes both that Archuleta’s recantation is truthful,
and that the prosecution in LeBere’s case suppressed

App. 61
impeaching evidence. But the majority disagrees with
the district court regarding the merits of Archuleta’s
Brady claim and “conclude[s] that the suppressed evidence is sufficient to undermine [its] confidence in the
verdict.” O&J at 11. Although the majority concedes
that “there was substantial circumstantial evidence of
guilt,” it concludes that “[t]he suppressed evidence fits
neatly with LeBere’s theory that law enforcement
prematurely concluded that he was guilty rather than
investigating other available leads.” Id. On that point,
the majority emphasizes that Walker was the lead
detective and served as the self-described ‘pivot
point’ of the investigation.” Id. at 10. The majority further concludes that, “[w]hen coupled with the suppressed evidence,” information presented by LeBere at
trial regarding other possible suspects “could have
prompted the jury to reasonably doubt LeBere’s guilt.”
Id. at 11.
I strongly disagree. In my view, the majority’s
analysis overemphasizes both Walker’s importance to
the prosecution’s case against LeBere and the strength
of the “other possible suspect” information that LeBere
presented. It is undisputed that Walker was the lead
detective in the case. But Walker played a very minor
role at trial. He testified about responding to the scene
of the burning van, described the condition of Richards’
body in the van, and explained how he learned about
LeBere’s confession to Archuleta. The majority makes
much of the fact that Walker was the self-described
“pivot point” in the investigation and all information supposedly “referred to” Walker. But there is no

App. 62
evidence—nor even a suggestion—that Walker tampered with or altered the mountain of circumstantial
evidence that the prosecution presented at trial. Indeed, much of that circumstantial evidence came from
eyewitness testimony and was essentially undisputed.
Even if we assume that Walker persuaded Archuleta to testify falsely at trial regarding LeBere’s
purported confession, had that information been presented to the jury, it would not have altered the abovedescribed circumstantial evidence. Moreover, even
without the purported Brady evidence, it is apparent
from the verdict that the jury rejected Archuleta’s testimony regarding LeBere’s alleged confession. Had the
jury heard testimony from Archuleta that Walker persuaded him to lie about LeBere’s alleged confession,
the jury almost certainly would have also rejected that
testimony as lacking credibility. In other words, there
is no reasonable basis to conclude that the jury would
have believed anything that Archuleta said, having
heard all of the evidence undermining his credibility.
The majority asserts that “even assuming that the
jury did not believe Archuleta, the suppressed evidence
would have done far more than impeach him: it could
have caused the jury to question the entire investigation.” Id. at 10. There are two problems with that assertion. First, it assumes that the jury would have
believed Archuleta’s recantation testimony and his
story about how Walker persuaded him to lie. As noted,
that is a doubtful proposition. Second, the majority
fails to identify which, if any, of the multiple items of
circumstantial evidence it believes would reasonably

App. 63
have been called into question by the purported impeachment evidence. As I have explained, none of that
evidence would have reasonably been called into question.
The only other rationale offered by the majority
for its conclusion is that the suppressed impeachment
evidence might “have prompted the jury to reasonably
doubt LeBere’s guilt” when considered in light of LeBere’s attempts to cast blame on other individuals. Id.
at 11. But a review of the record reveals that, despite
the best efforts of LeBere’s trial counsel, there was
scant evidence suggesting that anyone other than
LeBere was involved in Richards’ murder. Although
LeBere’s counsel attempted to cast blame on Richards’
fiancé, Russell Herring, there was no direct or circumstantial evidence linking Herring to the murder or otherwise calling into question LeBere’s involvement in
the murder. Curiously, the majority states that Herring “may have lied to police about staying home the
night of the murder.” Id. Even if that dubious proposition were true, there was no other evidence even remotely linking him to Richards’ murder. Likewise, the
majority notes that “[t]wo homeless men were . . . near
the scene of the crime but were not investigated,” and
lain eyewitness saw a man standing near Richards’
van just before the fire who did not match LeBere’s description.” Id. Again, these minor pieces of evidence do
little or nothing to undermine the overwhelming circumstantial evidence of LeBere’s guilt.
For these reasons, I agree with the district court
that LeBere’s Brady claim—which is based exclusively

App. 64
on the post-trial recantation of a witness whose trial
testimony the jury rejected as lacking credibility—is
meritless and does not justify the grant of federal habeas relief.

App. 65
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 03-cv-01424-MSK-MEH
KENT ERIC LEBERE,
Applicant,
v.
TRAVIS TRANI, Warden, and
THE ATTORNEY GENERAL
OF THE STATE OF COLORADO,
Respondents.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

RECOMMENDATION OF
UNITED STATES MAGISTRATE JUDGE
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed Aug. 8, 2016)
Michael E. Hegarty, United States Magistrate
Judge.
This matter is before the Court on the Amended
Application for Writ of Habeas Corpus [filed August 12,
2009; docket #62; the “Amended Application’’]. The case
has been referred to this Court for recommendation,
docket #91, and the Court finds that oral argument will
not assist in the adjudication of the Amended Application. Applicant contends the Court can make credibility determinations based on the existing record and he

App. 66
does not request an evidentiary hearing. Docket #150
at 24-25. The Court agrees. Therefore, based on the record herein and for the reasons that follow, the Court
recommends that the Amended Application be denied.1
BACKGROUND
Applicant, Kent Eric LeBere, is challenging the
validity of his convictions in El Paso County District
Court case number 98CR4342. After trial and while
Applicant’s direct appeal was pending, Ronnie Archuleta, a key witness at Applicant’s trial, recanted his
testimony regarding Applicant’s jailhouse confession
and stated that his testimony was based solely on information provided to him by J.D. Walker, the lead detective in the investigation. Archuleta executed an
1

Be advised that all parties shall have fourteen (14) days after service hereof to serve and file any written objections in order
to obtain reconsideration by the District Judge to whom this case
is assigned. Fed. R. Civ. P. 72. The party filing objections must
specifically identify those findings or recommendations to which
the objections are being made. The District Court need not consider frivolous, conclusive or general objections. A party’s failure
to file such written objections to proposed findings and recommendations contained in this report may bar the party from a de novo
determination by the District Judge of the proposed findings and
recommendations. United States v. Raddatz, 447 U.S. 667, 67683 (1980); 28 U.S.C. § 636(b)(1). Additionally, the failure to file
written objections to the proposed findings and recommendations
within fourteen (14) days after being served with a copy may bar
the aggrieved party from appealing the legal and factual findings
of the Magistrate Judge that are accepted or adopted by the District Court. Error! Main Document Only.Duffield v. Jackson,
545 F.3d 1234, 1237 (10th Cir. 2008) (quoting Moore v. United
States, 950 F.2d 656, 659 (10th Cir.1991)).

App. 67
affidavit attesting to these facts and further stating
that Walker knew Archuleta’s testimony was not based
on any personal knowledge, but rather solely on the information provided by Walker.
I.

Procedural History

Applicant moved for a new trial based on Archuleta’s statement recanting his testimony. On May
5, 2000, the Colorado Court of Appeals (“CCA”) granted
Applicant a limited remand to allow the trial court to
consider the motion for a new trial. After a hearing the
trial court denied the motion for a new trial, concluding that the absence of Archuleta’s testimony would
not have affected the jury’s verdict. The CCA affirmed.
See People v. LeBere, No. 99CA2088 (Colo. App. Jan. 24,
2002) (Docket #62-6).
On October 16, 2002, Applicant challenged his
sentence in the trial court pursuant to Rule 35(b) of the
Colorado Rules of Criminal Procedure. On May 20,
2003, the Rule 35(b) motion was denied.
On June 23, 2003, Applicant initiated this federal
action by filing a pro se application for a writ of habeas
corpus. After obtaining counsel, Applicant sought and
obtained a stay of the federal court proceedings while
he returned to state court to exhaust state remedies
for various claims in a postconviction Rule 35(c) motion. On October 7, 2005, the trial court denied the
Rule 35(c) motion. Docket #62-10. The CCA affirmed
the trial court’s order denying the Rule 35(c) motion.
See People v. LeBere, No. 05CA2489 (Colo. App. Apr. 24,

App. 68
2008) (docket #62-14). On August 18, 2008, the Colorado Supreme Court denied Applicant’s petition for
writ of certiorari in the postconviction Rule 35(c) proceedings.
On February 24, 2006, while the postconviction
Rule 35(c) proceedings were pending in state court, the
Honorable Walker D. Miller entered an order administratively closing this case, subject to reopening for good
cause. Docket #48. On July 13, 2009, after the Rule
35(c) proceedings concluded, Judge Miller granted Applicant’s motion to reopen the case and granted in part
Applicant’s motion to amend the original habeas corpus petition. Docket #61. On August 12, 2009, Applicant filed the Amended Application.
Applicant asserts two claims in the Amended Application. He contends in the first claim that he was
denied due process in violation of the Fifth and Fourteenth Amendments to the United States Constitution.
Specifically, he alleges that the state violated Brady
v. Maryland, 373 U.S. 83 (1963), by (a) relying on perjured testimony from Archuleta and Walker even
though Walker knew the testimony was false, and (b)
failing to disclose to the defense that Walker met with
Archuleta and provided him information that enabled
Archuleta to give false testimony. Applicant asserts in
his second claim that his Sixth Amendment right to
counsel was violated when the trial court instructed
the jury to return to the jury room for further deliberations to complete the verdict forms without informing
counsel of the problem with the verdict forms or asking
counsel to consult on the issue.

App. 69
On February 2, 2011, Judge Miller entered an order denying the Amended Application with prejudice.
Docket #77. Judge Miller dismissed the Brady claim as
unexhausted and procedurally barred and he dismissed the right to counsel claim on the merits. Applicant appealed and the United States Court of Appeals
for the Tenth Circuit granted Applicant a certificate of
appealability to determine whether the federal courts
may consider the merits of his Brady claim, but denied
a certificate of appealability with respect to Applicant’s
right to counsel claim. See LeBere v. Abbott, 732 F.3d
1224, 1225 (10th Cir. 2013). Ultimately, the Tenth Circuit concluded that the Brady claim was not procedurally barred and, thus, the court reversed Judge Miller’s
order dismissing the Amended Application and remanded the matter for further proceedings. Because
the Tenth Circuit did not grant a certificate of appealability with respect to the right to counsel claim, the
only claim before the Court is the Brady claim.
Following requested discovery on the Brady claim,
the parties submitted proposed findings of fact and
conclusions of law.
II.

Findings of Fact
The Court makes the following findings of fact.
A. The Crime Scene

1. On October 16, 1998, at around 2:00 a.m., witnesses saw a white minivan burning in a self-serve car

App. 70
wash bay on the west side of Colorado Springs and
alerted police, who arrived at the scene minutes later.
Trial Tr. 8/4/99 at 26-31, 37-41, 47-49, 54-57, 63-68, 73,
81-83; Trial Tr. 8/5/99 at 23-27.
2. Shortly after police arrived at the scene, the fire
department also arrived and put out the fire. Trial Tr.
8/4/99 at 42, 50, 66, 93, 106-07.
3. After the fire was extinguished firemen discovered
the partially burned body of a female in the van between the front seats. Trial Tr. 8/4/99 at 69-70, 93, 104,
111, 142-43.
4. Although some of the clothing on the victim had
sustained extensive fire damage, the body was partially clothed in a dress, a slip, and was wearing underwear. Other clothing had been displaced, exposing the
body’s breasts. Trial Tr. 8/4/99 at 148, 169-70, 182-84,
197; Trial Tr. 8/5/99 at 41-43.
5. Medical examiners determined the cause of death
was strangulation that occurred before the fire started
and that the time of death was between 12:30 a.m. and
2:00 a.m. on October 16, 1998. Trial Tr. 8/5/99 at 105,
111-112.
6. Investigators at the scene observed the gas cap
from the van lying on the ground about twenty feet
away from the van. Investigators also saw some sort of
partially burned paper material on the ground near
the van and hanging out of the filler tube of the gas
tank. These facts caused investigators to suspect that

App. 71
the van had been set on fire intentionally. Trial Tr.
8/4/99 at 85-89, 98, 131, 133-34; Trial Tr. 8/5/99 at 29.
7. Fire investigation experts ultimately determined
that the fire had originated inside the vehicle directly
behind the driver’s seat by the application of open
flame to a box of paperwork and that accelerants had
not been used in starting the fire. The experts also concluded that the fire started approximately ten to
twenty minutes before it was extinguished by the fire
department. Trial Tr. 8/4/99 at 131-46, 167, 177-80.
B. The Investigation and Identification of Applicant as a Suspect
8. The investigation of the victim’s death was assigned to Colorado Springs Police Detective J.D.
Walker. Trial Tr. 8/4/99 at 188-89. He was “in charge of
the case in respect to gathering it all together, putting
it in a book, making sure things are done.” Id. at 213.
9. Investigators found a purse in the van and located
a driver’s license that they used to identify the body as
that of Linda Richards. Trial Tr. 8/4/99 at 144, 198, 20305, 208.
10. Investigators ran the license plate from the van
to identify the vehicle’s owner and found that the van
was registered to a company owned by George Richards. Trial Tr. 8/5/99 at 30, 33-34, 81.
11. A detective went to the home of George Richards
at approximately 5:45 a.m. on October 16, 1998, a few
hours after Linda Richards’ body was found, and spoke

App. 72
with Richards and his wife. Richards indicated that he
was Linda’s father and told police that Linda worked
for his Tupperware business and lived in Colorado
Springs with her fiancé Russell Herring and her two
children. Trial Tr. 8/5/99 at 34, 80-81.
12. Police went to the home of Russell Herring
around 6:30 a.m. the same morning. Herring told police that he had last seen Linda Richards at 7:00 p.m.
the previous evening when she left the couple’s home
to facilitate a Tupperware party. Trial Tr. 8/5/99 at 5456.
13. Herring told police that he and Linda had been
having problems, including financial trouble, that the
couple had been in an argument the previous night
about whether their relationship was going to work
out, and that Linda had left the house in a hysterical
manner Trial Tr. 8/5/99 at 56-57.
14. Herring admitted to the police that he and Linda
once had a physical fight and that they argued “verbally quite a bit.” Trial Tr. 8/5/99 at 58-59.
15. Herring told police he had not left the house on
the evening of October 15 and that he had gone to bed
around 12:30 a.m. on October 16. Police asked Herring
whether he was concerned that Linda had not come
home by the time he went to bed, and he told police he
planned to call Linda’s parents in the morning if she
still had not returned home because she may have
spent the night with her parents. Trial Tr. 8/5/99 at
60-61. Herring also told police that he eventually became angry when Linda had not returned later in the

App. 73
evening, because he suspected she had gone to a bar by
herself. Trial Tr. 8/10/99 at 36.
16. Herring provided police with the location of two
bars Linda typically frequented: Kelly O’Brien’s and
Crazy Mike’s. Trial Tr. 8/5/99 at 61.
17. After speaking with Herring at his home investigators took him to the police station for further questioning, because they “wanted to get him locked into a
statement in case he may be a possible suspect.” Trial
Tr. 8/5/99 at 62.
18. Herring was never re-interviewed by the police
after giving his initial statement at the police station.
Trial Tr. 8/5/99 at 63; Trial Tr. 8/11/99 at 79.
19. Police did not check Herring for injuries when
they spoke to him on October 16, 1998, and they did
not search his home or vehicle. Trial Tr. 8/5/99 at 6364; Trial Tr. 8/9/99 at 94-95; Trial Tr. 8/10/99 at 45.
20. While investigators were speaking with Linda
Richards’ family and Herring, other investigators were
working the scene of the crime.
21. Investigators took statements from the four witnesses who initially alerted police to the burning van,
but none of those witnesses had seen anyone around
the van or walking away from the van. Trial Tr. 8/4/99
at 36, 43-44, 51.
22. Investigators also interviewed two homeless men
who were sleeping in tents located in a field near the
car wash. Trial Tr. 8/4/99 at 224-26. One of the men

App. 74
indicated he had heard sounds coming from the car
wash, including a car horn honking, an explosion, and
two people talking. Id. at 232-33; Trial Tr. 8/9/99 at 225.
The other man indicated he had been sleeping through
the night and had not heard anything. Trial Tr. 8/9/99
at 225. Police searched the tents and did not find “anything suspicious or contraband.” Id. at 218. Police did
not remember what types of clothing or other items
were found in the tents or whether they saw lighters
or matches when searching the tents. Id. at 223, 226.
23. Investigators visited a total of six bars, several
in close proximity to the car wash. When canvassing
these bars investigators brought a picture of Linda
Richards and asked employees of those bars whether
they had seen her. Trial Tr. 8/6/99 at 157-60; Trial Tr.
8/9/99 at 95.
24. Investigators did not find anyone at five of the six
bars who could identify Linda Richards as being present on the night of October 15-16, 1998. Trial Tr.
8/6/99 at 158-61; Trial Tr. 8/9/99 at 96-100, 142-43.
25. Employees at Crazy Mike’s bar stated that Linda
Richards regularly frequented Crazy Mike’s and had
arrived between 8:00 and 9:00 p.m. on the evening of
October 15, 1998. Trial Tr. 8/6/99 at 17-19, 28-29. Employees indicated that Linda spent time with a man
named Kent at the bar and, throughout the course of
the evening, he and Linda talked, played pool, and
drank together. Id. at 20-25, 30-35, 52. One employee
stated that she had asked the man, “Are you gonna
get lucky?” and the man responded, “no, that Miss

App. 75
Richards said that she had a fiancé, and they were
talking about a one-night stand, and Miss Richards did
not believe in one-night stands.” Id. at 34.
26. Police created a composite sketch based on the
bartender’s description of the man who was seen with
Linda Richards at Crazy Mike’s. Trial Tr. 8/6/99 at 4043. The bartender indicated that the man was wearing
a dark blue shirt, blue jeans, and tennis shoes, and had
a tattoo of a phoenix with flames. Id. at 31-32, 47. The
bartender ultimately identified Applicant from a police
photo lineup as the person who was with Linda Richards. Id. at 46-47.
27. Linda Richards and Applicant were seen leaving
the bar together around 12:30 a.m., and Applicant told
the bartender that Linda was going to give him a ride
home. Trial Tr. 8/6/99 at 35-36, 38.
28. Police also interviewed employees at a 7-Eleven
gas station located close to the car wash and obtained
video surveillance tapes showing customers. The bartender viewed the videotape surveillance from the 7Eleven and identified Applicant, wearing a baseball
hat, as the man in the tape. Trial Tr. 8/6/99 at 44-45.
Applicant appeared on the surveillance camera at 2:35
a.m. on October 16, 1998. Trial Tr. 8/10/99 at 14.
29. The 7-Eleven gas station attendant testified that
the person on the surveillance tape who police pointed
out to him purchased a sandwich. Trial Tr. 8/9/99 at
152-53. The attendant explained that he did not remember anything in particular about how the person
acted and everything seemed “pretty normal.” Id. at

App. 76
153. The attendant also remembered seeing a Yellow
Cab taxi in the parking lot after the man left the gas
station. Id.
30. Investigators contacted the Yellow Cab company
and learned that a cab driver had picked up a fare
around 2:45 a.m. on October 16, 1998, at the 7-Eleven
located at 21st and Cimarron on the west side of Colorado Springs near the car wash. Trial Tr. 8/9/99 at 173,
181-2. The cab driver drove the fare to Keith Drive and
Webb Drive and dropped the man off a short distance
away from Applicant’s residence. Id. at 185; Trial Tr.
8/10/99 at 26. Police later followed the cab driver to
learn the route he had taken with the fare. Trial Tr.
8/9/99 at 185-86.
31. The cab driver identified Applicant in a photo
lineup as a person who looked somewhat like the man
he had driven from the 7-Eleven to the area of Keith
Drive and Webb Drive. Trial Tr. 8/9/99 at 189-190, 20708; Trial Tr. 8/10/99 at 27. After seeing a photo of Applicant in the news following his arrest the cab driver
contacted Colorado Springs detectives and stated he
was positive that the man on television was the person
he had driven from the 7-Eleven to Keith Drive. Trial
Tr. 8/9/99 at 190-91, 209.
32. Beginning from the location where the cab driver
stated he had taken his 2:45 a.m. fare, police canvassed
the neighborhood around Keith Drive with the composite drawing. Trial Tr. 8/10/99 at 20; Trial Tr. 8/5/99 at
67. Police knocked at the door of 4735 Keith Court,
which was located less than a mile from Crazy Mike’s,

App. 77
and showed Applicant the composite drawing when he
answered the door. Trial Tr. 8/10/99 at 22. Applicant
had been living with his aunt at 4735 Keith Court for
several months after having moved from Minnesota to
Colorado Springs about a year and a half earlier. Id. at
22-23. Applicant told police he did not know anyone
who resembled the composite drawing and that the
composite drawing did not look familiar to him. Trial
Tr. 8/10/99 at 22. Applicant also provided police with
his name and date of birth. Id.
33. Police doubled back to 4735 Keith Court after determining the composite sketch resembled Applicant
and asked Applicant to undergo a videotaped interview
at the police station, after which Applicant was arrested. Trial Tr. 8/5/99 at 45; Trial Tr. 8/6/99at 133;
Trial Tr. 8/10/99 at 22-24.
34. Investigators searched Applicant’s residence. Trial
Tr. 8/6/99 at 138. They found and seized several pairs
of jeans, a dark blue pullover shirt, and tennis shoes
that matched the clothing descriptions provided by the
Crazy Mike’s bartender. Id. at 139-41.
35. No items associated with the van or Linda Richards were found in the search of Applicant’s home.
Trial Tr. 8/9/99 at 91.
36. When Applicant was interviewed at the police
station he admitted he was at Crazy Mike’s bar for
several hours on the evening of October 15, 1998,
with Linda Richards. Applicant initially stated he had
walked home from the bar alone, but later told the police that he left the bar with Linda Richards at about

App. 78
1:30 a.m. on October 16, 1998, and that she drove him
home. Mot. Hr’g Tr. 11/17/98 at 132-36.
C. Further Witness Investigation
37. In addition to the statements taken at the scene
of the crime, police were contacted by a number of third
parties with information regarding the crime.
38. A woman contacted police on October 16, 1998,
because she had seen someone at the car wash. Trial
Tr. 8/6/99 at 61. As she was driving past the car wash
at approximately 1:55 a.m. on October 16, 1998, she
noticed a light colored van in the last stall of the car
wash. Id. at 62-63. As she passed she saw a man standing toward the rear of the van. Id. at 64. She noticed he
was wearing a fisherman’s style hat with a brim all the
way around it. Id. at 64, 79-80. She described the person as an “older gentleman,” maybe around 40 years
old, with a beard, and wearing “light colored clothing.”
Id. at 75, 78. The woman did not recognize Applicant
or anyone else in the photo line-up or 7-Eleven surveillance videotape police showed her. Id. at 68, 80-82.
39. Another woman who lived near the car wash also
contacted police regarding a man she had seen walking
on the morning Linda Richards’ body was found. She
testified that she arrived at her townhome, which was
two blocks east and two blocks south of the carwash
around 2:05 a.m. on October 16, 1998. Trial Tr. 8/6/99
at 90, 94. When she took her dog out to the front yard
she heard the sound of a car horn honking coming from
the direction of the car wash. Id. at 95-96. Later, while

App. 79
she was out with her dog, she saw a man walk past
coming from the south. Id. at 101-03. She testified that
he was wearing a hat, navy blue shirt, dark pants, and
sneakers. Id. at 109. She identified Applicant as the
person she had seen from a photo lineup and identified
the man she saw on the surveillance tape from the 7Eleven as the person she saw walking past in the early
morning. Id. at 113-116. The woman told police that he
walked by around 2:15 or maybe as late as 2:30 a.m.
Trial Tr. 8/9/99 at 77.
40. Neighbors across the road from Herring and
Linda Richards’ home also called police to inform them
that the neighbors had heard an unusual noise on the
evening of October 15, 1998, around 10:00 p.m. that
sounded like a pickup truck driving over a curb and
the load bouncing in the back of the truck. Trial Tr.
8/11/99 at 113-14.
D. Investigation of Physical Evidence
41. Investigators never discovered any physical evidence linking Applicant to the crime.
42. The Colorado Springs crime lab received for testing blood samples from Linda Richards, shirts, jeans, a
watch, tennis shoes, mats, body bags, panties, portions
of a dress, a slip, a bra, samples from the vehicles, samples from Linda Richards’ head hair, pubic hair, pubic
combing, eyebrow hair, swabs, fingernail scrapings, a
jacket, and samples from Applicant and Herring. Trial
Tr. 8/5/99 at 140-41. Walker, as the lead investigator,
only requested that the samples and items taken from

App. 80
Linda Richards be compared against DNA from Applicant, as he was the only suspect being considered by
police. Docket #150-7 (Walker Dep.) 132:12-24.
43. None of the hairs found on Linda Richards were
consistent with Applicant’s hair samples. Trial Tr.
8/5/99 at 141-42, 153-54.
44. Spermatozoa was found in Linda Richard’s anal
cavity but not in her vagina. Trial Tr. 8/5/99 at 108-09,
160. The medical examiner testified the sperm had
been present in the body for somewhere between 24
and 72 hours. Id. at 113-14. There was an insufficient
quantity of sperm to allow for DNA testing. Id. at 16162. The only match for DNA on any of the swabs taken
from Linda Richards’ body was her own. Id. at 161.
45. The laboratory technicians found no seminal
stains on Linda Richards’ clothing. Trial Tr. 8/5/99 at
142-43. Although some items of clothing indicated the
presence of blood, the blood stains were not subject to
further examination. Id. at 142.
46. Fingernail scrapings from Linda Richards did not
contain any blood. Trial Tr. 8/5/99 at 144.
47. Laboratory technicians also examined clothing of
Applicant’s, including three pairs of jeans, two shirts,
and a pair of tennis shoes seized from Applicant’s
home. No blood was found on any of these items and
none of the hairs collected were consistent with Linda
Richards’ hair. Trial Tr. 8/5/99 at 145-48.
48. The medical examiner did not find any evidence
of sexual assault, such as bruising or tearing, and could

App. 81
not opine as to whether a sexual assault occurred. Trial
Tr. 8/5/99 at 113.
49. With respect to the arson charges, the fire investigator in charge of collecting evidence from the scene
searched the area for items related “to the starting of
the vehicle fire.” Trial Tr. 8/4/99 at 177. In addition to
samples collected from the van itself, the only evidence
he located was the paper material found in the filler
tube of the gas tank. Id. at 177-78.
50. A lab technician was directed to take fingerprints
on the van, the hatch area, the cigarette box, and any
flat surfaces on collected evidence. Trial Tr. 8/4/99 at
214-15. No fingerprint evidence was presented at trial.
51. After arresting Applicant, Walker and a fellow detective took a photograph of the bottom of Applicant’s
shoes and looked for matching footprints around the
car wash. Trial Tr. 8/6/99 at 161-63; Trial Tr. 8/9/99 at
91-93. The detectives “didn’t find anything that we
could specifically say were footprints” from Applicant’s
shoes. Trial Tr. 8/6/99 at 162. The detectives did find
numerous footprints but did not do anything with
them because they did not match Applicant’s shoes. Id.
at 161-63. The detectives did not photograph or take
casts of the footprints, never obtained shoes from Herring, and never compared the prints found to any shoe
other than that of Applicant. Id. at 164; Trial Tr. 8/9/99
at 92-93.

App. 82
E. The Confession
52. After he was arrested, Applicant was held in the
El Paso County Jail in a pod with Ronnie Archuleta
and three other inmates.
53. When Applicant first arrived at the jail other inmates warned him not to speak with Archuleta because Archuleta was a well-known “snitch.” Docket
#150-7 (Walker Dep.) 57:22-58:4; Trial Tr. 8/9/99 at 33.
Archuleta was also a bounty hunter for a bondsman.
Trial Tr. 8/9/99 at 5.
54. On October 26, 1998, Archuleta approached a
guard in the Jail, Deputy Dey, and reported that Applicant had confessed to the crime. Trial Tr. 8/9/99 at 910. Deputy Dey wrote a report of his conversation with
Archuleta, which stated:
Inmate Archuleta stated the following: Apparently Inmate LeBere was talking about his
incident in the quad. Inmate [L]ebere told Inmate Archuleta that he did commit the crime.
The reason that he burned the van was because that was where he had sex with her
before she was killed. Inmate Lebere’s advisement is scheduled for tomorrow. Inmate Lebere stated to Inmate Archuleta that if his
case goes to trial he is going to kill himself.
Inmate Archuleta revealed this information
willingly and did not ask for anything in return.
Docket #157-1 at 2.

App. 83
55. Walker, as the lead investigator, was informed
that an inmate had information about Linda Richards’
murder. Trial Tr. 8/9/99 at 66-67. Walker received Deputy Dey’s report on October 26 and went to visit Archuleta on October 28, 1998 to “do a more extensive
interview.” Mot. Hr’g Tr. 1/11/99 at 38-41.
56. Walker and Archuleta have very different accounts of what happened when they met on October
28.
57. According to Walker, Archuleta said that Applicant had approached Archuleta in jail to ask about how
he could obtain a bond. Docket #150-7 (Walker Dep.)
37:21-38:1. Archuleta said that Applicant then confessed to the murder so that Archuleta could determine
if Applicant would qualify for a bond. Id. at 38:7-39:20.
58. According to Archuleta, Walker met with him
several times, all with the intent of tying Applicant to
Linda Richards’ murder. Docket #150-9 (Archuleta
Dep.) 15:9-20. Archuleta cooperated based on the promise of favorable treatment from prosecutors in his own
case. Trial Tr. 8/9/99 at 40. Walker at first asked Archuleta to try getting Applicant to confess to the
crime. Docket #150-9 (Archuleta Dep.) 16:2-24. But
once it became clear that Applicant would say nothing
to Archuleta about his case, Walker began feeding Archuleta information including police reports about the
murder so that he and Archuleta could manufacture a
confession. Id. at 16:19-18:15.

App. 84
F. The Plea Deal
59. After Walker identified Archuleta as a possible
witness against Applicant, Walker told the prosecutor
on Applicant’s case, Assistant District Attorney Kim
Kitchen, that he intended to speak with Archuleta.
Trial Tr. 8/9/99 at 116-18. Kitchen told Walker not to
talk to Archuleta about Archuleta’s own pending case.
Trial Tr. 8/9/99 at 118.
60. Walker spoke with Archuleta twice about the
criminal charges pending against Archuleta and about
Archuleta’s plea deal. Docket #150-7 (Walker Dep.)
46:1-47:19; 68:19-69:2.
61. Ann Joyce, the Deputy District Attorney responsible for Archuleta’s case, testified that Walker told her
that he had agreed to put in a good word for Archuleta.
Joyce also testified that she offered Archuleta a more
favorable plea deal in part because of Walker’s encouragement. Trial Tr. 8/11/99 at 54-59.
62. In 1999, shortly before Applicant’s trial, the trial
court heard evidence regarding the circumstances surrounding Archuleta’s plea deal and concluded that
[t]he testimony of Ronnie Archuleta is that
[LeBere] confessed to the . . . crimes charged.
Prior to Mr. Archuleta’s cooperation, he had a
certain plea agreement. Subsequent to his cooperation, he had a different plea agreement.
Mot. Hr’g Tr. 5/3/99 at 26.
63. The trial court held that this interaction and
its related dealings – which stemmed from Walker’s

App. 85
asking Joyce to help Archuleta – converted the prosecutor and her team into witnesses and required the
Colorado Springs District Attorney’s Office to be disqualified from prosecuting Applicant. Docket #150-12.
Applicant’s trial was handled by special prosecutors.
G. Trial
64. At trial the jury heard testimony regarding the
crime and investigation described above.
65. The jury also heard testimony from Archuleta regarding Applicant’s confession.
66. Archuleta testified that he met Applicant when
Applicant was placed in the same pod with Archuleta.
Trial Tr. 8/9/99 at 7.
67. Archuleta testified that he and Applicant spoke
about the charges against Applicant several times.
Trial Tr. 8/9/99 at 8. Archuleta indicated that Applicant
initially spoke with him about his case in the context
of the possibility of obtaining a bond. Id. at 9.
68. Archuleta testified that Applicant “stated that he
had met this lady at the bar, and that they were [talking] to one another, you know.” Trial Tr. 8/9/99 at 16-17.
Applicant told Archuleta that he was “buzzed.” Id. at
17. Archuleta then testified that Applicant stated
he asked her for a ride, they went up around
Cheyenne Canyon near the amphitheater up
there. At that time he said that – excuse my
language – he fucked the bitch. . . . That he
fucked the bitch, and after that, that he

App. 86
strangled her. He demonstrated right here on
the neck with this hands. There’s, I guess,
some pressure points there where you can – a
person will pass out real quick.
After that, he stated he drove down to the car
wash and torched the van because there could
have been evidence of the fact from body fluids
and that. He stated that the reason he killed
her was, one, that she could identify him because of a tattoo on his upper arm of a Phoenix.
Id. at 17.
69. Archuleta further testified that Applicant told Archuleta he had called a cab and the cab picked him up
and took him home. Trial Tr. 8/9/99 at 18. Archuleta
also testified that Applicant told him police came to his
door with a composite drawing, did not initially recognize Applicant as the individual in the drawing, but
later came back and brought him to the police station.
Id.
70. Archuleta explained to the jury that he had
known Walker for many years and first talked to him
about Applicant’s case around October 28. Trial Tr.
8/9/99 at 10. Archuleta also testified that he had multiple conversations with Walker about the facts of Applicant’s case. Id. at 10, 44.
71. Archuleta testified that at that initial meeting
Walker offered to talk to the District Attorney on Archuleta’s pending case. Trial Tr. 8/9/99 at 10-11. Archuleta testified that he did eventually receive a deal,

App. 87
which included that he would be released from jail immediately upon paying restitution. Id. at 12. Archuleta
also explained that he tried to use Applicant’s case to
“get out of jail” on the sentence he was serving. Id.
72. Walker testified at trial that Archuleta told
Walker that Applicant had made statements to Archuleta that Applicant “had been in the bar, that he
had been drinking with this female, that he needed a
ride home, that she gave him a ride home, that they
parked, they had sex, he panicked, he choked her, that
she was dead prior to going to the car wash.” Trial Tr.
8/9/99 at 68.
73. Walker testified that Archuleta was a chronic liar
and that “I’ve found with Ronnie Archuleta, anything
that he says, you have to corroborate with something
else in order to determine that to be the truth.” Trial
Tr. 8/9/99 at 72. Walker testified that he considered Archuleta’s testimony to be usable in Applicant’s case because
First off, I listened to it. Second off, I had to
corroborate that information because of whom
Ronnie Archuleta is. When I did that, I determined that that information Ronnie Archuleta gave to me was reliable. . . . Ronnie
Archuleta made some statements in reference
to this case that only the killer and the snitch
would know. Because of that information that
wasn’t given to the media, that only other detectives knew that information, that’s what

App. 88
corroborated this information that I received
from Ronnie Archuleta.
Id. at 73-74.
74. The State also presented testimony from another
detective that Archuleta had been truthful in prior
dealings with that detective. Trial Tr. 8/9/99 at 165.
75. The jury also heard testimony that Archuleta had
three felony convictions for forgery, criminal impersonation, and “something to do with bad checks.” Trial Tr.
8/9/99 at 6.
76. The jury also heard testimony from another police officer employed in the Metro Vice and Narcotics
Unit that, in 1990, Archuleta had provided information
to detectives that ultimately proved to be false. Trial
Tr. 8/11/99 at 49-51.
77. The jury also heard information about and testimony from Herring that the couple had a “normal” sex
life and did not practice anal sex. Trial Tr. 8/5/99 at
169. The jury heard testimony that the couple argued
about whether they should get married, had sought
counseling, and that Herring was thinking about ending the relationship. Id. at 173, 175, 181. The jury also
heard testimony that Herring suffered from depression and had a drinking problem. Id. at 85, 174-75, 195.
The jury also heard testimony that the couple had arguments that involved pushing and shoving, that the
police were called on at least two occasions, and that
Herring once slapped Linda Richards. Id. at 169-70.
The jury heard testimony that Linda Richards went to

App. 89
the emergency room to address a jaw injury that occurred as a result of the slap. Trial Tr. 8/11/99 at 95-96.
The jury also heard testimony from neighbors that
Herring once used his van to push Linda Richards’ vehicle out of his way following an argument. Trial Tr.
8/5/99 at 171-72; Trial Tr. 8/11/99 at 101.
78. George Richards testified that when he arrived at
Herring’s home on the morning of October 16, 1998, at
around 6:30 a.m., he observed moisture on the outside
of the truck Herring drove. Trial Tr. 8/11/99 at 186-87.
79. An expert testified that there were no meteorological conditions that could explain the moisture
George Richards observed on the truck on the morning
of October 16, 1998. Trial Tr. 8/11/99 at 164-65.
80. On August 13, 1999, the jury found Applicant
guilty of second-degree murder and second-degree arson. The jury acquitted Applicant on the charges of
first-degree murder, first-degree felony murder arising
from the commission of a sexual assault, and manslaughter.
81. On October 12, 1999, the state trial court sentenced Applicant to a total of 60 years in prison: 48
years on the murder conviction and 12 years on the arson conviction, to be served consecutively. Sentencing
Hr’g Tr. 10/12/99 at 58.
H. Archuleta’s Recantation
82. In February 2000 Archuleta placed a telephone
call to Applicant’s trial counsel, Bobby Lane Daniel. In

App. 90
that call Archuleta recanted his incriminating testimony. Archuleta told Daniel that “his conscience was
bothering him, and that he knew the case against Mr.
LeBere was very weak, that he felt badly he had given
false testimony and that he didn’t want an innocent
man convicted or in prison based on false testimony.”
Docket #150-16 (“Daniel Aff.”) ¶ 4.
83. On July 7, 2004, Archuleta signed an affidavit
confirming his February 2000 recantation and again
admitting that his testimony at Applicant’s trial was
false. Docket #150-17 (“Archuleta Aff.”) ¶¶ 3-4. In the
affidavit Archuleta explained that Applicant “never
confessed anything to me” and that all of the information Archuleta testified about at trial “was provided
to me by Detective J.D. Walker, not by Kent LeBere.”
Id. ¶ 4. Archuleta explained that Walker said that he
“needed a confession” from Applicant. Id. ¶ 5. In the affidavit, Archuleta stated that, when he told Walker
that Applicant had never spoken to Archuleta about
Linda Richards or the murder, “Walker suggested to
me that I could receive preferential treatment and less
jail time if I testified to the information that he provided me about Kent LeBere.” Id. ¶¶ 6-7. Archuleta
disclosed that Walker had provided Archuleta with police reports about Applicant’s case so that Archuleta
could testify convincingly. Id. ¶ 8. Archuleta confirmed
that Walker knew that Applicant had never confessed
and that Archuleta’s testimony about the “confession”
was false. Id. ¶ 9.

App. 91
I.

Habeas Discovery

84. The parties have deposed the two key witnesses
who testified against Applicant at trial, Archuleta and
Walker, and the record before the Court includes both
the video depositions and transcripts of the depositions. Docket Nos. 150-7 (transcript of Walker Dep.),
150-9 (transcript of Archuleta Dep.), 151 (2 CDs with
video depositions). Walker was deposed on May 14,
2015 and Archuleta was deposed on September 15,
2015.
1. Archuleta’s Deposition Testimony
85. Archuleta’s deposition testimony is consistent
with the information he provided in his recantation to
Bobby Lane Daniel and in the affidavit he executed
several years later.
86. Archuleta testified he understood that “J.D.
Walker wanted me to get information on Kent LeBere
in regards to his murder case because of the fact that I
had done it before in other cases. . . .” Docket #150-9
(Archuleta Dep.) at 16:5. Archuleta testified that he
tried but was unable to get any information from Applicant about his case. Id. 16:19-17:1. He also testified
that he “told J.D. Walker that Kent would not talk
about his case” and had not confessed to him. Id. 17:615; 21:23-22:3. Although ultimately conceding that he
might have talked to Deputy Dey prior to meeting with
Walker, Archuleta initially denied reporting Applicant’s confession to Deputy Dey and described Deputy
Dey’s report as a “bullshit report” that may have been

App. 92
fabricated by the district attorney’s office and Walker.
Id. 54:19-61:17; 68:18-69:12.
87. Archuleta testified that, because Applicant would
not confess to Archuleta, Walker and Archuleta “went
through a case file” that contained “police reports
about the incident . . . about how the body was found,
how it was positioned, what happened . . . what bar
they were at, where [Applicant] was arrested,” giving
Archuleta “the basic information on the case.” Id.
16:23, 18:2-10.
88. Archuleta testified that “Detective Walker [told
me] that when I am testifying, that I am to testify that
that is what Kent told me; that I had conversations
with Kent.” Id. 46:5-8; see also id. 47:14-16. In sum, Archuleta testified in his deposition that the content of
his trial testimony came not from Applicant but from
Walker. Id. 20:1-22, 21:9-19.
89. Archuleta also provided testimony regarding his
motivation to testify falsely at Applicant’s trial. Archuleta testified that he was told by Walker and Deputy District Attorney Ann Joyce that, although “they
were looking at hitting me with a habitual criminal
charge” because of his criminal record, “in return for
me testifying against Mr. LeBere, I would be allowed
to leave jail, pay . . . restitution, leave jail, and . . . I’d
get probation, I’d get to go home.” Id. 18:16-19:4. Archuleta explained: “I was promised that if I came
through for this, basically, that I was going home; I
wasn’t going to prison.” Id. 35:20-24.

App. 93
90. When confronted at his deposition with the fact
that he lied under oath, Archuleta admitted that he did
so:
Q: So it appears that the oath doesn’t mean
anything to you.
A: At the time it didn’t. . . . At the time I was
saving my butt.
Id. 73:9-13.
91. Archuleta also testified about the rationale behind his recantation, explaining that he called Applicant’s lawyer because “my conscience was eating at
me” and felt that “I lied on someone and basically took
their life away from them, or I feel I did.” Id. 23:15-21.
Archuleta stated that he had not been in touch with
Applicant, Applicant’s counsel, Applicant’s family, or
anyone acting on Applicant’s behalf when he called Applicant’s attorney to recant. Id. 22:4-23:5.
92. Archuleta also testified that his initial recantation in 2000 occurred at a time when he knew he was
going to prison, he knew there were threats against
him from other inmates because he was a snitch, and
he knew that he could be incarcerated with friends of
Applicant. Id. 49:7-50:18.
2. Walker’s Deposition Testimony
93. Walker testified that his relationship with Ronnie
Archuleta began in the 1980s. Docket #150-7 (Walker
Dep.) 21:21-22:6. By the time Walker was investigating
the Richards murder in 1998, Walker and Archuleta

App. 94
were “on a first name basis.” Id. 24:13-15. By October
1998, Walker regarded Archuleta as a “chronic liar.” Id.
27:11-22.
94. Walker testified that he knew Archuleta had a
criminal record and a history of giving questionable information to police. Id. 21:21-25:1.
95. Before Applicant’s trial Walker learned of a
memorandum from a section of the police force that
routinely dealt with informants that warned that Archuleta should not be used as an informant because he
lied so often. Id. 58:18-61:12. Local prosecutors also “already knew” Archuleta was a chronic liar at the time
of Applicant’s trial. Id. 62:18-23; 172:13-173:6.
96. Walker also testified that he believed that jail officials arranged Archuleta’s housing to maximize his
opportunity to “snitch.” For example, Walker noted
that Applicant’s jail pod housed “four homicide suspects . . . and one guy [Archuleta] that had property
crime convictions.” Id. 25:22-26:12. Archuleta was
placed in the pod as “an informant on a high profile
case.” Id. 26:5-12. Archuleta also told Walker that one
of the other inmates in the pod had warned Applicant
that Archuleta was “a snitch.” Id. 57:22-58:11.
97. At his deposition Walker admitted that certain
aspects of the supposed confession seemed untrue.
Walker testified that, even in that first meeting with
Archuleta concerning the Linda Richards investigation, he believed that some of the “confession” may not
have come from Applicant. For example, the coarse language Archuleta ascribed to Applicant probably “came

App. 95
from Ronnie Archuleta, not Kent LeBere.” Id. 39:39:38. Walker found it likely that those comments were
from Archuleta rather than Applicant because, among
other reasons, Archuleta “ad libs a lot of things and you
have to continue to test him.” Id. 43:11-24.
98. Walker testified about a variety of the tests he
subjected Archuleta to in satisfying himself that the
information Archuleta provided was reliable. For example, Walker testified that he thought it important
that Archuleta knew about Applicant’s phoenix tattoo.
Id. 40:13-22. Walker did not rule out the possibility
that Archuleta could have seen Applicant’s tattoo since
the tattoo was on his shoulder and they were housed
in the same pod. Id. 48:9-49:3.
99. Additionally, Walker testified he believed Archuleta’s story because Archuleta said Applicant had been
arrested after a police officer came to his door with a
composite sketch depicting Applicant. Id. 42:10-18.
Walker admitted that the composite sketch story was
in the media and that Archuleta told Walker that he
had seen the news related to the Applicant case. Id.
49:4-18.
100. Finally, Walker testified that Archuleta told him
that Applicant had confessed to sexually assaulting
Linda Richards at the amphitheater in Cheyenne Canyon, but the police “didn’t have anything that [suggested] she was sexually assaulted and we didn’t have
any evidence that she wasn’t killed right there in the
carwash.” Id. 43:2-44:11.

App. 96
101. Walker testified that he did not try to corroborate the alleged facts about the location of the murder.
Id. 50:3-8. He also testified that he thought it was unlikely Applicant would have even known about the canyon, because Applicant had only recently moved to the
area. Id. 44:23-45:5.
102. Walker testified that he was “testing” Archuleta’s knowledge when he asked whether he knew the
position of Linda Richards’ body in the van, but Archuleta “didn’t bite on it” and instead “just passed it
over,” saying “I don’t know the position of the body.” Id.
43:11-24.
103. Walker testified that Applicant was the only
“bona fide” suspect in the Linda Richards case. Id.
87:23-88:15.
104. Walker had been a police officer for many
years before he was assigned to be the lead investigator on Linda Richards’ death, and Walker received
various commendations throughout his years as an
officer. Docket #150-7 (Walker Dep.) 13:2-15:12, 186:16194:11.
105. In 1999 Walker was faced with two back-to-back
record years for homicides in Colorado Springs, which
made it more difficult for him to do his job. Docket
#150-7 (Walker Dep.) 17:25-18:4, 112:12-113:2. Additionally, Walker and his wife purchased a business in
1999, and he found that running the business interfered with his ability to work in the homicide division.
Docket #150-7 (Walker Dep.) 134:9-135:6.

App. 97
106. Around the same time period as the investigation of Linda Richards’ death, Walker was disciplined
for his failure in a number of first-degree murder investigations to timely submit supplemental investigative reports. Docket #150-6 at 2; Docket #150-7 (Walker
Dep.) 134:3-8.
107. Walker’s failure to file a timely supplemental report in one murder investigation, the Beatty case, was
deemed by the trial court to be a suppression of evidence and sloppy police work but was found not to violate Brady, because the evidence was not exculpatory.
Docket No. 150-4.
LEGAL STANDARDS
A writ of habeas corpus may not be issued with
respect to any claim that was adjudicated on the merits in state court unless the state court adjudication:
(1) resulted in a decision that was contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d). However, the deferential standards of § 2254(d) are not applicable if the claim was not
adjudicated on the merits in state court. If a claim was
not adjudicated on the merits in state court, and if the

App. 98
claim also is not procedurally barred, the Court must
review the claim de novo. See Gipson v. Jordan, 376
F.3d 1193, 1196 (10th Cir. 2004).
“When a state court rejects a federal claim without
expressly addressing that claim, a federal habeas court
must presume that the federal claim was adjudicated
on the merits – but that presumption can in some limited circumstances be rebutted.” Johnson v. Williams,
___ U.S. ___, 133 S. Ct. 1088, 1096 (2013). One circumstance in which the presumption may be rebutted is if
“the state standard is quite different from the federal
standard.” Id.
The Tenth Circuit determined that Applicant’s
Brady claim is not procedurally barred. See LeBere,
732 F.3d at 1233. The Tenth Circuit also noted that the
Brady claim apparently was not adjudicated on the
merits in state court, because the state court’s adjudication of Applicant’s motion for a new trial predicated
on newly-discovered evidence applied different standards than are applicable to a Brady claim. See id. at
1233-34. As the Tenth Circuit noted, these circumstances “would, seemingly, trigger de novo review by
the federal courts.” See id. at 1233 n.12. Respondents
concede that the Colorado Court of Appeals did not adjudicate the merits of the Brady claim. Docket #70 at
52. Therefore, the Court will consider the Brady claim
de novo.

App. 99
ANALYSIS
Suppression “of evidence favorable to an accused
. . . violates due process where the evidence is material
either to guilt or to punishment.” Brady, 373 U.S. at 87.
“There are three components of a true Brady violation:
The evidence at issue must be favorable to the accused,
either because it is exculpatory, or because it is impeaching; that evidence must have been suppressed by
the State, either willfully or inadvertently; and prejudice must have ensued.” Strickler v. Greene, 527 U.S.
263, 281-82 (1999). “Prejudice satisfying the third element exists ‘when the suppressed evidence is material for Brady puiposes.’ ” Douglas v. Workman, 560
F.3d 1156, 1173 (10th Cir. 2009) (per curiam) (quoting
Banks v. Dretke, 540 U.S. 668, 691 (2004)). Generally,
“[f ]lavorable evidence is material ‘if there is a reasonable probability that, had the evidence been disclosed
to the defense, the result of the proceeding would have
been different.’ ” Id. (quoting Kyles v. Whitley, 514 U.S.
419, 433 (1995)). A “reasonable probability” of a different result exists “when the government’s evidentiary
suppression undermines confidence in the outcome of
the trial.” Kyles 514 U.S. at 434 (citation omitted). The
Court must evaluate whether undisclosed evidence is
material in the context of the entire record. See United
States v. Agurs, 427 U.S. 97, 112 (1976). The burden is
on Applicant to demonstrate the existence of a Brady
violation by a preponderance of the evidence. See
United States v. Garcia, 793 F.3d 1194, 1205 (10th Cir.
2015).

App. 100
Similarly, the knowing use of perjured testimony
violates due process and can be categorized as a Brady
violation. See Douglas, 560 F.3d at 1172-74 & n.13; see
also Giglio v. United States, 405 U.S. 150, 153 (1972)
(“[D]eliberate deception of a court and jurors by the
presentation of known false evidence is incompatible
with rudimentary demands of justice.” (internal quotation marks omitted)). Although the materiality standard for perjury claims arguably is less demanding than
the materiality standard under Kyles for suppression
claims, “for all practical purposes the two standards ultimately mandate the same inquiry” because a petitioner who succeeds under the materiality standard for
perjury claims “will still have to meet the harmless error standard of Brecht v. Abrahamson, 507 U.S. 619,
113 S. Ct. 1710, 123 L. Ed.2d 353 (1993), which the Supreme Court has held is met by the Kyles test.” Douglas, 560 F.3d at 1173 n.12.
Applicant argues as follows with respect to the
perjured testimony component of his Brady claim:
48. In this case, the prosecutors committed
irreparable misconduct by allowing two key
witnesses – Archuleta and Walker – to commit
perjury. Archuleta falsely testified that Kent
LeBere confessed to the murder. Walker knew
that LeBere never confessed, and Walker
knew that Archuleta was able to offer his perjured testimony only thanks to the information that Walker himself provided. This led
to Walker’s own perjury, through his testimony
that Archuleta obtained the “confession” from
LeBere, rather than from information that

App. 101
Walker provided. Walker’s knowledge can be
directly imputed to the prosecution, which
had a duty to know all of the facts surrounding LeBere’s supposed confession.
49. At trial, Archuleta testified that LeBere
confessed to murdering Linda Richards, and
the jury later convicted LeBere of killing her.
This false testimony was corroborated by further perjury from Detective Walker. Given
these facts, there is at least a reasonable
likelihood that Archuleta’s false testimony
affected the jury’s ultimate judgment that
LeBere killed Ms. Richards. Given the paltry
evidence against LeBere – circumstantial evidence, lack of motive, and unreliable witnesses – it is unreasonable to conclude that
Archuleta’s false testimony about a non-existent confession was harmless beyond a reasonable doubt. To the contrary, an examination of
the false evidence raises grave doubts about
the fairness of LeBere’s trial. Accordingly, because the prosecution knowingly used Archuleta’s perjured testimony, LeBere was
denied his right to due process as articulated
by Brady and is entitled to a new trial.
Docket #62 at 21-22 (citations omitted).
The other component of Applicant’s Brady claim is
that the prosecution failed to disclose to the defense
that Walker met with Archuleta and provided him information that enabled Archuleta to give false testimony. Applicant argues as follows with respect to the
alleged failure to disclose:

App. 102
50. Walker visited Archuleta several times
in jail and gave Archuleta police reports to
prepare for his testimony. These facts are exculpatory Brady material because it shows
that LeBere’s supposed confession was a lie
concocted by Archuleta, and made possible
and encouraged by Walker. The prosecution
should have disclosed the evidence on this basis alone. The evidence should also have been
disclosed because it could have been used to
impeach the testimony of both Archuleta and
Walker.
...
52. Walker’s visits with and feeding of information to Archuleta are material pieces of
evidence. Walker and Archuleta were key
prosecution witnesses, both at trial and at the
preliminary hearing. There was no physical
evidence linking LeBere to the murder. However, there was the testimony of investigating
detective Walker, which linked LeBere to the
murder, and testimony – later recanted – by
Archuleta that LeBere confessed to killing
Richards. Information that Walker, seeking to
manufacture a confession, visited Archuleta
in jail and fed him information puts this case
in an entirely different light. It reveals witness tampering, perjury, and prosecutorial
misconduct of which the jury was wholly unaware and which, now revealed, undermines
confidence in the jury’s verdict.
Docket #62 at 22-23 (citations omitted).

App. 103
Applicant acknowledges that the ultimate resolution of his Brady claim turns on the relative credibility
of Archuleta and Walker. It is readily apparent based
on their conflicting deposition testimony and the Court’s
factual findings above that they cannot both be telling
the truth about Applicant’s jailhouse confession and
their own trial testimony. The Court resolves the credibility issue based on a review of the entire record. Furthermore, in considering the evidence in the record,
the Court notes that Archuleta’s recantation must be
viewed with skepticism. “[R]ecanted testimony is notoriously unreliable, easy to find but difficult to confirm
or refute: witnesses forget, witnesses disappear, witnesses with personal motives change their stories
many times, before and after trial.” Case v. Hatch, 731
F.3d 1015, 1044 (10th Cir. 2013) (internal quotation
marks omitted). Thus, “[r]ecantation of testimony given
under oath at trial is not looked upon with favor.”
United States v. Ahern, 612 F.2d 507, 509 (10th Cir.
1980). Instead, the Court must view recantation of trial
testimony with “downright suspicion,” id., because:
[t]he trial is the main event in the criminal
process. The witnesses are there, they are
sworn, they are subject to cross-examination,
and the jury determines whether to believe
them. The stability and finality of verdicts
would be greatly disturbed if courts were too
ready to entertain testimony from witnesses
who have changed their minds, or who claim
to have lied at trial.
United States v. Gray Bear, 116 F.3d 349, 350 (8th Cir.
1997).

App. 104
Applicant argues that Walker’s testimony is not
credible because the objective facts do not support his
version of events and he had, and continues to have, a
strong motive to lie about his true conduct in obtaining
a confession from Applicant. In particular, Applicant
contends Walker is not credible because Walker relied
on Archuleta’s story about Applicant’s confession even
though Walker knew Archuleta was a chronic liar;
Walker failed to corroborate Archuleta’s story about
Applicant’s confession; Walker was involved in helping
Archuleta obtain a favorable plea deal in his own case;
Walker has a history of similar misconduct; Walker focused on Applicant as the only viable suspect despite
evidence or evidentiary leads pointing to the possibility of another suspect; and the need to secure a confession was critically important in order to successfully
prosecute Applicant since the other evidence against
him was not sufficient to find guilt beyond a reasonable
doubt.
With respect to Archuleta, Applicant argues his recantation and deposition testimony, rather than his
trial testimony, is credible because the evidence at trial
did not corroborate the critical elements of Archuleta’s
trial testimony regarding Applicant’s purported motive, and the location of the crime and the information
he provided that was corroborated could have been
gleaned from police files or the newspaper. Applicant
also argues that Archuleta’s recantation is credible because he was specifically warned by other jail inmates
not to speak with Archuleta since Archuleta was a
well-known snitch; the recantation was not prompted

App. 105
or coerced by Applicant or anyone else; and the recantation has remained consistent for more than sixteen
years.
The Court is not persuaded by Applicant’s arguments that Archuleta is credible and Walker is not. The
most important evidence supporting the Court’s conclusion is the fact that Archuleta initially reported Applicant’s confession to Deputy Dey on October 26, 2008,
which was two days before Archuleta met with Walker
regarding Applicant’s case. This fact alone significantly undermines Applicant’s assertions that Walker
knew Applicant never confessed, that Walker knew Archuleta was able to offer his allegedly perjured trial
testimony only thanks to the information that Walker
himself provided, and that Applicant’s confession was
a lie concocted by Archuleta and made possible and encouraged by Walker. While Archuleta’s trial testimony
regarding Applicant’s jailhouse confession included
details that were not set forth in Deputy Dey’s report,
it cannot be disputed that there is evidence of a jailhouse confession by Applicant that has no connection
to Walker.
Applicant seeks to diminish the importance of Deputy Dey’s report and the fact that Archuleta reported
Applicant’s confession to Deputy Dey prior to meeting
with Walker by arguing that Walker saw an opportunity to bolster a weak case and provided information
that helped Archuleta manufacture a confession. The
Court is not persuaded, because this bolstering argument is not consistent with Applicant’s assertions that
Walker knew Applicant never confessed, that Walker

App. 106
was the sole source for Archuleta’s testimony, and
that Applicant’s confession was a lie made possible by
Walker.
The Court also is not persuaded that Archuleta’s
history of dishonesty and lying somehow diminishes
Walker’s credibility. Walker readily admitted at Applicant’s trial that he knew Archuleta was a chronic liar,
an admission that would seem unlikely if Walker was
involved in manufacturing the confession in order to
bolster the case against Applicant.
Moreover, the Court is not convinced that the consistency of Archuleta’s recantation for sixteen years
demonstrates he is credible, because an important part
of his deposition testimony offered in support of his recantation is inconsistent with the record before the
Court and his own prior testimony at Applicant’s trial.
As noted above, the record demonstrates that Archuleta reported a confession by Applicant to Deputy Dey
on October 26, 1998, and he testified to that fact at Applicant’s trial. However, at his deposition Archuleta described Deputy Dey’s report as a “bullshit report” and
insinuated the report had been fabricated by the district attorney’s office and Walker. Although Archuleta
ultimately conceded at his deposition that he may have
spoken to Deputy Dey on October 26, 1998, the Court
finds that his attempt to deny the veracity of Deputy
Dey’s report diminishes his credibility.
The Court also is not persuaded that Walker’s
agreement to “put in a good word” for Archuleta in connection with Archuleta’s own case, which contributed

App. 107
to Archuleta receiving a favorable plea deal in his own
case, demonstrates Walker is not credible. The prosecutor in Archuleta’s case testified that Walker’s “good
word” for Archuleta was only part of the basis on which
Archuleta received a favorable plea deal. The Court
recognizes that Walker’s “good word” for Archuleta provides some support for Applicant’s arguments, but the
significance of this fact does not outweigh the other
factors supporting the Court’s conclusion that Walker
is more credible than Archuleta. In particular, the fact
that Applicant confessed to Archuleta, as evidenced in
Deputy Dey’s report, before ever meeting with Walker
undermines the plausibility of Applicant’s argument
that Walker arranged a favorable plea deal for Archuleta in exchange for false testimony. Furthermore,
the fact that a criminal defendant receives a benefit for
assisting the police in another investigation is not an
unusual occurrence.
Similarly, the Court places little weight on evidence of Walker’s “sloppy” police work and administrative failures in other investigations, including the
Beatty case, during the relevant time period. This evidence, which involves a number of failures to file
timely supplemental reports in other investigations,
does not demonstrate that Walker has a history of
manufacturing confessions or suppressing exculpatory
evidence. In addition, given the circumstances surrounding Walker’s failure to file timely supplemental
reports during the relevant time period, including a
record number of homicides in Colorado Springs and
the demands of running a business with his wife, the

App. 108
Court is not persuaded that Walker’s alleged sloppiness diminishes his credibility with respect to Applicant’s jailhouse confession.
The Court also finds some evidence to support Respondents’ contention that Archuleta’s recantation
was not motivated by his desire to clear his conscience,
as he asserts. The record reflects that Archuleta’s initial recantation in 2000 occurred at a time when he
knew (1) he was going to prison, (2) there were threats
against him from other inmates because he was a
snitch, and (3) he could be incarcerated with friends of
Applicant. The Court finds that these circumstances
provide an equally plausible alternative explanation
for Archuleta’s recantation.
Finally, although Applicant places great weight on
asserted deficiencies regarding the scope of the police
investigation in Applicant’s case and, in particular, on
the investigation of Herring as a possible suspect, the
Court is not persuaded that these circumstances
demonstrate Walker is not credible. For example, Applicant has not shown what evidence additional investigation would have uncovered. Furthermore, although
Walker was the lead detective, he was not the only police officer involved in the investigation of Applicant’s
case. Finally, it is not accurate to assert that Herring
was never investigated as a potential suspect in connection with the death of Linda Richards. In fact, the
police spoke with Herring in his home and formally interviewed him at the police station within a few hours
after the crime was committed and before Applicant
was identified as a suspect.

App. 109
The Court also is not persuaded that Walker’s focus on Applicant as the only viable suspect demonstrates Walker is not credible. The police investigation
uncovered a substantial amount of circumstantial evidence pointing to Applicant as the perpetrator, including the following: Applicant was with Linda Richards
at Crazy Mike’s bar on the east side of Colorado
Springs on the evening of October 15, 1998; Applicant
and Linda Richards left Crazy Mike’s bar together between 12:30 a.m. and 1:30 a.m. on October 16, 1998; a
van driven by Linda Richards was found burning in a
carwash on the west side of Colorado Springs around
2:00 a.m. on October 16, 1998; Linda Richards was
killed sometime between 12:30 a.m. and 2:00 a.m. on
October 16, 1998; a woman who lived near the car wash
where the van was discovered identified Applicant as
the man who walked past her, away from the carwash
and toward a nearby 7-Eleven, at around 2:15 or 2:30
a.m. on October 16, 1998; Applicant was identified on
the 7-Eleven surveillance tape at 2:35 a.m.; Applicant
also was identified by a cab driver as the fare he picked
up at the 7-Eleven at 2:45 a.m. and dropped off a short
distance from Applicant’s residence; and Applicant
provided inconsistent stories to the police regarding
what happened when he left the bar with Linda Richards. In light of this evidence, Walker’s focus on Applicant as the only viable suspect was neither irrational
nor unreasonable. The fact that another witness, who
saw a man near the burning van in the car wash, did
not identify Applicant as the man she saw does not significantly diminish the weight of the circumstantial

App. 110
evidence that points to Applicant as the perpetrator of
the crime.
CONCLUSION
For the foregoing reasons, the Court concludes the
Applicant is not entitled to relief based on his Brady
claim. The Court is not persuaded that the prosecution
either relied on perjured testimony from Archuleta and
Walker or that Walker met with Archuleta and provided him information enabling Archuleta to give false
testimony. In short, based on a review of the entire record, and viewing Archuleta’s recanted testimony with
appropriate suspicion, the Court concludes that the
preponderance of evidence demonstrates Walker’s testimony is credible and Archuleta’s recantation is not.
Therefore, the Court finds that Applicant fails to
demonstrate the prosecution suppressed favorable evidence. Accordingly, based upon the foregoing and the
entire record herein, the Court respectfully RECOMMENDS that the Amended Application [filed August
12, 2009; docket #621 be DENIED.
Respectfully submitted and dated at Denver, Colorado, this 8th day of August, 2016.
BY THE COURT:
/s/ Michael E. Hegarty
Michael E. Hegarty
United States
Magistrate Judge

App. 111
PUBLISH
UNITED STATES COURT OF APPEALS
TENTH CIRCUIT
-----------------------------------------------------------------------

KENT ERIC LEBERE,
Petitioner – Appellant,
v.
JAMES ABBOTT, Warden;
JOHN W. SUTHERS,
the Attorney General of the
State of Colorado,

No. 11-1090

Respondents – Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:03-CV-01424-WDM)
-----------------------------------------------------------------------

(Filed Oct. 18, 2013)
James L. Volling, Faegre & Benson LLP, Minneapolis,
Minnesota, (Jesseca R.F. Cockson, Martin S. Chester,
Christina C. Semmer, and Daniel G. Prokott, Faegre &
Benson LLP, Minneapolis, Minnesota; Laurence W.
DeMuth, III, Faegre & Benson LLP, Boulder, Colorado;
and Jennifer K. Harrison, Faegre & Benson LLP, Denver, Colorado, with him on the briefs), for Petitioner –
Appellant.

App. 112
John D. Seidel, Senior Assistant Attorney General,
(John W. Suthers, Attorney General, with him on the
brief ), State of Colorado, Denver, Colorado, for Respondents – Appellees.
-----------------------------------------------------------------------

Before KELLY, O’BRIEN, and MATHESON, Circuit
Judges.
-----------------------------------------------------------------------

O’BRIEN, Circuit Judge.
Kent LeBere is serving a 60-year term of imprisonment imposed by a Colorado court as a result of his
conviction for second-degree murder and second-degree arson. In his 28 U.S.C. § 2254 petition for habeas
relief, he contends the State relied on perjured testimony and withheld potentially exculpatory evidence
material to his defense in violation of Brady v. Maryland, 373 U.S. 83 (1963). The only question presented
is whether federal courts may consider his claim.1 It
involves the interplay between state and federal procedural rules.
The procedural history of this case is somewhat
convoluted (as we will detail) but it can be succinctly
summarized. After LeBere began serving his sentence and while his direct appeal was pending, Ronnie
Archuleta, a key witness against him, recanted his testimony. LeBere promptly moved for a new trial based
upon that newly discovered evidence. His new trial
1

We granted a certificate of appealability on this issue.

App. 113
motion became a collateral part of his direct appeal
and, after a hearing, it was denied. LeBere then
brought this habeas petition expressly claiming, for
the first time, a Brady violation based on the undisclosed acts of a detective who allegedly encouraged Archuleta to lie at the trial. The district judge abated
these habeas proceedings to permit LeBere to exhaust
his newly minted claim in the state courts. He then
filed a petition for post-conviction relief with the Colorado trial court asserting the Brady claim. The petition
was not decided on the merits; post-conviction relief
was denied because the Brady claim was, sub silento,
part and parcel of his newly discovered evidence claim,
which was addressed and decided on direct appeal. Importantly, the Brady issue was not considered to have
been procedurally barred because it was not timely
raised (waiver or forfeiture); it was considered to have
been subsumed in the new trial motion and, in effect,
decided when the new trial motion was denied. And
since it had been decided on direct appeal, under Colorado procedures it could not be revisited in post-conviction proceedings (successive bar). LeBere returned
to federal court with the Brady claim front and center.
The district judge concluded it was procedurally
barred by Colorado’s successive bar rule.
LeBere contends Colorado’s successive bar has no
effect on the availability of habeas review of his particular claims. He is correct. We reverse.

App. 114
FACTUAL BACKGROUND
On October 16, 1998, Linda Richards’s van was set
ablaze from the inside and abandoned at a car wash on
the west side of Colorado Springs, Colorado. Her partially clothed remains were found wedged between the
two front seats of the van. An autopsy confirmed she
had died from strangulation before the fire was set.
The State of Colorado charged LeBere with Richards’s murder. He pled not guilty and the case went to
trial.
The prosecution’s case was primarily circumstantial. LeBere was observed leaving a bar on the east side
of town with Richards hours before her death. Later,
he was viewed on the store’s security camera as he
caught a cab ride home from a convenience store located several blocks from the car wash. The cab driver
identified him as the man he picked up at the convenience store at 2:45 a.m., less than an hour after witnesses spotted the burning van. Although LeBere
admitted to leaving the bar with Richards, he initially
provided conflicting stories about what happened next.
He told the police two stories (he walked home from
the bar and Richards drove him home) and told his
aunt a third (Richards had driven him across town to
go to another bar, he became sick, left her car, walked
around until he found the convenience store, got something to eat and called a cab).
There was no physical evidence linking LeBere to
the murder. In addition, Yvonne Castro, the only witness who actually saw the van prior to the fire, testified

App. 115
to observing a man standing next to it. She described
the man as wearing light clothing and a fishing hat.
LeBere, however, was wearing dark clothing and no
hat. Tellingly, Castro viewed the convenience store’s
surveillance footage of LeBere on the night of the murder and did not identify LeBere as the man she saw at
the car wash.
The State’s only direct evidence was the testimony
of Ronnie Archuleta, an inmate who had been housed
with LeBere shortly after his arrest. Archuleta’s testimony included a story LeBere had related to him. In
that story, LeBere admitted to raping Richards, strangling her to death, and burning her van to conceal the
evidence. According to Archuleta, LeBere said he killed
Richards so she would not be able to identify him from
a distinctive tattoo on his arm.
As part of his defense, LeBere presented evidence
about another person—Richards’s fiancé, Russell Herring. In his testimony, Herring admitted the couple’s
relationship had been tumultuous, poisoned by infidelity and punctuated by bouts of violence, and he confessed to having physically assaulted Richards in the
past. He also testified as follows: The couple argued the
evening of Richards’s death resulting in Herring telling Richards he was considering ending their relationship. When Richards left the house Herring figured,
correctly, she was headed for a bar. He stayed home
that night.
Herring’s testimony about staying home was challenged. The defense presented evidence of his car

App. 116
having been driven the night of the murder. Specifically, a neighbor heard a noise which sounded like a
truck leaving the house. Moreover, Richards’s father
saw the vehicle the following morning and noticed an
accumulation of water on the windshield. He described
it as dew, but a meteorologist testified the weather conditions made it scientifically impossible for dew to have
formed. According to the meteorologist, there could be
only two explanations for the water: either someone
had placed it on the windshield or someone had been
breathing inside the car.
The jury convicted LeBere of second-degree murder and second-degree arson, but acquitted him of the
remaining counts: first-degree murder committed after
deliberation, felony murder arising from sexual assault, and manslaughter.2 The trial court sentenced
him to 48 years imprisonment on the murder conviction and 12 years on the arson conviction, to be served
consecutively.
PROCEDURAL BACKGROUND
In February 2000, while LeBere’s case was pending on direct appeal, Archuleta contacted LeBere’s
attorney and recanted his trial testimony. He said the
whole story was fabricated; LeBere had never confessed. Worse, he said his false testimony had been induced by the lead detective on the case, J.D. Walker,
2

LeBere tells us he was also acquitted of sexual assault, but
his statement is not supported by the state court filings. It is irrelevant to our decision in any event.

App. 117
who visited him in jail and promised to push for favorable treatment in his pending criminal case if he would
implicate LeBere in the Richards murder. According to
Archuleta, Walker knew the testimony Archuleta gave
at trial was false—LeBere had never confessed. Moreover, Walker furnished Archuleta with a copy of the police reports, presumably so he could come up with a
plausible confession story.
Relying on the recantation, LeBere moved for a
new trial based on newly discovered evidence. See Colo.
R. Crim. P. 33(c). The Colorado Court of Appeals abated
the appeal and remanded the case to the trial court to
resolve issues regarding the newly discovered evidence. The trial judge held an evidentiary hearing.
Archuleta did not appear, fearing arrest on outstanding warrants.3 The judge concluded the new evidence
would not have changed the outcome of the trial and
denied the motion.4 Significant, in his view, was
3

The record is unclear as to how Archuleta’s recantation was
presented at the hearing. He did not produce an affidavit attesting to the information he provided to LeBere’s attorney until June
2004. The affidavit appears to have been first presented to any
court as an attachment to LeBere’s amended § 2254 petition, filed
in August 2009.
4
To receive a new trial based on newly discovered evidence,
the defendant must show: (1) the new evidence was unknown to
the defendant prior to trial; (2) the defense must have exercised
due diligence in finding favorable evidence prior to trial; (3) the
newly discovered evidence is material to the issues and not cumulative or impeaching; and (4) on retrial the newly discovered evidence would probably result in an acquittal. People v. Gutierrez,
622 P.2d 547, 559-60 (Colo. 1981). The trial judge determined the
first two factors had been satisfied. He was less clear as to the
third factor—first suggesting Archuleta’s recantation was merely

App. 118
LeBere’s acquittal on the counts of first-degree murder
with deliberation and felony murder arising from sexual assault, the two charges for which Archuleta’s testimony provided direct support. This indicated the jury
did not believe Archuleta’s testimony. He also concluded there was substantial other evidence of guilt.
The appellate court upheld the decision and affirmed
the conviction. The Colorado Supreme Court declined
review. He did not seek review from the United States
Supreme Court, thus ending his direct appeal.
LeBere initiated pro se federal habeas proceedings
in July 2003. He raised, inter alia, error in the state
courts’ denial of his motion for new trial based on
newly discovered evidence. The State responded,
claiming dismissal was appropriate for failure to allege
a violation of federal law, see Estelle v. McGuire, 502
U.S. 62, 67-68 (1991), and even assuming such a federal
claim could be divined from his petition, it was unexhausted.5 Counsel for LeBere entered their appearance
and moved to stay the federal proceedings to allow
LeBere to return to state court and exhaust his claims.
The district judge granted the motion.6
impeachment evidence but then indicating it was material to the
defense theory of police misconduct. In any event, he was clear
the fourth factor had not been met.
5
LeBere’s pro se habeas petition included three claims, including error regarding the denial of his motion for new evidence.
The State argued all three claims were unexhausted.
6
When counsel made their appearance for LeBere, they
sought a stay of the habeas proceedings to allow LeBere to exhaust his claims in state court. However, when LeBere returned
to state court, he did not seek to exhaust any of the legal theories

App. 119
With the assistance of new counsel, LeBere filed a
motion for post-conviction relief in state court pursuant to Colo. R. Crim. P. 35(c). This time, and for the first
time, LeBere couched his claim regarding Archuleta’s
recantation and Walker’s misconduct as a federal
Brady claim. “A review of the Motion,” the judge stated,
“leads to the conclusion that the basis of the Motion
involves the purported recanted testimony of Ronnie
Archuleta. . . . [T]he grounds of this Motion [are] the
same as those previously raised and determined on appeal.” (App’x Vol. 2 at 351-52.) The Colorado Court of
Appeals affirmed, relying on Colo. R. Crim. P.
35(c)(3)(VI), which requires dismissal of any claim that
was raised previously (absent two circumstances not
present here).7 While recognizing the legal basis for the
claim was “superficially different,” it decided the factual basis for the Brady claim duplicated the factual
raised in his pro se habeas petition; he instead raised new legal
theories, including Brady. When LeBere sought to amend his habeas petition, the State opposed the amendment. It argued that
while it had not opposed a stay to allow exhaustion of the claims
raised in the pro se petition, it did oppose a stay for exhausting
new claims. See infra n.8.
7
LeBere’s Rule 35(c) post-conviction motion was filed April
21, 2004. Rule 35(c)(3)(VI), which imposes a mandatory bar for
claims “raised and resolved” in a prior appeal or post-conviction
proceeding, became effective July 1, 2004, and governs only petitions filed after that date. See People v. Versteeg, 165 P.3d 760,
763 (Colo. App. 2006) (noting that the amended version of Rule 35
applies only to motions filed after the amendment’s effective
date—July 1, 2004); People v. Wenzinger, 155 P.3d 415, 418-19
(Colo. App. 2006) (discussing amendments to Rule 35 and applying Rule 35(c)(3)(VI) to a petition filed after July 1, 2004). Nevertheless, the Colorado Court of Appeals applied the new rule to
LeBere’s motion. In light of our disposition it makes no difference.

App. 120
basis supporting the motion for new trial. (Id. at 358.)
Thus, the Brady claim was “merely a rephrasing of the
motion for new trial,” and it would “not revisit what is
essentially the same issue in a second appeal.” (Id.) To
no avail, LeBere petitioned for review by the Colorado
Supreme Court.
LeBere then returned to federal court with an
amended 28 U.S.C. § 2254 petition. For the first time in
the federal proceedings, LeBere raised a Brady claim.8
The district judge traced the history. LeBere’s newly
discovered evidence claim was presented and decided
as part of his direct appeal. But the judge correctly
concluded that claim sounded exclusively in state law;
it was insufficient to give notice of the federal claim—
a Brady violation. See Anderson v. Harless, 459 U.S. 4,
6 (1982) (“It is not enough that all the facts necessary
to support the federal claim were before the state
courts. . . .”). In short, LeBere failed to exhaust his
Brady claim on direct appeal. He did, however, raise it
to the Colorado courts on collateral review. The judge
nevertheless decided it was not fairly presented because the post-conviction court concluded it was an
8

The State opposed the amendment, claiming the Brady
claim was untimely because the district court had only stayed the
action to allow LeBere to return to state court to exhaust those
claims raised in his initial pro se § 2254 petition and the Brady
claim was not a claim in that petition and did not relate back to
that petition under Fed. R. Civ. P. 15. The district judge saw it
differently. He decided the Brady claim related back to the newly
discovered evidence claim in the original petition and allowed
amendment of the § 2254 petition to include the Brady claim. The
State does not appeal from that decision.

App. 121
impermissible, successive claim (one that had already
been decided). Thus, it was not exhausted. See Coleman v. Thompson, 501 U.S. 722, 731-32 (1991); Castille
v. Peoples, 489 U.S. 346, 351 (1989) (exhaustion requirement requires the federal claim to have been
“fairly presented” to the state courts). In that regard he
erred; if the claim had been earlier decided by the Colorado court it was, necessarily, exhausted.
DISCUSSION
We review a state court’s decision under appropriate habeas standards. If the state court, in fact,
reached the merits our review is deferential; otherwise
it is de novo. See Mitchell v. Gibson, 262 F.3d 1036,
1045 (10th Cir. 2001). However, “[w]hen a state court
declines to review the merits of a petitioner’s claim on
the ground that it has done so already, it creates no bar
to federal habeas review.” Cone v. Bell, 556 U.S. 449,
466 (2009).
In his Rule 35(c) post-conviction proceedings,
LeBere presented his Brady claim to the state courts.
But the post-conviction court did not resolve the Brady
claim on the merits. Instead, it declined review under
a Colorado rule barring post-conviction review of a
claim raised and resolved in a previous proceeding. See
Colo. R. Crim. P. 35(c)(3)(VI). Generally, when a state
court dismisses a federal claim on an “independent and
adequate” procedural ground, the doctrine of procedural default forecloses federal review. Coleman, 501
U.S. at 729-32. The question, then, is whether the

App. 122
application of the state’s successive bar presents a barrier to federal review. Not necessarily.
In Cone, the Supreme Court decided a state court’s
refusal to consider the merits of a claim because the
claim was previously determined is not a proper basis
for denying federal habeas review. Cone, 556 U.S. at
466. This is not a novel proposition. We are among several circuits to have previously reached the same conclusion, Page v. Frank, 343 F.3d 901, 907 (7th Cir. 2003);
Brecheen v. Reynolds, 41 F.3d 1343, 1358 (10th Cir.
1994); Bennett v. Whitley, 41 F.3d 1581, 1582-83 (5th
Cir. 1994); Silverstein v. Henderson, 706 F.2d 361, 368
(2d Cir. 1983), and the Supreme Court had implied as
much nearly two decades earlier in Ylst v. Nunnemaker, 501 U.S. 797, 804 n.3 (1991). Cone’s contribution was to confirm that the principle applies with
equal force where a state court refuses to consider a
federal claim on the erroneous premise that it had already been adjudicated. Cone, 556 U.S. at 466-67.
The facts in Cone are on all fours with this case.
After he was convicted and sentenced to death, Gary
Cone appealed his conviction, arguing prosecutors had
violated state law by failing to disclose evidence
strengthening his defense—he committed the murders
while in the throes of a drug-induced psychosis. Id. at
454, 457. His appeal was unsuccessful, and the Tennessee courts denied post-conviction relief. Id. at 457.
Later, Cone filed a second petition for post-conviction
relief in which he argued the prosecution had violated
Brady by failing to disclose evidence bolstering his

App. 123
insanity defense and mitigating the prosecution’s case
for the death penalty. Id. at 457-60.
The post-conviction court denied review because,
it concluded, the Brady claim had been previously determined on direct appeal; the appellate court affirmed
and the state supreme court and United States Supreme Court denied review. Id. at 460-61. Cone then
raised his Brady claim in a § 2254 petition in federal
court. Id. at 461. The district judge denied relief, concluding the Brady claim had been waived (not timely
presented in state court) and was therefore procedurally defaulted. Id. The Sixth Circuit affirmed on a
slightly different ground, explaining it was barred
from reaching the merits of the claim because the state
post-conviction courts had deemed the claim “previously determined or waived” under Tennessee law. Id.
at 462 (quotations omitted).
The Supreme Court vacated the Sixth Circuit’s decision and remanded to the district court. Id. at 452.
While there was some confusion as to whether the
state appellate court had refused to reach the merits
of the Brady claim because it had been previously determined or because it had been waived, the Supreme
Court concluded the basis for the decision was the former—it had been previously determined. Id. at 467-68.
The state court’s decision rested on a “false premise,”
the Supreme Court explained, because the claim Cone
raised on direct appeal arose under state law, not
Brady. Id. at 466. In any event, the application of Tennessee’s successive bar did not preclude federal review:
“When a state court refuses to adjudicate a claim on

App. 124
the ground that it has been previously determined, the
court’s decision does not indicate that the claim has
been procedurally defaulted. To the contrary, it provides strong evidence that the claim has already been
given full consideration by the state courts and thus is
ripe for federal adjudication.” Id. at 467.
The Court’s decision in Cone controls the outcome
of this case. As in Cone, LeBere raised a state-law nondisclosure claim on direct appeal and, based on the
same facts, a Brady claim on post-conviction review.
And, as in Cone, the post-conviction court applied the
state bar on successive claims in declining to reach the
merits. If the application of the successive bar in Cone
did not affect the availability of federal review, the
same should be true for a nearly identical rule here.
We can discern only one potentially material distinction between the two cases, and it relates to the
scope of the applicable successive bars. In Cone, hearings on petitions for post-conviction relief could not be
based on claims “previously determined,” meaning a
court had “ruled on the merits of the claim after a full
and fair hearing.” Id. at 458 n.8 (quotations omitted).
The Colorado successive bar appears to sweep more
broadly, if only slightly. The rule limits review to claims
not “raised and resolved” in a prior proceeding. See
Colo. R. Crim. P. 35(c)(3)(VI). Colorado courts have provided clarification—the rule prohibits not only claims
previously decided on the merits, but also claims where
review “would be nothing more than a second appeal
addressing the same issues on some recently contrived
constitutional theory.” People v. Rodriguez, 914 P.2d

App. 125
230, 249 (Colo. 1996) (quotations omitted). In other
words, it precludes claims raising new legal theories
based on old facts. Id. (citing Sanders v. United States,
373 U.S. 1, 16 (1963)); see also People v. McDowell, 219
P.3d 332, 336-37 (Colo. Ct. App. 2009) (Rule 35 prevented defendant’s outrageous governmental conduct
claim based on police officers’ and the district attorney’s interrogation because it was previously decided
on direct appeal although couched in terms of a violation of Miranda v. Arizona, 384 U.S. 436 (1966)).
The apparent distinction disappears upon closer
examination of the two rules. Like Colorado’s Rule 35,
Tennessee’s successive bar rule was designed in the
mold of its federal counterpart concerning successive
§ 2255 motions. See 28 U.S.C. § 2255(h); People ex. rel.
Wyse v. Dist. Court In and For Twentieth Judicial Dist.,
503 P.2d 154, 156 (Colo. 1972); People v. Sherman, 172
P.3d 911, 915 (Colo. Ct. App. 2006); Johnson v. State,
No. 02C01-9111-CR-00237, 1994 WL 90483, at *13 &
n.4 (Tenn. Crim. App. Mar. 23, 1994) (unpublished);
Gary L. Anderson, Post-Conviction Relief in Tennessee—Fourteen Years of Judicial Administration Under
the Post-Conviction Procedure Act, 48 Tenn. L. Rev. 605,
609-610, 659 (1981). And like the Colorado rule, the
Tennessee provision has been interpreted to cover
claims that couch old facts under new legal principles.
Aaron v. State, No. M2006-01983-CCA-R3-PC, 2008
WL 203394, at *4-5 (Tenn. Ct. App. Jan. 22, 2008) (unpublished) (finding claim based on sufficiency of the
evidence was previously determined on direct appeal
despite petitioner’s attempt to couch it in different

App. 126
legal terms); Payne v. State, No. 02C01-9703-CR-00131,
1998 WL 12670, at *10 (Tenn. Crim. App. Jan. 15, 1998)
(unpublished) (claims were previously determined
even though not previously addressed in terms of ineffective assistance of counsel); Bates v. State, No. 03C019208-CR-00279, 1993 WL 144618, at *5 (Tenn. Crim.
App. May 6, 1993) (unpublished) (“[F]acts which are
presented and ruled upon on the merits . . . are . . . ’previously determined.”). Notwithstanding some minor
textual differences, then, the two rules are coextensive.
More than that, they are cut from the same cloth.
Both rules represent legislative tweaks on the common
law doctrine of res judicata, both are modeled on the
Supreme Court’s decision in Sanders v. United States,
373 U.S. 1 (1963), and both were created to serve the
same principle—finality. Rodriguez, 914 P.2d at 249;
Sherman, 172 P.3d at 916; Bledsoe v. State, No. W200002701-CCA-R3-PC, 2001 WL 1078269, at *3-4 (Tenn.
Crim. App. Sep. 14, 2001) (unpublished); Johnson, 1994
WL 90483, at *13; Bates, 1993 WL 144618 at *5; Anderson, supra, 48 Tenn. L. Rev. at 607 n.3, 611, 626, 659.
Much like the doctrine of res judicata, their application
goes to a previous determination of the merits of a case,
which is what the Court was driving at in Cone when
it said a procedural bar covers claims that have not
been fairly presented, not claims that have been presented more than once. See Cone, 556 U.S. at 467.
The State’s attempt to limit Cone to its facts is
misguided. In several places it simply misreads the
decision. Elsewhere it conjures up distinctions either
not there or otherwise having no bearing on the

App. 127
application of Cone to this case. For instance, it stakes
its argument on the incorrect premise that Cone “assumed the very fact in dispute here,” namely, “the
claims presented each of two times to state courts were
federal in nature and identical.” (Respondent’s Supp.
Br. at 7, 9.) This could not be further from the truth.
Far from assuming the two claims were identical, the
Supreme Court concluded Cone did not present a
Brady claim on direct appeal, and even faulted the
State for “conflating” Brady with the state-law nondisclosure claim. 556 U.S. at 459, 466. The State tries to
cherry-pick excerpts from Cone that purportedly shore
up its interpretation, but the passages it cites are out
of context. The argument is impossible to reconcile
with the unambiguous language of the Court: “The
Tennessee post-conviction court denied Cone’s Brady
claim after concluding it had been previously determined following a full and fair hearing in state court.
That conclusion rested on a false premise: Contrary to
the state courts’ finding, Cone had not presented his
Brady claim in earlier proceedings and, consequently,
the state courts had not passed on it.” Id. at 466 (citation omitted).
The State tries to distinguish Cone by pointing to
uncertainty as to which procedural bar—the waiver
rule or the bar on successive claims—had been invoked
by the Tennessee courts. While initially there may
have been some uncertainty in this regard, in reaching
its decision the Supreme Court concluded the Tennessee appellate court had applied the successive bar, not
the waiver rule, in declining to reach the merits of the

App. 128
Brady claim. Id. at 467-69. It was by way of this conclusion that the Court arrived at its broader holding—
a state court’s determination that a claim has already
been adjudicated does not preclude federal habeas review.
The State makes much of the fact that Colorado’s
successive bar mirrors the one applied by federal
courts under former Rule 9(b) of the Rules Governing
§ 2254 Cases in the United States District Courts,
which allowed dismissal of a second or successive
§ 2254 petition if it failed to allege new or different
grounds for relief and the prior determination was on
the merits.9 Under the Supreme Court’s decision in
9

The State cites Rule 9(b) of the Rules Governing § 2254
Cases in the United States District Courts. That rule was
amended in 2004. Prior to 2004, subsection (b) allowed dismissal
of a second or successive petition “if the judge finds that it fails to
allege new or different grounds for relief and the prior determination was on the merits. . . .” The 2004 amendments changed subsection (b) to reflect provisions in 28 U.S.C. § 2244 which require
a petitioner to obtain approval from the appropriate court of appeals before filing a second or successive petition. See Rule 9 of
the Rules Governing Section 2254 Cases in the United States District Courts advisory committee’s notes to 2004 amendments.
Under § 2244 a court of appeals may authorize the filing of a
second or successive application only if the applicant shows (1)
“the claim relies on a new rule of constitutional law, made retroactive to cases on collateral review by the Supreme Court, that
was previously unavailable” or (2) “the factual predicate for the
claim could not have been previously discovered through the exercise of due diligence” and “the facts underlying the claim . . .
would be sufficient to establish by clear and convincing evidence
that, but for constitutional error, no reasonable factfinder would
have found the applicant guilty of the underlying offense.” See 28
U.S.C. § 2244(b)(2),(3)(C).

App. 129
Sanders, the Rule encompassed new legal theories
based on previously asserted facts.10 373 U.S. at 16.
It is “inconceivable,” the State contends, that Cone “intended to tell states that their version of the Sanders
rule is inadequate to prevent habeas review, when federal courts use it every day for that precise purpose.”
(Respondent’s Supp. Br. at 13.)
There is, admittedly, a shallow logic at work here:
if federal law precluded review of federal claims arising from facts determined in earlier federal habeas
proceedings, should not an identical state bar operate
to a similar effect? The wisps of logic dissolve when one
considers the contours of the procedural default doctrine; the federal habeas rules do not inform a debate
animated by an entirely different set of principles.
When a district court invoked the successive bar in
Rule 9(b) and declined to entertain a federal prisoner’s
request for habeas relief, it did so knowing the prisoner
had a fair opportunity to present his claim in federal
court. But no such assurance attends a decision declining review of a state prisoner’s request for habeas
relief on the ground that a state court decided it was
10

Sanders involved the interpretation of 28 U.S.C. § 2255
and its bar on second or successive § 2255 motions. 373 U.S. at 34, 12. Nevertheless, Rule 9(b) of the Rules Governing § 2254
Cases appears to have been modeled after Sanders. See Rule 9 of
the Rules Governing Section 2254 Cases in the United States District Courts advisory committee’s notes to 1976 adoption. And we
have applied Sanders when applying Rule 9(b) of the Rules Governing § 2254 Cases. See, e.g., Parks v. Reynolds, 958 F.2d 989,
994 (10th Cir. 1992); Robison v. Maynard, 958 F.2d 1013, 101516 (10th Cir. 1992); Truitt v. Hargett, 986 F.2d 1430, No. 92-6329,
1993 WL 53577, *2 (10th Cir. Feb. 16, 1993) (unpublished).

App. 130
previously determined. Whether the federal claim was
previously decided, as opposed to being waived, must
ultimately be determined by a federal court. The federal court must determine whether the state court’s refusal to revisit the claim excuses its obligation under
§ 2254(a) to decide whether the petitioner is in lawful
custody.11 See Cone, 556 U.S. at 465.
Given the posture of this case there is no procedural bar to habeas review. The irony has not escaped
us.12 Had the Colorado courts decided LeBere’s Brady
claim was waived or forfeited because it could have
been but was not raised on direct appeal (as is clearly
the case—he was aware of the pertinent facts but neither made mention of Brady nor fairly alluded to it),
11

If there are lessons to be drawn from the federal successive
bar, they support LeBere’s position on procedural default, not the
State’s. The federal rule is a doctrinal relative of common law res
judicata, the application of which rests on the premise that the
prior determination was a decision on the merits. Sanders, 373
U.S. at 16. As the Supreme Court suggested in Cone, a successive
bar does not sound in procedure the way claim-processing rules
do. In the Court’s words, “[a] claim is procedurally barred when it
has not been fairly presented to the state courts for their initial
consideration—not when the claim has been presented more than
once.” Cone, 556 U.S. at 467.
12
And the supreme irony may be yet to come. If the Brady
claim had, in fact, been previously determined, explicitly or implicitly, federal habeas review would not be foreclosed if timely
requested. But it would be deferential review. See Mitchell, 262
F.3d at 1045. On the other hand, if the Colorado Court of Appeals
was incorrect in equating the test for newly discovered evidence
with the test for a Brady violation (as appears to be the case) then
the state courts failed to address the merits of the Brady claim.
That would, seemingly, trigger de novo review by the federal
courts. Mitchell, 262 F.3d at 1045.

App. 131
see Colo. R. Crim. P. 35(c)(3)(VII), federal courts would
be bound to honor its procedural default holding, absent a showing of cause for the default and actual prejudice or that failure to consider the claim will result in
a fundamental miscarriage of justice.13 See Coleman,
501 U.S. at 750.
Instead, the Colorado Court of Appeals concluded
the Brady claim had been decided because it was necessarily included in the new trial motion. However,
while the new trial motion was based on the same facts
as the later-raised Brady claim, Brady was not raised
in the new trial motion. For starters, a Brady claim is
grounded in the constitutional principle of due process,
which is not true of a motion based on newly discovered evidence. Compare Brady, 373 U.S. at 87, with
Farrar v. People, 208 P.3d 702, 706 (Colo. 2009). Additionally, impeachment evidence falls within the Brady
rule; on the other hand, for newly discovered evidence to constitute grounds for a new trial, it must be
more than impeaching. Compare United States v.
Bagley, 473 U.S. 667, 676 (1985) with Farrar, 208 P.3d
at 707, and People v. Gutierrez, 622 P.2d 547, 559-60
(Colo. 1981). Moreover, the materiality standard is
13

We have yet to decide in a published case whether Colorado’s rule barring claims that could have been but were not previously raised is an independent and adequate state ground
precluding federal habeas review. We have, however, indicated
as much in several unpublished cases. See, e.g., Rea v. Suthers,
402 F. App’x 329, 331 (10th Cir. 2010) (unpublished); Burton v.
Zavaras, 340 F. App’x 453, 454 (10th Cir. 2009) (unpublished);
Williams v. Broaddus, 331 F. App’x 560, 563 (10th Cir. 2009) (unpublished).

App. 132
comparatively more stringent under Colorado’s newly
discovered evidence law, especially as it relates to recantations. Compare Bagley, 473 U.S. at 682, with
Farrar, 208 P.3d at 706.
REVERSED and REMANDED.

App. 133
ORAL ARGUMENT REQUESTED
No. 20-1117
IN THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

KENT ERIC LEBERE,
Appellant/Petitioner,
v.
TRAVIS TRANI, Warden, and PHILIP J. WEISER, The
Attorney General of the State of Colorado,
Appellees/Respondents.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

ON APPEAL FROM THE ORDER OF THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
The Honorable Marcia S. Krieger
District Court Civil Action No. 03-cv-01424-MSK-MEH
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

APPELLANT’S COMBINED OPENING
BRIEF AND APPLICATION FOR A
CERTIFICATE OF APPEALABILITY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed Sep. 11, 2020)

App. 134
Laurence W. DeMuth, III
FAEGRE DRINKER
BIDDLE & REATH LLP
1900 Ninth Street, Suite 200
Boulder, Colorado 80302
Telephone: 303-447-7700
Email trip.demuth@
faegredrinker.com

James L. Volling
Martin S. Chester
Jeffrey P. Justman
Nathaniel Zylstra
FAEGRE DRINKER
BIDDLE & REATH LLP
90 South Seventh Street,
Suite 2200
Minneapolis, Minnesota
55402
Telephone: 612-766-7000
Email: james.volling@
faegredrinker.com
martin.chester@
faegredrinker.com
jeffjustman@
faegredrinker.com
nathaniel.zylstra@
faegredrinker.com

[Table Of Contents And Authorities Omitted]
STATEMENT OF PRIOR
OR RELATED APPEALS
This is the third time LeBere’s habeas petition has
come before this Court. On two prior occasions, this
Court reversed the District Court’s rulings. See LeBere
v. Abbott, No. 11-1090, 732 F.3d 1224 (10th Cir. 2013)
(District Court incorrectly held that LeBere’s Brady
claim was not exhausted); LeBere v. Trani, No. 16-1499,
746 F. App’x 727 (10th Cir. 2018) (unpublished) (District Court incorrectly held that evidence of a falsified

App. 135
and later recanted “confession” was immaterial to
LeBere’s conviction).
STATEMENT OF JURISDICTION
Appellant Kent LeBere appeals from the Order
Adopting Recommendation and Denying Petition for
Writ of Habeas Corpus entered on February 28, 2020,
by the United States District Court for the District of
Colorado, the Hon. Marcia S. Krieger. (Appellant’s Appendix V2.App.448.)1 The District Court had jurisdiction pursuant to 28 U.S.C. § 2254. In its Order, the
District Court denied a certificate of appealability.
(V2.App.466-67.) The District Court did not enter a final judgment on a “separate document” as required by
Federal Rule of Civil Procedure 58(a), so judgment was
“deemed” entered and final 150 days from the date of
its February 28, 2020 Order—which occurred on July
27, 2020. See Fed. R. App. P. 4(a)(7)(A)(ii). LeBere filed
his notice of appeal on March 24, 2020. (V2.App.468.)
Even though his notice of appeal falls before the date
final judgment was deemed to have been entered, his
appeal is timely because such a notice of appeal “is
treated as filed on the date of and after the entry.” Fed.
R. App. P. 4(a)(2).
This Court has appellate jurisdiction because the
District Court’s Order was a final judgment disposing
of all of LeBere’s claims under 28 U.S.C. § 1291.
1

LeBere’s Appendix is in three volumes. Citations to the first
volume are to “V1.App,” citations to the second volume are to
“V2.App,” and so forth.

App. 136
(V2.App.350.) See Bankers Trust Co. v. Mallis, 435 U.S.
381, 384-88 (1978) (per curiam) (so holding under
analogous facts). LeBere has requested that this
Court issue a certificate of appealability under 28
U.S.C. § 2253(c). (V2.App.353-54.)
STATEMENT OF THE ISSUE
PRESENTED FOR REVIEW
This third habeas appeal presents a pure legal
question: whether Kent LeBere received a fair trial
where the State undisputedly withheld evidence that
its key witnesses committed and suborned perjury in
testifying about and vouching for a “confession” LeBere
never gave and that was later recanted. Under Brady
v. Maryland, 373 U.S. 83 (1963), a defendant does not
receive a fair trial where he does not obtain all available exculpatory information. But that is precisely what
the State’s own testimony has shown. The jury convicted LeBere almost entirely on the basis of a jailhouse snitch’s admittedly false, and now recanted,
testimony that LeBere had confessed. The State’s lead
investigator did not believe key details of the “confession” and had not done the basic investigative work
necessary to verify critical details. Still, the investigator told the jury that he believed the informant, and
had verified details of the confession, thus falsely
vouching for its reliability.
Considering LeBere’s Habeas Petition for a third
time, the District Court persisted in framing this case
as dependent solely on the relative credibility of the

App. 137
investigator and the jailhouse informant, and only on
the narrow topic of whether they conspired to fabricate
the confession. That misses the mark. The issue on appeal remains simpler and broader: whether, “in the
context of the entire record,” LeBere received a fair
trial. LeBere v. Trani, 746 F. App’x 727, 731 (10th Cir.
2018). Even under the testimony of the State’s own
witnesses, he did not.
STATEMENT OF THE CASE
“A confession is like no other evidence” and “is
probably the most probative and damaging evidence
that can be admitted against” a defendant. Arizona v.
Fulminante, 499 U.S. 279, 296 (1991). Because of their
unique qualities, “confessions have profound impact on
the jury.” Id.; see United States v. Perdue, 8 F.3d 1455,
1469 (10th Cir. 1993) (same). This case turns on a “confession” that all agree was fabricated and later recanted. It was the most important piece of evidence in
convicting LeBere. The State’s lead investigator did
not believe important details about it, but vouched for
its reliability in front of the jury, lying as he did so. In
presenting such testimony, the State denied LeBere a
fair trial.
The facts of this case date back over two decades
to October 1998, when someone strangled Linda Richards and left her body in a van, which was then set on
fire in a car-wash bay. That someone was not LeBere.
He has maintained his innocence for the 22 years
since. Only two circumstantial facts connect him to the

App. 138
crime: he was seen leaving a bar with Richards, and he
was later seen in the general vicinity of where her body
was discovered. No physical evidence and no eyewitness testimony linked LeBere to her murder, because
he did not commit it.
Given the dearth of evidence, the State’s case
turned on the testimony of two witnesses. First was the
jail-house informant, Ronnie Archuleta, who testified
that, shortly after becoming his podmate in jail, LeBere openly volunteered (for no plausible reason) that
he had murdered Richards and set her vehicle on fire.
Archuleta later recanted this testimony. Second was
the lead detective, J.D. Walker, who allowed Archuleta
to present the “confession” to the jury, and who—as
LeBere uncovered in habeas discovery—lied himself in
attempting to bolster it.
After hearing this evidence, the trial jury acquitted LeBere on charges of first-degree murder, first-degree felony murder arising from the commission of a
sexual assault, and manslaughter. But in light of the
“confession,” the jury convicted LeBere of second-degree murder and second-degree arson.
LeBere presented all of this evidence (and much
more, as described below) in habeas proceedings, but
the District Court has nevertheless concluded, for
three different reasons on three separate occasions,
that LeBere should not receive a new trial. It first held
that LeBere had not exhausted his Brady claim in
state postconviction proceedings. That was wrong, so

App. 139
this Court reversed. See LeBere v. Abbott, 732 F.3d
1224, 1229-34 (10th Cir. 2013).
On remand, the District Court held that the recanted confession was immaterial to LeBere’s conviction. (See V2.App.349-50.) That was wrong too, so this
Court reversed again, LeBere v. Trani, 746 F. App’x 727,
732 (10th Cir. 2018), as significant evidence in the record “raise[d] doubts” about LeBere’s conviction. This
included other suspects who were not investigated,
such as the victim’s anger-prone fiancé. Id. at 733.
“When coupled with the suppressed evidence [that
LeBere’s “confession” was untrue], this information
could have prompted the jury to reasonably doubt
LeBere’s guilt.” This Court therefore concluded “that
the suppressed evidence is sufficient to undermine our confidence in the verdict.” Id. at 733
(emphasis added). Indeed, the evidence withheld under Brady—that LeBere’s “confession” was falsified—
"would have done far more than impeach him: it could
have caused the jury to question the entire investigation.” Id. at 732.
On remand yet again, the District Court assumed
Archuleta testified falsely at LeBere’s trial and assumed LeBere did not confess to murdering Ms. Richards, but remarkably, still denied LeBere’s habeas
petition. (V2.App.454, 466-67.) Its analysis rested almost entirely on the conclusion that Archuleta had fabricated LeBere’s confession “on his own initiative,” and
thus that the State had no knowledge of any exculpatory information under Brady. (V2.App.454.)

App. 140
The District Court did not consider critical parts
of the record showing that—even when the evidence is
viewed in the State’s favor—the State did know of exculpatory information it did not disclose to LeBere.
This information is central to LeBere’s appeal, so he
summarizes it in the following chart, which will be
cross-referenced throughout (the “Brady Chart”). The
middle column reflects Walker’s under-oath testimony
at LeBere’s trial (or his silence in the face of testimony
he thought false at the trial); and the right column reflects Walker’s contrary, sworn testimony in habeas
proceedings, none of which was disclosed:
Walker’s Sworn Walker’s Undisclosed
Subject of
Trial Testimony
Testimony As
Undisclosed
Revealed In
Testimony
Habeas Proceedings
Motive for
the murder

Walker: LeBere con- Walker: “I don’t know
fessed to murdering if she was ever sexRichards to cover
ually assaulted. That
up the fact that
was never deterhe had sex with
mined to be.” (V1.
her (V3.App.582-83, App.175, p. 43:2-6.)
p. 68:22-69:11),
Walker: “I could not
which the State
[corroborate an aslater equated with sault]. There was
sexual assault (V3. never any physical
App.632, p. 56:2-8.) evidence.” (V1.
App.178, p. 53:12-15.)

App. 141
Location of
the murder

2

Walker did not corWalker: “I had to
corroborate that in- roborate Archuleta’s
formation because of story about the locawhom Ronnie Ar- tion of the murder:
chuleta is. When I
Q: “What did you do
did that, I deterto check that out?
mined that that inWalker: Nothing.”
formation Ronnie
(V1.App.177, p. 50:3-8)2
Archuleta gave to
Walker: “Now, Ronnie
me was reliable.”
Archuleta had been
(V3.App.584,
around here since he
p. 73:25-74:4.)
was a kid. Would he
The information
know where Cheythat Archuleta gave
enne Canyon was?
to Walker included
Sure, he would. Would
the location of the
he know where the
murder in Cheyenne
old amphitheater was
Canyon. (V3.App.
that’s not there no
591, p. 116:19-117:7.)
more? Sure, he would.
But would Kent
LeBere know that?
Kent LeBere has only
been, from the time of
the murder, here two
years. I don’t know. I’d
have to question
that.” (V1.App.175-76,
p. 44:23-45:5.)

A park ranger testified, unrebutted, that Cheyenne Canyon
was closed and the gate locked at the time of the murder (V3.
App.615, p. 21:10-22:21); thus, the murder could not have taken
place as Archuleta said, and as Walker said he corroborated.

App. 142
Q: “So sitting here today, you have no idea
whether Archuleta
was telling the truth
about them going to
Cheyenne Canyon
and her being murdered in Cheyenne
Canyon, correct?
Walker: I do not have
any truth, no.” (V1.
App.178,p. 53:6-11.)
Archuleta’s
knowledge
of details of
the crime

Walker: Archuleta
knew details about
the crime that only
the killer and the
snitch would know
(V3.App.584, p.
73:22-74:11.)

Walker: Archuleta
might have known
those details from the
news:
Q: “So Mr. Archuleta might have
known [those details]
from the news, correct?
Walker: He might
have.” (V1.App.
177, p. 49:4-50:2.)

App. 143
Archuleta’s
knowledge
of LeBere’s
tattoo

Walker allowed Ar- Walker did not know
chuleta to testify
whether LeBere’s tatabout the signifitoo had any significance of LeBere’s
cance:
tattoo as an identify- Q: “Did you ask [Aring feature of
chuleta] whether he
LeBere (V3.App.
had ever seen it?
577, p. 17:17-25),
Walker: I did not.” (V1.
which the State
App.177, p. 49:1-3.)
later argued was
a reason LeBere
killed Richards.
(V3.App.631, p.
51:24-52:9.)

The callous
and graphic
language attributed to
LeBere

Walker allowed
Walker knew LeBere
Archuleta to testify never said these
that LeBere’s “con- words, and that Arfession” included Ar- chuleta made it up.
chuleta’s testimony Walker: “Because you
that LeBere made have to understand
the callous, graphic Ronnie Archuleta. He
statement that he ad libs a lot of things
“fucked the bitch” and you have to con(V3.App.577, p.
tinue to test him. So
16:23-17:19), which when he said I—that
the State later ar- LeBere told him that
gued was an adhe fucked the bitch
mission of sexual
and she was a fine
assault.
bitch, I felt that was
(V3.App.632, p. 56:2- his comment, not Le8.)
Bere’s comment.” (V1.
App.175, p. 43:11-16.)

App. 144
The District Court’s Order is no more defensible
than the two decisions this Court reversed. It ignores
the Brady Chart’s evidence of Walker’s subornation of
perjury and of Walker’s own perjury. No fair trial could
have occurred on this record. The Court should reverse
again, and grant LeBere’s Habeas Petition once and for
all.
STATEMENT OF THE FACTS
The following facts are taken from the voluminous
trial and habeas record. Most facts are undisputed and
are described in the Court’s prior opinions. See LeBere
v. Abbott, 732 F.3d 1224, 1226-27 (10th Cir. 2013);
LeBere v. Trani, 746 F. App’x 727, 729-32 (10th Cir.
2018) (unpublished). Where there are fact or credibility
disputes, they are described in the light most favorable
to the District Court’s Order. See 746 F. App’x at 731
(standard of review).
I.

The Crime Scene Investigation Identifies
No Evidence Linking LeBere To The
Crime.

On October 16, 1998, at around 2:00 a.m., witnesses saw a minivan burning in a car-wash bay in Colorado Springs. (V3.App.489-95.) After the fire was
extinguished, firemen discovered a body in the van.
(V3.App.498, 500-504.) Some of the clothing on the victim was burned, but the body was partially clothed in
a dress, a slip, and was wearing underwear. (V3.
App.516, 528.) Other clothing had been displaced,

App. 145
exposing the body’s breasts. (V3.App.507.) Medical examiners determined the cause of death was strangulation that occurred before the fire started, and that the
time of death was between 12:30 a.m. and 2:00 a.m. on
October 16, 1998. (V3.App.525-27.) A fire investigation
expert concluded that the fire had been started intentionally 20 minutes before it was extinguished.
(V3.App.505-506.)
The investigation was assigned to Detective J.D.
Walker. (V3.App.508-510.) Under his supervision, investigators identified the body as that of Linda Richards. (V3.App.509.) Investigators ran the license plate
and found that the van was registered to a company
owned by George Richards, Linda Richards’s father.
(V3.App.514-15, 523.) George Richards told police that
Richards worked for his Tupperware business, and
lived in Colorado Springs with her fiancé, Russell Herring. (V3.App.523-24.) Herring also worked for the
business and used the van.
As the investigation proceeded, the Colorado
Springs crime lab received significant amounts of evidence for testing. None of the physical evidence was
ever linked to LeBere. Among the items the crime lab
tested were: blood samples from Richards, shirts, jeans,
a watch, tennis shoes, mats, a body bag, panties, portions of a dress, a slip, a bra, samples from the vehicle,
samples from Richards’s head hair, pubic hair, pubic
combing, eyebrow hair, swabs, fingernail scrapings,
a jacket, and samples from LeBere and Herring.
(V3.App.531-33.) Notably, Walker requested that the
DNA samples be compared only against LeBere, as he

App. 146
was the only suspect being considered. (V1.App.18485.) None of the hairs found on Richards were consistent with LeBere’s hair. (V3.App.531, 534.)
There was no evidence that Richards’s sexual activity involved LeBere. Spermatozoa was found in
Richards’s anal cavity. (V3.App.526, 535.) The medical
examiner testified the sperm had been present in the
body for 24 to 72 hours. (V3.App.527.) The only match
for DNA on any of the swabs taken from Richards’s
body was her own. (V3.App.535.)
The crime lab also examined Richards’s and
LeBere’s clothing, but it too lacked any evidence connecting LeBere to Richards’s death. The laboratory
technicians found no seminal stains on Richards’s
clothing. (V3.App.531-32.) Although they found blood
on her dress, bra, and slip, those blood stains were not
examined further. (V3.App.532.) Laboratory technicians examined LeBere’s clothing, but no blood was
found on any of LeBere’s items, and none of the
hairs collected were consistent with Richards’s hair.
(V3.App.532-33.)
The crime scene was also searched for fingerprints, but none were LeBere’s. Police did not test for
fingerprints on the gas cap, and were unable to get any
fingerprints off of the van. (V3.App.509.) Walker directed a lab technician to take fingerprints from the
van, the hatch area, and any flat surfaces on collected
evidence. (V3.App.510.) No fingerprint evidence was
presented at trial.

App. 147
Nor were there any foot- or shoeprints connecting
LeBere to the crime. Detectives took a photograph of
the bottom of LeBere’s shoes, and looked for footprints
around the car wash “that might have matched those
tennis shoes.” (V3.App.571, 588.) But they “didn’t find
anything that we could specifically say were footprints” from LeBere’s shoes. (V3.App.571.) The detectives did find footprints, but did not do anything with
them. (V3.App.571-72, 588.)
II.

The Investigation Quickly Focuses On
LeBere And Ignores Other Evidence And
Suspects.

Although there was no physical evidence linking
LeBere to the crime, Walker’s investigation quickly focused on him and ignored other leads or suspects.
A. The Police Dismiss Richards’s Fiancé
As A Suspect.
Herring told police he had last seen Richards at
7:00 p.m. the previous evening, when she left the couple’s home. (V3.App.519, 538.) Herring said that he
and Richards argued that night about whether their
relationship was going to “work out,” as he was thinking about breaking off their engagement. (V3.App.519,
538, 540.)
Herring revealed that he and Richards had physical fights and argued “quite a bit.” (V3.App.519.) Herring admitted he slapped Richards at least once.
(V3.App.538, 542.) Richards went to the emergency

App. 148
room as a result of the “slap.” (V3.App.618-19.) The
couple’s arguments involved pushing, shoving, screaming, and the police were called on at least two occasions. (V3.App.537-38, 541-42.) Herring suffered from
depression and had anger and drinking problems.
(V3.App.524, 539, 543.) Neighbors told investigators
about an incident where Herring used his van to push
Richards’s vehicle out of his way following an argument. (V3.App.538, 619.)
Herring told police he had not left the house on the
evening of October 15. (V3.App.520.) Herring eventually became angry when Richards did not come home,
because he suspected she had gone to a bar, despite
having recently promised not to go to bars alone.
(V3.App.539, 544.)
Investigators took Herring to the police station for
further questioning. (V3.App.520.) But after Herring’s
initial statement that he never left his home that evening, police never re-interviewed him (V3.App.520-21,
617.) Police never checked Herring for injuries.
(V3.App.521, 613.) Nor did police ever search Herring’s
home or vehicle. (V3.App.521, 588, 613.)
Neighbors across the road from Herring’s and
Richards’s home called police because they heard an
unusual noise on the evening of October 15 that
sounded like a truck driving over a curb and a load
bouncing in the back of the truck. (V3.App.621.) Investigators never called the neighbors back. (V3.App.622.)
An expert later testified at trial regarding the veracity of Herring’s statement that he had not left his

App. 149
home the night Richards was killed. Richards’s father
testified that when he arrived at Herring’s home the
morning after the murder, around 6:30 a.m., he saw
condensation or dew on the truck Herring drove.
(V3.App.626.) The expert testified that the condensation was consistent with the vehicle having been
driven the night before, and there were no meteorological conditions that could explain that moisture if the
truck had not been driven. (V3.App.625.) The police,
however, did not investigate those facts.
B. The Police Do Not Follow Up On Other
Potential Suspects.
Police at the scene of the crime interviewed two
homeless men who were sleeping in tents located in a
field near the car wash. (V3.App.511.) The men indicated that they had heard sounds coming from the car
wash, including a car horn, an explosion, people talking, and a suspicious noise. (V3.App.512.) Police did not
record what the men were wearing or what items were
found. (V3.App.603.)
Police investigators canvassed six bars, including
several near the car wash. Investigators brought a picture of Richards and asked bar employees whether
they had seen her (V3.App.570, 588-89), but they did
not follow up to find other bar patrons to determine
whether they had seen Herring, LeBere, or any other
suspects. (V3.App.570-71, 589-90.) At the time Walker
was canvassing the bars, he was unaware that Herring
and Richards argued the night she was killed.

App. 150
(V3.App.594.) As a result, Walker did not think it important whether Herring was seen with or without
Richards, and thus never asked anyone those questions. (Id.) Police were also contacted by a number of
third parties with information regarding the crime, but
they never investigated anyone but LeBere.
A woman contacted police on October 16, 1998,
because she had seen someone at the car wash.
(V3.App.556.) As she was driving past the car wash at
1:55 a.m. on October 16, she noticed a van in the last
stall. (V3.App.557.) As she passed, she saw a man
standing toward the rear of the van. (Id.) He was wearing a fisherman’s style hat, with a brim all the way
around it. (V3.App.557, 560.) She described him as
an “older gentleman,” maybe around 40 years old,
with a beard, and wearing “light colored clothing.”
(V3.App.559-60.) None of these details were consistent
with LeBere’s appearance or his clothing The woman
did not recognize LeBere (or anyone else) in the photo
line-up or 7-Eleven surveillance tape. (V3.App.558,
560-61.)
Another woman who lived near the car wash also
contacted police. She testified that she arrived home,
two blocks east and two blocks south of the car wash,
around 2:05 a.m. on October 16, 1998. (V3.App.562-63.)
While she was out with her dog, she saw a man walk
past around 2:15 or 2:30 a.m. (V3.App.564, 585.) She
testified he was wearing a hat, navy blue shirt, dark
pants, and sneakers. (V3.App.565.) She identified
LeBere from a photo lineup and the surveillance tape
from the 7-Eleven as the person she saw walking past.

App. 151
(V3.App.566.) The woman testified that, although she
was talking loudly to her dog, the man walked right
past her and did not speed up or look away. (Id.)
C. The Police Focus Their Investigation
On LeBere.
Investigators learned that Richards frequented
Crazy Mike’s Bar and had arrived there around 9:00
p.m. on October 15. (V3.App.540, 548.) Richards had
spent time with a man at the bar, and throughout the
course of the evening he and Richards talked, played
pool, and drank together. (V3.App.547-50, 554.) Police
created a composite sketch based on the bartender’s
description of the man who was seen with Richards.
(V3.App.551.) The bartender indicated the man was
wearing a dark blue shirt, blue jeans, and tennis shoes,
and had a tattoo of a phoenix with flames. (V3.App.549,
553.) The bartender later identified LeBere from a
photo lineup as the person who was with Richards.
(V3.App.552-53.) The bartender testified that Richards
and LeBere left the bar together at around 12:30 a.m.
(V3.App.550.) LeBere told the bartender that Richards
was giving him a ride home. (V3.App.551.)
Police also interviewed employees at the 7-Eleven
located near the car wash and obtained video surveillance. LeBere appeared on the tape at 2:35 a.m.
(V3.App.606-607.) The 7-Eleven attendant testified
that the person on the surveillance tape bought a sandwich. (V3.App.595.) The attendant did not remember

App. 152
anything about how the person acted, and everything
seemed “pretty normal.” (Id.)
Investigators contacted a cab company and
learned that a driver had picked up a fare around 2:45
a.m. at the 7-Eleven. (V3.App.598-99.) The driver
drove the fare to Keith Drive, dropping the man off a
short distance from LeBere’s residence. (V3.App.599,
609.) The driver identified LeBere in a lineup, and
later contacted detectives and stated he was positive
LeBere was the person he had driven. (V3.App.600601.)
Starting where the cab driver said he had taken
his 2:45 a.m. fare, police canvassed the neighborhood
with the composite drawing. (V3.App.522, 608.) Police
knocked at the door of 4735 Keith Court, and showed
LeBere the composite drawing when he answered the
door. (V3.App.608.) LeBere had been living with his
aunt at 4735 Keith Court, after moving from Minnesota to Colorado Springs 18 months earlier. (V3.App.
568, 609.) After determining that the drawing resembled LeBere, police arrested him. (V3.App.517.) Investigators searched LeBere’s residence and seized jeans,
a dark blue shirt, and tennis shoes that matched the
clothing descriptions provided by the bartender.
(V3.App.568-69.) No forensic evidence from the crime
scene, or any other items associated with the van or
Richards, were found. (V3.App.588.)

App. 153
III.

Walker Knowingly Takes Advantage Of A
Fabricated Confession.

At the time he was arrested, LeBere was the only
suspect under investigation. But, as noted above, there
was no direct evidence connecting him to the crime and
a significant time gap that no evidence could explain:
a witness said LeBere had left a bar with Richards
around midnight, and approximately two hours later
he was at a 7-Eleven in the vicinity of the car wash
where her body was found. Investigators surely knew
that without further explanation for what happened
during this period, it would be difficult to secure a conviction.
That is where Ronnie Archuleta came in. After
LeBere was arrested, LeBere was placed in the El Paso
County Jail in a pod with Archuleta and three other
inmates. When LeBere arrived, other inmates warned
him not to talk to Archuleta, who was a well-known
“snitch.” (V3.App.578; V1.App.179.)
On October 26, 1998, Archuleta approached a
guard in the jail, Deputy Dey, and said LeBere had confessed to Richards’s murder. (V3.App.575.) Deputy Dey
wrote a report of his conversation:
Inmate Archuleta stated the following: Apparently Inmate LeBere was talking about his incident in the quad. Inmate [L]ebere told
Inmate Archuleta that he did commit the
crime. The reason that he burned the van was
because that was where he had sex with her
before she was killed. Inmate LeBere’s advisement is scheduled for tomorrow. Inmate

App. 154
LeBere stated to Inmate Archuleta that if his
case goes to trial he is going to kill himself.
(V2.App.278.)
Walker, as the lead investigator, took the bait. He
received the report and visited Archuleta on October
28 to “do a more extensive interview.” (V3.App.481-82.)
A. Walker And Archuleta Discuss Procuring A More Detailed Confession.
According to Walker, Archuleta said that LeBere
approached Archuleta in jail to ask how he could obtain a bond. (V1.App.174.) According to Walker, Archuleta said that LeBere then voluntarily and openly
confessed to the murder, so that Archuleta could determine if LeBere would qualify for a bond. (Id.) Archuleta never explained how an admission of guilt
would be relevant or helpful to obtaining a bond; nor
did Walker explain why he would believe this implausible basis for a confession.
Archuleta disputes Walker’s story. Archuleta testified that Walker met with him several times, with
the intent of tying LeBere to Richards’s murder.
(V1.App.192.) Archuleta cooperated based on the
promise of favorable treatment from prosecutors in his
own case. (V3.App.579-80.) Walker wanted Archuleta
to try getting LeBere to confess. (V1.App.192.) But
once it became clear that LeBere would say nothing to
Archuleta about his case, Walker began feeding Archuleta information about the murder—so he and

App. 155
Archuleta could manufacture a false confession.
(V1.App.192-93.) Walker gave Archuleta police reports
and information about the crime for Archuleta to use
in inventing testimony that LeBere confessed. (Id.)
Walker had been a police officer for many years
before he was assigned as the lead investigator on
Richards’s death. In 1999, Walker was faced with two
back-to-back record years for homicides in Colorado
Springs. Around that same time, Walker was investigating another homicide in which a court later
concluded he had improperly suppressed evidence favorable to the defense. (V1.App.121-22.) Walker was
also disciplined for his conduct on a variety of cases,
including his failure in at least seven first-degree murder investigations to timely submit investigative reports. (V1.App.166-67, 185.)
B. Walker Gives Archuleta An Incentive
To Testify Falsely About LeBere’s “Confession.”
Although Walker and Archuleta dispute where Archuleta got the details for the fabricated confession,
there is no dispute about Archuleta’s incentive for
providing false testimony: Walker arranged to obtain a
plea deal for Archuleta in exchange for Archuleta’s testimony against LeBere.
Walker told the prosecutor on LeBere’s case, Assistant District Attorney Kim Kitchen, that he intended
to speak with Archuleta. (V3.App.591.) Kitchen told
Walker not to talk to Archuleta about Archuleta’s own

App. 156
case. (Id.) But Walker did anyway. (V1.App.218.)
Walker went so far as to offer Archuleta an unauthorized plea deal, offering guaranteed probation, which
was more favorable than the deal the prosecutor, Ann
Joyce, was prepared to offer. (V1.App.218-19.)
The Colorado trial court recognized Walker’s intervention to seek favorable treatment for Archuleta.
Shortly before LeBere’s trial, the court heard evidence
regarding Archuleta’s plea deal, including evidence
that: (1) Walker intervened on behalf of Archuleta;
(2) Walker asked Joyce to help Archuleta; (3) Walker
spoke with Archuleta about Archuleta’s pending case
despite Kitchen’s instructions to the contrary; and
(4) Joyce ultimately agreed to give Archuleta a better
deal. In light of this evidence, the trial court noted that:
“prior to Mr. Archuleta’s cooperation, he had a certain
plea agreement. Subsequent to his cooperation, he had
a different plea agreement.” (V3.App.487.) That is an
understatement: in exchange for his testimony against
LeBere, Archuleta pleaded guilty to a lesser charge, received probation and time served, and was released in
a matter of days. (V3.App.479, 485.)
The trial court held that this remarkable interaction converted LeBere’s prosecutor and her team into
witnesses, requiring the Colorado Springs District Attorney’s Office to be disqualified from prosecuting
LeBere. (V1.App.234.) Because of this conflict, LeBere’s trial was ultimately handled by special prosecutors.

App. 157
C. Archuleta And Walker Give Perjured
Testimony At Trial About The Alleged
Confession.
At trial, the jury heard testimony regarding the
crime and investigation described above. The jury also
heard from Archuleta regarding LeBere’s alleged “confession,” which testimony was later recanted.
1. Archuleta’s False Testimony About
the Confession.
At trial, Archuleta testified that he and LeBere
spoke about the charges against LeBere several times,
initially in the context of LeBere trying to obtain a
bond. (V3.App.575.) Archuleta testified that later, LeBere
confessed to the crime, using callous language no one
thinks LeBere would ever use:
he asked her for a ride, they went up around
Cheyenne Canyon near the amphitheater up
there. At that time he said that—excuse my
language—he fucked the bitch. . . . That he
fucked the bitch, and after that, that he strangled her. . . .
After that, he stated he drove down to the car
wash and torched the van because there could
have been evidence of the fact from body fluids
and that. He stated that the reason he killed
her was, one, that she could identify him because of a tattoo on his upper arm of a Phoenix.
(V3.App.577.)

App. 158
Archuleta explained that he had known Walker for
many years, and first talked to him about LeBere’s
case around October 28, 1998. (V3.App.575.) Archuleta
testified that, at that initial meeting, Walker offered to
talk to the prosecutor on Archuleta’s pending case.
(V3.App.575-76.) Archuleta admitted that he received
a deal, which included his release from jail immediately upon paying restitution. (V3.App.576.) Archuleta
also explained that he tried to use LeBere’s case to “get
out of jail.” (Id.)
2. Walker’s False Testimony Vouching
for Archuleta.
At trial, Walker gave critical testimony to the jury
that helped convict LeBere, which Walker later contradicted in habeas proceedings. (See generally the Brady
Chart, supra at 6-7.) Walker testified that Archuleta
said LeBere had confessed that he “had been in the bar,
that he had been drinking with this female, that he
needed a ride home, that she gave him a ride home,
that they parked, they had sex, he panicked, he choked
her, that she was dead prior to going to the car wash.”
(V3.App.583.) Although Walker testified that Archuleta was a chronic liar, he also testified that he
could believe Archuleta if he “corroborate[d]” what Archuleta told him: “I’ve found with Ronnie Archuleta,
anything that he says, you have to corroborate with
something else in order to determine that to be the
truth.” (V3.App.584.) At trial, Walker told the jury that
he did just that:

App. 159
First off, I listened to it. Second off, I had to
corroborate that information because of
whom Ronnie Archuleta is. When I did
that, I determined that that information
Ronnie Archuleta gave to me was reliable. . . . Ronnie Archuleta made some statements in reference to this case that only the
killer and the snitch would know. Because of
that information that wasn’t given to the media, that only other detectives knew that information, that’s what corroborated this
information that I received from Ronnie Archuleta.
(Id. (emphasis added).) Later, in habeas proceedings,
Walker admitted that he did not, in fact, corroborate
Archuleta’s story. (V1.App.177-78.)
Other witnesses for the State testified that Archuleta had a reputation for truthfulness (see, e.g.,
V3.App.597), even though a police department memorandum specifically identified Archuleta as an unreliable informant because he lied so often. (V1.App.179.)
The jury also heard testimony that Archuleta had
three felony convictions for forgery, criminal impersonation, and “something to do with bad checks.”
(V3.App.574.) The jury also heard from other law enforcement personnel that, in the past, Archuleta had
provided false information to detectives. (V3.App.616.)

App. 160
IV.

After The State Emphasizes In Closing
Arguments Perjured Testimony About
The Only Direct Evidence Linking LeBere To The Crime, The Jury Returns A
Guilty Verdict.

Despite all of the information undercutting Archuleta’s veracity, the State affirmatively emphasized
his veracity and reliability in closing arguments. It
stated that the information he gave was “largely corroborated” by other evidence, that other officers “admit
that he has often given them good information,” and
the State highlighted “the confession of Mr. LeBere to
Ron Archuleta.” (V3.App.629, 631.) It emphasized as
“fact” things Walker later admitted he did not believe
to be true, including that Ms. Richards was “sexually
assault[ed],” and that LeBere confessed to Archuleta,
verbatim, that he “fucked the bitch.” (V3.App.632.)
On August 13, 1999, the jury found LeBere guilty
of second-degree murder and second-degree arson. Notably, the jury acquitted LeBere of the most serious
charges: first-degree murder and first-degree felony
murder arising from the commission of a sexual assault, as well as manslaughter. The trial court sentenced LeBere, then in his early twenties, to 60 years
in prison.
V.

Archuleta Voluntarily Recants His Testimony.

In February 2000, Archuleta—without any solicitation—called LeBere’s trial counsel, Bobby Lane

App. 161
Daniel, and recanted his incriminating testimony—including his testimony about the “confession.” Archuleta
told Daniel that “his conscience was bothering him,
and that he knew the case against LeBere was very
weak, that he felt badly he had given false testimony
and that he didn’t want an innocent man convicted or
in prison based on false testimony.” (V1.App.237.)
On July 7, 2004, Archuleta signed an affidavit confirming his recantation, and again admitting that his
testimony at LeBere’s trial was false. (V1.App.238.)
Archuleta explained that LeBere “never confessed
anything to me” and that the information Archuleta
testified about at trial “was provided to me by Detective J.D. Walker, not by Kent LeBere.” (Id.) In this habeas proceeding, Archuleta gave similar testimony.
(V1.App.195.)
Archuleta also acknowledged his motivation to
testify falsely at LeBere’s trial. Archuleta was told by
Walker that, although “they were looking at hitting me
with a habitual criminal charge” because of his criminal record, “in return for me testifying against LeBere,
I would be allowed to leave jail, pay . . . restitution,
leave jail, and . . . I’d go home.” (V1.App.193.) Archuleta
explained: “I was promised that if I came through for
this, basically, that I was going home; I wasn’t going to
prison.” (V1.App.197.) Archuleta succinctly summarized his perjury, noting: “[alt the time I was saving my
butt.” (V1.App.202.)

App. 162
VI.

Walker Testifies That He Did Not Believe
Key Aspects Of The Confession.

In this habeas proceeding, Walker gave sworn testimony that, for the first time, informed LeBere that
key parts of Walker’s trial testimony were false.
A. Walker Knew That Archuleta Was An
Inveterate Liar.
Walker testified in deposition that his relationship
with Archuleta began in the 1980s. (V1.App.171.) By
the time Walker was investigating the Richards murder, Walker and Archuleta were “on a first name basis.”
(Id.) And by October of 1998, Walker regarded Archuleta as a “chronic liar.” (V1.App.172.)
Before LeBere’s trial, Walker learned of a memorandum from a section of the police department that
routinely dealt with informants, which warned that
Archuleta should not be used as an informant because
he lied so often. (V1.App.179-80.) Local prosecutors “already kn[e]w” Archuleta was a chronic liar at the time
of LeBere’s trial. (V1.App.180, 187.) Still, Walker and
the State disregarded the memorandum and decided
to use Archuleta’s testimony against LeBere.
Walker also testified he believed that prison officials arranged Archuleta’s housing to maximize his opportunity to “snitch.” For example, Walker noted that
LeBere’s prison pod housed “four homicide suspects . . .
and one guy [Archuleta] that had property crime convictions.” (V1.App.172.) Archuleta was placed in the

App. 163
pod as “an informant . . . on a high profile case”—or potentially as an informant on “all of [the four homicide
suspects in the pod].” (V1.App.172; V3.App.576 (noting
Archuleta was also informing on another suspect in
the pod).) Archuleta also told Walker that one of the
other inmates had warned LeBere that Archuleta was
“a snitch.” (V1.App.179.)
B. Walker Did Not Believe Several Key
Aspects Of The “Confession.”
Walker acknowledged under oath in deposition
that several aspects of the supposed confession seemed
untrue, and that at least some of the “confession” may
not have come from LeBere—but came from the mind
of Ronnie Archuleta.
For example, Walker admitted that the coarse language Archuleta ascribed to LeBere—stating that he
“fucked the bitch”—“came from Ronnie Archuleta, not
Kent LeBere.” (V1.App.174.) Walker found it likely
that those comments were from Archuleta, and not
from LeBere, because among other reasons, Archuleta
“ad libs a lot of things and you have to continue to test
him.” (V1.App.175.) Despite Walker’s disbelief, the
State made a deliberate decision to present that dramatic, prejudicial, and false testimony—that LeBere
said he “fucked the bitch”—to the jury.
That was just the beginning of Walker’s false and
misleading testimony at trial. It is summarized in the
Brady Chart, supra at 6-7, and is also discussed in
depth below, infra at 35-37. That information proves

App. 164
that Walker has admitted that key aspects of his own
trial testimony were false, that he knew it at the time,
and that he did not disclose it to LeBere. This includes
details Walker did not believe, and “corroboration” that
he never performed. Meanwhile, if there is a credibility
dispute, it is between what Walker testified under oath
at LeBere’s trial and what Walker subsequently testified under oath in habeas proceedings.
VII.

This Court Directs The Lower Courts To
Evaluate All The Evidence In Considering LeBere’s Brady Claim.

Based on all of this evidence, LeBere moved the
District Court to grant his Amended Habeas Petition.
(V1.App.18.) Upon referral, the Magistrate Judge recommended that LeBere’s petition be denied based
solely on his determination that Detective Walker was
more credible than Archuleta regarding Archuleta’s recantation. (V2.App.312.) The Magistrate Judge viewed
the matter as simply a credibility contest between
Walker and Archuleta regarding whether Archuleta
had presented a false confession by LeBere. The Magistrate Judge concluded that Walker was more credible; that Archuleta’s recantation could not be believed;
and thus he recommended denying LeBere’s habeas
petition. (Id.)
The District Court affirmed the denial, but for different reasons. (See V2.App.349-50.) Those reasons
were no better, so this Court again reversed, LeBere,
746 F. App’x at 732, concluding “that the suppressed

App. 165
evidence is sufficient to undermine our confidence in
the verdict.” Id. at 733. Indeed, the evidence withheld
under Brady—that LeBere’s “confession” was falsified—“would have done far more than impeach him: it
could have caused the jury to question the entire investigation.” Id. at 732.
On remand again, the District Court adopted the
Magistrate Judge’s recommendation, but with another
key difference. Even assuming that Archuleta fabricated the confession, and thus that there was no direct
evidence of LeBere’s guilt, it found that Archuleta was
not credible solely on the narrow issue that Walker
directed him to fabricate the confession. That finding
led the District Court to conclude that the State did
not knowingly withhold exculpatory information. This
conclusion was wrong, for two reasons, which are addressed below.
SUMMARY OF THE ARGUMENT
On remand from this Court for a second time, the
District Court again denied LeBere’s habeas petition.
It concluded that jailhouse informant Ronnie Archuleta was less credible than lead investigator J.D.
Walker on the narrow issue of whether the two had
conspired to fabricate a confession, and for that reason
alone, denied LeBere habeas relief. Once again, the
District Court committed reversible error, in two ways.
First, the District Court simply did not address
that, even giving the State the benefit of every doubt,
the undisputed evidence is that Walker suborned

App. 166
perjury when he allowed Archuleta to testify to things
Walker himself did not believe to be true. The State did
not disclose that Walker, its lead investigator, did not
believe the State’s key witness, jailhouse informant
Archuleta, about key details of LeBere’s “confession.”
Instead, Walker falsely vouched for Archuleta, an
acknowledged liar, by testifying that (1) Archuleta
knew details known by police investigators that Archuleta could only have learned from the killer, which
was demonstrably untrue; and (2) he believed Archuleta’s testimony because he had corroborated it, when
in fact he had not. The State never disclosed these facts
to LeBere. Failing to disclose perjury and subornation
of perjury is a core violation of due process, and under
Brady, requires a new trial. See United States v. Agurs,
427 U.S. 97, 103 nn. 8-9 (1976) (collecting cases).
Second, the District Court answered the wrong
question on remand. Rather than looking at the totality of the objective evidence to determine if LeBere had
received a fair trial, it answered the much narrower
question of whether Archuleta or Walker was more
credible on one discrete factual issue: whether there
was an express agreement to offer false testimony.
That question was too restricted because even if there
was no evidence of such an overt conspiracy, LeBere
still presented overwhelming objective evidence that
Walker (and thus the State) knew or should have
known that Archuleta’s trial testimony was false. And
if the Court had correctly looked at the entire picture,
it necessarily would have concluded that the State violated Brady by withholding evidence that LeBere had

App. 167
the right to see. Apart from any credibility issue about
an express agreement, there still exists more than sufficient evidence that LeBere has satisfied his habeas
burden.
ARGUMENT
I.

LeBere Is Entitled To A Certificate Of Appealability.

When the District Court denied LeBere’s Amended
Habeas Petition, it denied a certificate of appealability
(“COA”). (V2.App.466-67.) LeBere therefore requests
that this Court grant him a COA, pursuant to 28 U.S.C.
§ 2253(c)(1), Fed. R. App. P. 22(b)(2), and 10th Cir. R.
22.1, so that, for the third time, he may appeal the District Court’s erroneous denial of his habeas application.
This Court should issue a COA when “the applicant has made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). To do so, a
petitioner must show “that jurists of reason would find
it debatable whether the petition states a valid claim
of the denial of a constitutional right.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see Omar-Muhammad v.
Williams, 484 F.3d 1262, 1264 (10th Cir. 2007). In other
words, a court must grant a COA if it finds the petitioner has demonstrated the issues raised are debatable among jurists of reason, a court could resolve the
issues differently, or the questions presented are deserving of further proceedings. Banks v. Dretke, 540

App. 168
U.S. 668, 705 (2004); Miller-El v. Cockrell, 537 U.S. 322,
336 (2003).
LeBere readily meets the standard for a COA, for
the reasons that follow in the two argument sections
below.
II.

The District Court Erred By Failing To
Address The Undisputed Evidence That
The State Failed To Disclose It Suborned
Perjury When It Allowed Archuleta To
Testify To Details Of LeBere’s “Confession” That Walker Did Not Believe To Be
True And That Were False.

The District Court’s Order should be reversed,
first, because it fails to address undisputed evidence
the State did not disclose to LeBere that Detective
Walker suborned perjury, and committed perjury himself, when he allowed Archuleta to testify to details of
LeBere’s “confession” that Walker did not believe to be
true, and which Walker falsely vouched for.
A. Failure To Disclose Suborned Perjury
Is A Brady Violation.
“[C]riminal convictions obtained by presentation
of known false evidence or by suppression of exculpatory or impeaching evidence violate[ ] the due process
guarantees of the Fourteenth Amendment.” Douglas v.
Workman, 560 F.3d 1156, 1172 (10th Cir. 2009); see
Brady v. Maryland, 373 U.S. 83, 86 (1963). Accordingly,
the Constitution’s ‘fair trial’ guarantee,” United States

App. 169
v. Ruiz, 536 U.S. 622, 628 (2002), requires the prosecution to timely turn over any information in the government’s possession that is materially favorable to a
criminal defendant. Brady, 373 U.S. at 86. The Constitution also requires the State to refrain from engaging
in “deliberate deception of a court and jurors by the
presentation of known false evidence.” Giglio v. United
States, 405 U.S. 150, 153 (1972).
Brady, which is “grounded in notions of fundamental fairness” and “a practical recognition of the imbalances inherent in our adversarial system of criminal
justice,” imposes broad obligations on the State. See
Smith v. Sec’y of N.M. Dep’t of Corr., 50 F.3d 801, 823
(10th Cir. 1995). The State’s duty to disclose evidence
under Brady encompasses all evidence favorable to the
accused, including impeachment evidence. Giglio, 405
U.S. at 154; Douglas, 560 F.3d at 1172-73. In order to
comply with Brady, “the individual prosecutor has a
duty to learn of any favorable evidence known to the
others acting on the government’s behalf,” including
the police. Strickler v. Greene, 527 U.S. 263, 281 (1999)
(citation omitted). The State violates Brady when it
fails to disclose evidence “known only to police investigators and not to the prosecutor.” Kyles v. Whitley, 514
U.S. 419, 438 (1995); see Moore v. Gibson, 195 F.3d
1152, 1164 (10th Cir. 1999) (“Knowledge of police officers or investigators will be imputed to the prosecution.”).
Importantly, LeBere’s Brady claim does not depend on whether the prosecutors themselves knowingly
failed to disclose perjured testimony. That is a claim

App. 170
that would arise under Napue v. Illinois, 360 U.S. 264
(1959), but as this Court explained in LeBere’s prior
appeal, there is a difference between Napue and Brady
claims. The Court’s prior opinion did not need to “determine whether police knowledge of perjury is imputed,” LeBere v. Trani, 746 F. App’x 727, 732 (10th Cir.
2018) (unpublished), but that issue is central to this
appeal. And there can be no doubt that it should be.
Numerous courts, including this Circuit, have specifically imputed the knowledge of police investigators
to prosecutors. See United States v. Ford, 550 F.3d 975,
981 (10th Cir. 2008) (Brady’s duty “extends to investigators assisting the prosecution”); United States v. Velarde, 485 F.3d 553, 559 (10th Cir. 2007) (same); Smith,
50 F.3d at 825, 830-31 (similar). This includes imputation of an investigator’s knowledge about perjured testimony. See, e.g., Guzman v. Sec’y, Dep’t of Corr., 663
F.3d 1336, 1349 (11th Cir. 2011); Curran v. Delaware,
259 F.2d 707, 713 (3d Cir. 1958); United States v.
Sanchez, 813 F. Supp. 241, 247-48 (S.D.N.Y. 1993), aff ’d
35 F.3d 673 (2d Cir. 1994).
These courts have emphasized that the rationale
for imputing knowledge to a prosecutor is even stronger
in the perjury context, which necessarily involves intentional misconduct. As the court explained in Sanchez:
[T]he argument to charge the prosecution
with knowledge of a government agent’s perjury is even stronger than the argument to
impute knowledge of Brady material. While
the prosecution’s failure to disclose relevant
information might be due to a negligent lack

App. 171
of communication, perjury by a government
agent can only be a knowing, intentional decision to lie by a member of the institution
which is charged to uphold the law and seek
just convictions. Therefore, it is a short step
indeed to apply case law regarding Brady obligations to instances of perjury.
813 F. Supp. at 248; see also Lisker v. Knowles, 651
F. Supp. 2d 1097, 1139 (C.D. Cal. 2009) (“Where the
prosecutor’s investigator has the responsibility for the
integrity of the State’s evidence, it cannot be the case
that the prosecutor’s technical ignorance of the falsity
of that evidence insulates the proceedings against a
due process claim. The accused is still convicted on the
basis of false evidence purposely introduced by the
State.”).
Applying these authorities, all LeBere must show
is that (1) the State (including Detective Walker) suppressed evidence of Archuleta’s perjury (or its own perjury); (2) that evidence was favorable to LeBere; and
(3) the evidence was material. LeBere, 746 F. App’x at
731; see Moore, 195 F.3d at 1164.
This Court already reversed the District Court’s
conclusion about materiality, because the perjured testimony is “sufficient to undermine our confidence in
the verdict” and therefore is material. See LeBere, 746
F. App’x at 732-33. The State cannot now dispute materiality. This appeal turns, therefore, on whether the
State—in particular, through Detective Walker—suppressed evidence that was favorable to LeBere. Even

App. 172
crediting Detective Walker’s habeas testimony over Archuleta’s, the answer is clearly and undisputedly yes.
B. The State Presented Testimony From
Archuleta That Detective Walker Knew
Was False.
Here, the undisputed evidence is that Detective
Walker suborned perjury, and committed perjury himself, by allowing Archuleta to testify to details of
LeBere’s false “confession” that Walker believed not to
be true and that were in fact false. This is plainly a
Brady violation.
At LeBere’s trial, the State’s crucial testimony was
that of Archuleta, who testified that LeBere voluntarily confessed to murdering Linda Richards. As this
Court noted previously, Archuleta provided the “only
direct evidence” of LeBere’s involvement in the crime.
LeBere v. Abbott, 732 F.3d 1224, 1226 (10th Cir. 2013)
(emphasis added).
But as it turns out, habeas discovery revealed that
even Walker did not believe the most powerful and
damaging parts of that testimony. He knew Archuleta
was an inveterate liar, because of his own experience
and because there was a police department memorandum specifically warning that Archuleta was not
to be used as an informant because he lied so often.
(V1.App.179.) Walker disobeyed this memorandum
and still used Archuleta, with the concurrence of the
prosecutors. And he failed to disclose that he did not

App. 173
believe key aspects of Archuleta’s testimony. (See
Brady Chart, supra at 6-7.) For example:
• Walker testified at LeBere’s trial that he believed Archuleta because Archuleta told him LeBere
had confessed to having sex with Richards at the amphitheater in Cheyenne Canyon. The State emphasized this point in closing argument. (V3.App.632.)
Later, however, Walker testified that he “didn’t have
anything that [suggested] she was sexually assaulted
and we didn’t have any evidence that she wasn’t killed
right there in the car wash.” (V1.App.175.)
• Walker testified at LeBere’s trial that he believed Archuleta because he had “corroborated” aspects
of the “confession.” Later, however, Walker admitted
that he did nothing to try to corroborate what Archuleta told him about the location of the murder.
(V1.App.175-78.) Walker never investigated for surveillance videos or witnesses along the route, nor did
he place a story with the media to see if anyone would
come forward with corroborating information. These
typical investigative techniques were simply not pursued. (V1.App.177-78.) Walker flatly admitted that
he did “not have any truth” about whether Archuleta’s testimony about Cheyenne Canyon was credible.
(V1.App.178.) The entrance to Cheyenne Canyon would
have been locked by 11:00 p.m. on the evening of October 15, 1998 (V3.App.615), meaning that the facts could
not be as the “confession” supposedly gave them. And
Walker conceded that it was unlikely LeBere would
have even known about the canyon and amphitheater,

App. 174
having only recently moved to the area. (V1.App.17576.) He told none of this to the jury.
• Walker testified at LeBere’s trial that he believed Archuleta’s recitation of the “confession” because
it included details (known to police investigators) that
“only the killer and the snitch would know.” (V3.App.
584.) Later, however, he admitted that all of these details either had been publicly reported or were not
“facts” known by the police (such as the Cheyenne Canyon information). For example, the media had reported
that Richards’s body was being tested for evidence of
sexual assault, giving a strong indication to any wouldbe snitch that the crime may have involved sexual assault. (V3.App.478, 591-93.) Walker separately admitted that Archuleta had told Walker that he had seen
news reports related to the LeBere case. (V1.App.177.)
But he never disclosed that to LeBere or the jury.
• Walker allowed Archuleta to testify that LeBere had murdered Richards because she could identify him by his tattoo. (V3.App.577, 631.) Later, however, he admitted that, because the tattoo was on
LeBere’s shoulder, and because LeBere and Archuleta
were housed in the same pod (V1.App.176), Archuleta
could have simply seen LeBere’s tattoo. (V1.App.176.)
He did not disclose this to the jury.
• Walker allowed Archuleta to testify at trial
that LeBere stated he “flicked the bitch” before killing
her. The State highlighted this callousness in closing
arguments. (V3.App.632.) Later, however, Walker admitted that he thought that this callous and graphic

App. 175
language did not come from LeBere, but that Archuleta
made that language up. (V1.App.174, 178.)
In short, Walker—and thus the State—knew that
Archuleta was lying, and did not believe much of his
critical trial testimony. But rather than disclose that to
LeBere’s defense lawyers, or tell the jury, Walker affirmatively vouched for Archuleta and committed perjury himself when he told the jury he had corroborated
those details and did believe Archuleta. The failure to
disclose Archuleta’s perjury, the commission of perjury
by vouching for Archuleta’s testimony, and concealing
knowledge that an assault could not have been committed at Cheyenne Canyon as Archuleta testified,
each constitute a Brady violation. See United States
v. Agurs, 427 U.S. 97, 103 (1976); Guzman, 663 F.3d
at 1349-56; Curran, 259 F.2d at 713; Sanchez, 813
F. Supp. at 247-48.
In spite of this undisputed evidence, the District
Court viewed this as an allor-nothing question: either
grant LeBere’s Petition if you believe Archuleta, or
deny LeBere’s Petition if you believe Walker. (See
V2.App.454.) Respectfully, there is a third option that
LeBere presented and which requires habeas relief:
even if Walker is believed, his own admissions in habeas proceedings show the State suppressed material
exculpatory evidence at LeBere’s trial by suborning
Archuleta’s perjury, vouching for that perjury, and
withholding facts known to unmask the perjury. See
Part II.A, supra, and cases cited. Even setting aside
any credibility disputes, Walker’s testimony shows
that the State failed to disclose critical exculpatory

App. 176
information. This is a Brady violation that merits habeas relief.
III.

The District Court Answered The Wrong
Question And Failed To Address Objective
Evidence That The State Knew Or Should
Have Known Archuleta’s Trial Testimony
Was False.

In addition to not addressing Detective Walker’s
undisputed subornation of perjury and perjury himself, the District Court further erred by answering the
wrong question on remand. This Court remanded so
the District Court could find facts, make credibility determinations, and determine if LeBere had received a
fair trial based on the “context of the entire record.”
LeBere, 746 F. App’x at 731. But instead of doing that,
it denied relief simply because it found Walker more
credible on the narrow issue of whether there was an
express agreement to offer perjured testimony. Even if
there were no overt conspiracy, LeBere can still prove
his Brady claim if he shows the State withheld evidence it should have known was false. Agurs, 427 U.S.
at 103. Considering the objective evidence as a whole,
he did.
A. This Court Remanded For A Review
Of The Record As A Whole.
In its prior decision, this Court held that the District Court erred by limiting its analysis of LeBere’s
claims to consideration of “whether the suppressed

App. 177
evidence was necessary to impeach Archuleta.” LeBere,
746 F. App’x at 732. As the Court explained, Brady requires a more searching exploration into whether “the
favorable evidence could reasonably be taken to put
the whole case in such a different light as to undermine
confidence in the verdict.” Id. (quoting Kyles, 514 U.S.
at 434-35).
Reviewing the evidence “in the context of the entire record,” id. at 731, this Court previously held that
the suppressed evidence could undermine confidence
in the verdict, because, in addition to undermining Archuleta’s credibility at trial, that evidence “would have
strongly supported LeBere’s theory that police had
conducted an insufficient investigation.” LeBere, 746 F.
App’x at 732. Because “Archuleta’s testimony was the
only evidence directly indicating that LeBere was
guilty of those charges . . . even assuming that the jury
did not believe Archuleta, the suppressed evidence
would have done far more than impeach him: it could
have caused the jury to question the entire investigation.” Id. While the Court acknowledged that there was
“substantial circumstantial evidence of guilt, other evidence in the record raises doubts.” Id. at 733. After discussing some of that evidence, the Court noted that
“[w]hen coupled with the suppressed evidence, this information could have prompted the jury to reasonably
doubt LeBere’s guilt. We conclude that the suppressed evidence is sufficient to undermine our
confidence in the verdict.” Id. (emphasis added).
The Court remanded so that the District Court
could make factual findings and address credibility of

App. 178
Walker and Archuleta and determine, on the record as
a whole, whether LeBere had received a fair trial and
had met his habeas burden.
B. The District Court Did Not Answer
The Right Question On Remand.
On remand, however, the District Court did not
answer the question left open in this Court’s prior decision.
Instead, the District Court came up with its own
route to denying LeBere’s Petition. Notably, this approach assumed that Archuleta testified falsely at trial
and fabricated the alleged confession. (V2.App.454.)
The District Court limited its credibility review—
which included a de novo review of the videos of the
two witnesses’ depositions—to determining whether
Archuleta or Walker was more credible with respect to
only one factual issue: whether Walker directed Archuleta to fabricate the confession, i.e., whether there
had been an overt conspiracy. (Id.)
This framing was far too narrow, because it fails to
address another way LeBere could prove his Brady
claim even if there was no proven express agreement:
Walker’s constructive knowledge that Archuleta would
testify falsely and his failure to disclose that information.3

3

The District Court concluded that LeBere did not present a
constructive-knowledge theory (see V2.App.454 n.3), but that is
plainly incorrect. See V2.App.406 (“But the District Court ignored

App. 179
C. Evidence The State Withheld Shows
That LeBere’s “Confession” Was False
And The State Should Have Known It
Was False When It Presented That Testimony.
There is substantial evidence in the record establishing that Walker should have known that Archuleta’s story about LeBere’s “confession” was plainly
fabricated. This is sufficient to establish a Brady violation.
1. The State Violates Brady When it
Fails to Disclose Information it
Should Have Known Was Perjured.
It is axiomatic that a state violates Brady if it fails
to disclose exculpatory information it is actually aware
of, and if it fails to disclose information it should have
known to disclose. See, e.g., Smith, 50 F.3d at 831-32
(so holding, ordering new trial in habeas case).
This commonsense rule extends to perjury. See,
e.g., United States v. Garcia, 793 F.3d 1194, 1207 (10th
Cir. 2015) (“A defendant may have a Brady claim if the
the Garcia court’s explicit statement that “[a] defendant may
have a Brady claim if the . . . prosecution did not correct testimony that it should have known was false.”); V2.App.249 n.2
(“Most importantly, the State does not make any argument that
in this case the misconduct of Walker and the perjured testimony
of Archuleta and Walker were unknowable by the prosecutors or
other state actors.”); V1.App.34 (citing cases that note “that even
negligent or inadvertent suppression is nevertheless suppression
for Brady purposes”).

App. 180
witness unintentionally gave false testimony or the
prosecution did not correct testimony that it should
have known was false.”). Indeed, cases are legion holding that constructive knowledge of perjured testimony
(i.e., a state “should have known” testimony was perjured) is enough to constitute a Brady violation. See,
e.g., Shih Wei Su v. Filion, 335 F.3d 119, 127 (2d Cir.
2003); Lambert v. Blackwell, 387 F.3d 210, 251-252 (3rd
Cir. 2004); United States v. Thompson, 117 F.3d 1033,
1035 (7th Cir. 1997); United States v. Martin, 59 F.3d
767, 770 (8th Cir. 1995); Evans v. McDaniel, 74 Fed.
App’x 775, 776 (9th Cir. 2003); Trepal v. Sec., Fla. Dep’t
of Corr., 684 F.3d 1088, 1104 (11th Cir. 2012).
On this point, United States v. Wallach, 935 F.2d
445, 457 (2d Cir. 1991), is instructive. It held that in
light of a witness’s past history, the government
“should have been on notice that [the witness]
was perjuring himself ” (emphasis added). Yet, instead of proceeding with great caution, the government
attempted to rehabilitate the witness, ignoring “powerful evidence” that the witness was lying. Id. Given
the importance of the witness’s testimony to the case,
the court concluded that the government “may have
consciously avoided recognizing the obvious—that is,
that [the witness] was not telling the truth.” Id. Because the court was “convinced that the government should have known that [the witness] was
committing perjury, all the convictions must be
reversed.” Id. (emphasis added).
There are sound reasons for holding as much here.
A prosecutor who does not appreciate the perils of

App. 181
using perjurious criminals as witnesses risks compromising the truth-seeking mission of our criminal justice system. “Because the government decides whether
and when to use such witnesses, and what, if anything,
to give them for their service, the government stands
uniquely positioned to guard against perfidy. By its
actions, the government can either contribute to or
eliminate the problem. Accordingly, we expect prosecutors and investigators to take all reasonable
measures to safeguard the system against treachery. This responsibility includes the duty as required by Giglio to turn over to the defense in
discovery all material information casting a
shadow on a government witness’s credibility.”
United States v. Bernal-Obeso, 989 F.2d 331, 333-34
(9th Cir. 1993) (emphasis added) (vacating conviction).
2. The State Should Have Known that
Archuleta’s Trial Testimony Was
Perjured.
Applying this standard, the objective record evidence establishes at least that Walker should have
known that Archuleta’s trial testimony was false. See
Agurs, 427 U.S. at 103; Smith, 50 F.3d at 831-32; Garcia, 793 F.3d at 1207. Indeed, as explained in the Brady
Chart above, supra at 6-7, Walker testified at trial in
numerous ways that contradict what he actually believed and what he actually did. Even crediting the
District Court’s finding that Walker did not actually
supply Archuleta with a fabricated confession, he at
least should have known that Archuleta was providing

App. 182
false testimony to the jury. His failure to disclose the
constructive knowledge of perjury is likewise a Brady
violation. See supra, Part III.C.1, and cases cited.
3. The District Court Applied the
Wrong Standard in Concluding
that Archuleta’s Recantation Was
Not Reliable.
The District Court never applied the constructiveknowledge standard that LeBere had previously
pressed (see supra at note 3), which is another reason
to reverse. But it committed an additional error in the
evidence it did review: rather than review the objective
record evidence as a whole, it denied LeBere’s habeas
claim because it concluded that Walker was more credible than Archuleta on one discrete issue. That is the
wrong standard.
To assess the reliability of a post-trial recantation,
courts look to any objective facts or evidence that support the finding that the original testimony was perjured. Ortega v. Duncan, 333 F.3d 102, 107 (2d Cir.
2003). “In the face of a specific recantation of critical
testimony, a court must evaluate the recantation itself
and explain what it is about that recantation that warrants a conclusion that it is not credible evidence.” Dobbert v. Wainwright, 468 U.S. 1231, 1235-36 (1984). The
District Court never applied this standard.
Notably, the circumstantial evidence recited by
the District Court (see V2.App.448-49) does not tie
LeBere to any criminal conduct. Most of the evidence

App. 183
addresses LeBere as the individual who was seen at
Crazy Mike’s Bar with Richards, a fact he does not dispute. (V2.App.343-44.) Other facts place LeBere at the
7-Eleven. (V2.App.345.) Still other facts demonstrate
only that Richards was killed, but bear absolutely no
relevance to LeBere as a suspect. (V2.App.344-45.)
Had the District Court examined the objective evidence in the record as a whole, it would necessarily
have concluded that Archuleta’s recantation was reliable and that his trial testimony was false. There was
no physical evidence linking LeBere to the crime.
(V3.App.531-36.) LeBere had no prior record of violence against anyone. (V3.App.634.) And only one witness saw Richards’s van in the car wash before the fire,
and she described a suspect that was wearing different
clothing than LeBere. (V3.App.559-61.) The witness
also did not identify LeBere as the man she saw standing next to the van before the fire. (V3.App.561.)
The District Court did not consider those portions
of the evidentiary record supporting the conclusion
that Archuleta’s trial testimony was false or that the
State should have known it was false. The District
Court did not mention the critical evidence that
Walker’s investigation was shoddy at best and focused
solely on LeBere to the exclusion of other suspects. The
District Court did not acknowledge Walker’s admission
that there were never “any other bona fide suspects in
the case.” (V1.App.181.) The District Court did not consider Walker’s failure to follow-up on footprint evidence because they did not match LeBere’s shoes.
(V3.App.477.) It did not address Walker’s failure to

App. 184
compare DNA samples against suspects other than
LeBere. (V1.App.184; V3.App.641.) It did not consider
that the alleged place of the murder was closed to the
public, and thus could not have occurred as Archuleta
said. (V3.App.615, p. 21:6-22:21.) This objective evidence of Walker’s restricted focus and desire to secure
an expeditious arrest and conviction supports Archuleta’s recantation: Walker had to have a confession
in a case where no physical evidence tied LeBere to
Richards’s death and the only eyewitness did not identify LeBere. Yet, the District Court did not meaningfully confront or analyze any of these facts.
4. There Is No Credible Evidence that
LeBere Confessed to Archuleta Before Meeting Detective Walker.
Instead of evaluating the objective evidence as a
whole, the District Court simply evaluated whether it
thought Walker’s or Archuleta’s testimony was more
credible about how the purported confession came
about. The only evidence that the District Court considered in this regard was Archuleta’s report to Deputy
Dey. (V2.App.462-64.) But nothing in the Deputy Dey
report undermines the other objective evidence that
Archuleta’s initial story about LeBere’s “confession” is
false.

App. 185
a. The vague initial “confession”
described in Deputy Dey’s report is significantly different
than the confession Archuleta
described to the jury.
The District Court’s analysis reaches the incorrect
conclusion that, because Deputy Dey reported a confession before Walker got involved, then Archuleta
must be incredible in his recantation. That is incorrect
as a matter of logic.
There is no dispute that Deputy Dey reported that
Archuleta told him LeBere had made a confession.
There is no dispute that the Deputy Dey report instigated Archuleta’s initial meeting with Walker. But the
District Court misconstrued these undisputed facts as
somehow supporting the occurrence of a later, much
different confession that Archuleta testified to at trial.
That is illogical: the fact that Archuleta reported a
sparse confession to Deputy Dey does not make it any
less likely that Archuleta made up a confession to
Walker.
In fact, the content of Deputy Dey’s report bolsters
the conclusion that Archuleta made it up. As the Magistrate Judge found, Archuleta’s trial testimony “included details that were not set forth in Deputy Dey’s
report.” (V2.App.308.) Archuleta’s initial report to Deputy Dey stated that LeBere “told Inmate Archuleta
that he did commit the crime. The reason that he
burned the van was because that was where he had
sex with her before she was killed.” (V2.App.292.) In

App. 186
contrast, at trial, Archuleta added critical details to his
testimony including that LeBere told him he had asked
Linda Richards for a ride, “they went up around Cheyenne Canyon,” “he fucked the bitch, and after that . . .
he strangled her.” (V2.App.294.) Archuleta also elaborated at trial that LeBere told him “[Oster that, he
stated he drove down to the car wash and torched the
van because there could have been evidence of the fact
from body fluids. . . . He stated that the reason he
killed her was, one, that she could identify him because of a tattoo on his upper arm of a Phoenix.”
(V2.App.295.) The difference between the two confessions? In between the first and the second, Archuleta
had significant interactions with Walker. Neither the
Magistrate Judge nor the District Court meaningfully
confronted this fact.
It was not until after Archuleta met with Walker
that his story about the “confession” included details
such as the motive for the crime (because LeBere
feared the victim could identify him by his tattoo) and
the location of the crime (in Cheyenne Canyon). There
is nothing inconsistent between Archuleta’s report to
Deputy Dey and the conclusion that Walker took advantage of Archuleta’s known willingness to lie to create testimony that bolstered the weak case against
LeBere.

App. 187
b. The timing of the Deputy Dey
report does not bear on Archuleta’s credibility.
Next, the District Court imposed an unnecessary
burden on LeBere’s Brady claim by stating that Archuleta’s recantation would be credible only if “Archuleta admitted that he fabricated a skeletal
confession when speaking to Deputy Dey, and that he
told Detective Walker that the confession was false and
that Detective Walker nevertheless instructed him to
just go with it. . . .” (V2.App.463.) This again reveals a
false premise. LeBere need not prove that Archuleta
and Walker expressly agreed to manufacture a confession for LeBere to establish his Brady claim; Walker’s
constructive knowledge that Archuleta was testifying
falsely is enough. Garcia, 793 F.3d at 1207; see also
Agurs, 427 U.S. at 103 (one class of Brady cases involves government failure to disclose it “knew, or
should have known, of the perjury”; in these cases, the
Court “has consistently held” that a conviction obtained with the “use of perjured testimony is fundamentally unfair and must be set aside if there is any
reasonable likelihood that the false testimony could
have affected the judgment of the jury”) (cleaned up);
Green v. Addison, 500 F. App’x 712, 719-20 (10th Cir.
2012) (unpublished) (a claim based on perjured testimony is “one specific application” of Brady and only requires a defendant to show the prosecution “ ‘knew, or
should have known, of the perjury’ ”) (citation omitted).
Simply put, there is nothing inconsistent between
LeBere’s Brady claim—which is premised upon the

App. 188
State’s failure to disclose that details of the “confession” were uncorroborated and that Walker did not believe them and at least should have known they were
false—and Archuleta’s act of approaching Deputy Dey,
Walker becoming aware that Archuleta was willing to
inform on LeBere, and Walker helping Archuleta manufacture a “confession.”
5. The District Court Did Not Consider
the Record Evidence Regarding the
Benefits Archuleta Received From
Testifying Against LeBere or the
Lack of Any Benefit to Recanting.
Finally, the District Court also improperly failed
to consider all of the objective record evidence establishing that Archuleta had everything to gain from reporting a false confession at trial, and nothing to gain
from later recanting.
In dismissing Archuleta’s recantation as incredible, the District Court found that Walker’s version of
events regarding the plea deal offered to Archuleta was
more plausible, because Archuleta did not get any real
benefit from that plea deal. (V2.App.464.) This finding
simply misses the substantial, undisputed evidence of
misconduct by Walker in offering any deal. There is no
dispute that Walker made an unauthorized plea offer
to Archuleta. (V1.App.218-19; V3.App.591.) The District
Court did not even acknowledge that Archuleta got a
better deal after meeting with Walker. (V3.App.479,
485, 487.) This remarkable interaction converted the

App. 189
prosecution team into witnesses, requiring all of them
to be disqualified from prosecuting LeBere. (V1.App.23436.) Because of this conflict, LeBere’s trial was handled
by special prosecutors.
Moreover, the District Court did not consider the
fact that Archuleta’s recantation has been consistent,
despite his receiving no personal benefit from it.4 Following his release from prison in 2005 and his completion of parole in 2009, Archuleta has continued to
affirm his recantation, even though it has resulted in a
destroyed relationship with law enforcement and numerous inconveniences, including subpoenas to testify
and being branded a known perjurer. For 20 years, Archuleta has consistently stood by the recantation, even
when there has been no beneficial reason to do so. Unlike the trial testimony that earned Archuleta a favorable deal, there was no gain to Archuleta from his 2000
recantation.
All these facts point to the conclusion that LeBere’s “confession” never took place. And Walker knew
it, or at least should have known it, because he was
directly involved with preparing Archuleta’s testimony. Thus, even accepting Walker’s testimony that he
4

The Magistrate Judge suggested that Archuleta may have
recanted to avoid being imprisoned with LeBere or his friends
(V2.App.300), but there is simply no basis for this speculation.
LeBere was new to Colorado, and there is no evidence in the record that he had friends in prison, that Archuleta was afraid of
them, or that they posed any threat to Archuleta. Moreover, Archuleta testified to the contrary: he knows how to stay safe in
prison and had no fear of LeBere. (V1.App.192, 200, 203.)

App. 190
did not expressly direct Archuleta to fabricate the details of the “confession,” it is undisputed that he knew
key details of it were false and should have known the
rest was, and never bothered to corroborate those details at risk of losing the confession he needed to secure
a conviction.
CONCLUSION
The question here is, at its core, whether LeBere
received a fair trial. There was no direct evidence of his
involvement in the crime, except the “confession” that
made no sense initially, was later recanted, and that
even the District Court now assumes to be false. The
District Court denied LeBere’s Petition because it not
find the recanter, Archuleta, to be reliable, but he
was the same witness who testified to the confession
in the first place. What made his testimony credible at
LeBere’s trial was Detective Walker, who testified
falsely that he had corroborated parts of the confession
when in fact he had not, and who failed to correct other
statements he believed were false at the time. The
State chose to put on this false evidence, and emphasized it repeatedly in closing arguments. As other
courts have recently concluded, that irrevocably taints
a defendant’s right to a fair trial. See Long v. Hooks,
___ F.3d ___, No. 18-6980, 2020 WL 5014875, at *1748
(4th Cir. Aug. 24, 2020, amended Aug. 26, 2020) (en
banc) (vacating dismissal of habeas petition in part
because police officers lied, withheld evidence under
Brady, and the State emphasized the effect of the lies
in closing arguments).

App. 191
This Court has twice reversed denials of LeBere’s
habeas Petition, only for the District Court to find new
and creative ways to deny it. Even crediting the District Court’s most recent findings, there is still undisputed evidence that the State suborned Archuleta’s
perjury, and that Walker committed perjury himself.
Because the incontrovertible evidence is that the State
withheld material exculpatory evidence under Brady,
LeBere has satisfied all elements of his habeas claim.
The Court should grant a certificate of appealability,
reverse, and remand with instructions for the District
Court to grant LeBere’s petition and order a new trial
or, if the State has not decided to retry LeBere within
90 days of the entry of the order, to order his permanent release. See Smith, 50 F.3d at 835.
STATEMENT REGARDING ORAL ARGUMENT
Oral argument is requested because of the complexity of the underlying facts and the significance of
the legal arguments involved.
Appellant submits that oral argument will assist
the Court in the disposition of this appeal, as it has in
LeBere’s two prior appeals.

App. 192
Respectfully submitted this 11th day of September
2020.
s/ James L. Volling
James L. Volling
Martin S. Chester
Jeffrey P. Justman
Nathaniel Zylstra
FAEGRE DRINKER
BIDDLE & REATH LLP
2200 Wells Fargo Center
90 South Seventh Street
Minneapolis, Minnesota 55402
Telephone: 612-766-7000
Email: james.volling@
faegredrinker.com
martin.chester@
faegredrinker.com
jeff.justman@
faegredrinker.com
nathaniel.zylstra@
faegredrinker.com
Laurence W. DeMuth, III
FAEGRE DRINKER
BIDDLE & REATH LLP
1900 Ninth Street, Suite 200
Boulder, Colorado 80302
Telephone: 303-447-7700
Email: trip.demuth@
faegredrinker.com
Attorneys for Appellant
Kent Eric LeBere

App. 193
No. 20-1117
IN THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
KENT ERIC LEBERE,
Appellant/Petitioner,
v.
TRAVIS TRANI, Warden, and PHILIP J. WEISER,
Attorney General of the State of Colorado,
Appellees/Respondents.
ON APPEAL FROM THE ORDER OF THE
UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLORADO
The Honorable Marcia S. Krieger
District Court Civil Action No. 03-cv-01424-MSK-MEH
APPELLANT’S PETITION FOR PANEL
REHEARING AND FOR REHEARING EN BANC
(Filed Mar. 15, 2021)
Laurence W. DeMuth, III
FAEGRE DRINKER BIDDLE
& REATH LLP
1470 Walnut Street,
Suite 300
Boulder, Colorado 80302
Telephone: 303-447-7700
Email: trip.demuth@
faegredrinker.com

James L. Volling
Martin S. Chester
Jeffrey P. Justman
Nathaniel Zylstra
FAEGRE DRINKER BIDDLE
& REATH LLP
90 South Seventh Street,
Suite 2200
Minneapolis, Minnesota
55402

App. 194
Telephone: 612-766-7000
Email: james.volling@
faegredrinker.com
martin.chester@
faegredrinker.com
jeffjustman@
faegredrinker.com
nathaniel.zylstra@
faegredrinker com
[Table Of Contents And Table Of Authorities Omitted]
STATEMENT OF BASIS FOR REHEARING
EN BANC
The panel decision here conflicts with precedent
from the United States Supreme Court and this Court
by imposing too narrow a standard on whether an issue has been preserved for appellate review. The precedential rule is that the claims in a habeas petition
are preserved for review and that those claims are not
limited to the specific facts set forth in the petition.
Jackson v. Utah, 782 F. App’x 690 (10th Cir. 2019), cert.
denied, 140 S. Ct. 2781 (2020); Lyons v. Jefferson Bank
& Trust, 994 F.2d 716 (10th Cir. 1993). The Supreme
Court has also held that arguments raised to the district court, even if not in formal amendments, are sufficient to preserve an issue. Banks v. Dretke, 540 U.S.
668 (2004). The panel’s decision conflicts with these
principles by limiting a habeas petitioner to the narrowly tailored factual assertions in his petition and requiring an amendment if discovery reveals additional
facts consistent with those theories but with a change

App. 195
in emphasis. Petitioner Kent Eric LeBere respectfully
requests that, if the panel does not grant rehearing,
the Court grant rehearing en banc to secure and maintain uniformity of this Court’s decisions and consistency with Supreme Court precedent.
INTRODUCTION
Unless the Court grants rehearing, a man proclaiming his innocence will serve the remainder of his
60-year sentence for second-degree murder and arson
even though his conviction was based on undisputedly
false testimony from a jailhouse informant and a police detective regarding his “confession” to the crimes.
This will occur even though this Court previously
acknowledged that LeBere’s habeas claim, if true, is
“sufficient to undermine our confidence in the verdict.”
(V2.App.434.)1 On remand, the District Court assumed
that the testimony that LeBere had confessed to the
crime was false. Even so, the District Court denied his
habeas petition.
The panel did not reach the merits of this decision,
because it denied LeBere a certificate of appealability
(“COA”) under 28 U.S.C. § 2253(c)(1), concluding that
he had not raised his “particular Brady arguments” in
his habeas petition. (Order at 6.) That conclusion was
mistaken in two ways.

1

LeBere’s three-volume Appendix is cited as “V1.App.”,
“V2.App.”, and “V3.App.” Citations to LeBere’s initial brief on this
appeal are to “COA Mot.”

App. 196
First, the panel misread the record, which shows
that LeBere raised his current legal theories and the
factual support for them in the District Court. LeBere’s
Brady claim has always been that the State presented
perjured testimony from a jailhouse informant, Ronnie
Archueta, that the State knew or should have known
was false, and that the State’s lead investigator, Detective J.D. Walker, perjuriously vouched for that false
testimony. LeBere’s habeas petition stated: “[T]he
prosecution relied on Archuleta’s and Walker’s perjured testimony, even though Walker knew the testimony was false,” (V1.App.37, ¶46), and again,
Archuleta’s “false testimony was corroborated by further perjury from Walker.” (V1.App.38, ¶49.)
Second, the panel faulted LeBere for not alleging
specific facts in his 2009 habeas petition that he
learned in 2015. The panel acknowledged that
LeBere’s argument includes facts learned during
Walker’s 2015 deposition, which confirmed that both
Archuleta and Walker testified falsely at trial about
the purported confession. (Order at 7.) The panel’s solution to this problem—further amending his petition—was unnecessary, because LeBere had already
raised a Brady claim based on this perjury and had
presented the 2015 testimony to the District Court as
support for that theory. Moreover, seeking amendment
would have only resulted in another improper dismissal for failure to exhaust this supposed “new” claim.
While LeBere may not raise an entirely new claim
on appeal, he may address facts fleshed out in habeas
discovery if they support pre-existing legal theories in

App. 197
his petition—just as other civil or criminal litigants
may raise facts learned in discovery not expressly set
forth in pleadings. This is particularly true where
those facts and related arguments were presented to
the District Court, as they were here.
BACKGROUND
The panel described the purported “new Brady arguments” as follows:2 First, “[e]ven crediting Detective
Walker’s habeas testimony over Archuleta’s . . . Detective Walker suborned perjury and committed perjury
himself, by allowing Archuleta to testify to details of
LeBere’s false ‘confession’ that Walker believed not to
be true and were in fact false.” (Order at 6 (quoting
COA Mot. at 34-35).) Second, “[e]ven if there was no
overt conspiracy [between Detective Walker and Mr.
Archuleta], [he] can still prove his Brady claim if he
shows the State withheld evidence it should have
known was false.” (Id. (quoting COA Mot. at 39).)
The panel’s conclusion that these arguments were
not raised before the District Court was based on its
view that “the amended habeas petition explicitly links
the Brady claim to Detective Walker inducing Mr. Archuleta to concoct the false confession.” (Id. at 7-8.) The

2

Contrary to the panel’s conclusion that LeBere is not challenging the District Court’s ruling on credibility (made without
ever holding a hearing), LeBere expressly argued that the District
Court applied the wrong standard in evaluating credibility and
misapplied the record evidence. (COA Mot. at 44-52.)

App. 198
panel viewed this as the only basis for the Brady claim
in LeBere’s petition. (Id.)
But this conclusion was incorrect. LeBere’s petition presented two Brady claims: for reliance on perjury and for suppressing evidence that Walker induced
Archuleta’s false testimony. The facts learned in discovery supported the first claim by revealing that
Walker did not believe Archuleta’s testimony, but let
him go forward with false testimony and in fact
vouched for its reliability. Not only are these facts consistent with LeBere’s original theory, they also were
presented to the District Court as part of LeBere’s argument for granting his petition.
1. LeBere’s Operative Habeas Petition
In his petition, LeBere expressly alleged that “the
prosecution committed two separate Brady violations, both of which stemmed from Walker’s tampering
with Archuleta. First, the prosecution relied on
Archuleta’s and Walker’s perjured testimony,
even though Walker knew the testimony was
false. Second, the prosecution failed to disclose that
Walker met with Archuleta and fed him information
that enabled Archuleta to give false testimony against
LeBere.” (V1.App.37, ¶46 (emphasis added).)
On the first claim, which is the claim at issue here,
LeBere alleged that the State “allow[ed] two key witnesses—Archuleta and Walker—to commit perjury”
and that Archuleta’s “false testimony was corroborated
by further perjury from Detective Walker.” (V1.App.38,

App. 199
¶¶48-49.) Although the factual allegations then underpinning these claims were based largely on information supplied by Archuleta, (V1.App.28-29), the
averred legal theories for relief were not so limited. As
the petition stated, “the prosecution relied on Archuleta’s and Walker’s perjured testimony, even
though Walker knew the testimony was false.”
(V1.App.37, ¶46.) This tracks the panel’s description of
the allegedly “new” Brady claim of “allowing Archuleta
to testify to details of LeBere’s false ‘confession’ that
Walker believed not to be true and were in fact false.”
(Order at 6 (quoting COA Mot. at 34-35).)
As the habeas proceeding progressed, LeBere requested and was granted discovery “relevant to specific
allegations of fact that support his Brady claim.”
(V1.App.97.) The discovery included a deposition of
Walker to ask about, among other things, “all the circumstances related to Archuleta’s testimony against
LeBere . . . why [Walker] would use Archuleta as an
informant if he believed Archuleta to be a liar . . . [;
and] Walker’s ordinary investigative procedures and
whether he followed them in investigating LeBere and
interviewing Archuleta.” (V1.App.116.) The purpose of
this discovery was to uncover information “to prove or
strengthen his case.” (V1.App.107 (quoting Post v.
Bradshaw, 621 F.3d 406, 425 (6th Cir. 2010).)

App. 200
2. LeBere’s Brief In Support Of Granting His
Petition
At his deposition, Walker made several statements under oath demonstrating that he knew key aspects of Archuleta’s testimony were false, contrary to
Walker’s own trial testimony. LeBere promptly presented these facts to the District Court in his brief asking that his petition be granted. He thus expressly
made the same arguments he makes in his current appeal: that either Walker directed Archuleta to fabricate
the confession or, alternatively, Walker knew or should
have known that the confession was false. As Walker
testified, he knew that:
•

Archuleta was an inveterate liar and police
warned he should not be used as an informant. (V1.App.140-141; COA Mot. at 24-25.)

•

LeBere had been warned that Archuleta was
“a snitch” and thus unlikely to receive a supposed confession. (V1.App.141; COA Mot. at
25.)

•

Archuleta had “probably” “ad lib[bed]” the
most emotionally powerful and specific part of
the alleged confession – that LeBere told Archuleta that he had “fucked the bitch” before
killing her. (V1.App.141-142; COA Mot. at 2526.)

•

This alleged confession of sexual assault was
not credible, because there was no physical evidence of sexual assault. (V1.App.143; COA
Mot. at 35-36.)

App. 201
•

Archuleta’s knowledge of LeBere’s distinctive
tattoo as described in the “confession” could
have come from simply seeing it on his shoulder. (V1.App.142-43; COA Mot. at 37.)

•

Archuleta’s statement that LeBere confessed
to committing the crime in Cheyenne Canyon
was unbelievable, because LeBere likely did
not even know about that canyon and its entrance would have been closed at the time of
the crime. (V1.App.143-144; COA Mot. at 36.)

Based on these and other facts, LeBere argued
that “even if Walker had not been directly informed by
Archuleta that Archuleta’s testimony about LeBere’s
confession was false, the record amply demonstrates
that Walker knew, or should have known, that Archuleta was lying.” (V1.App.157.)3 LeBere pointed out
that there was “objective evidence to support a conclusion that Archuleta was lying.” (V1.App.158.) He asserted that the State did not do “any independent
investigation of Archuleta’s story” and that, contrary
to Walker’s claim that he “had implemented safeguard
procedures to ensure the veracity of Archuleta’s story
about a ‘confession,’ ” “in reality, the prosecution did
nothing to check Archuleta’s story, even the easiest
parts to objectively verify.” (V1.App.158.) LeBere contended that these facts were “more than sufficient to
3

The District Court was therefore incorrect to contend that
LeBere had not raised a claim that the “confession was nevertheless so transparently false that Detective Walker should have
recognized that Mr. Archuleta had concocted it” and therefore
“constituted a degree of negligence sufficient to give rise to a
Brady violation.” (Order at 5.) LeBere argued exactly that.

App. 202
demonstrate that the prosecution knew or should have
known that both Archuleta and Walker committed perjury at LeBere’s trial” and thus violated Brady.
(V1.App.158.)
The government argued in response that LeBere
had presented only a suppression of evidence claim,
and not a claim for suborning perjury. In reply, LeBere
explained that in fact he had “presented evidence to
support both a suppression claim and a perjury claim,”
again explaining that Walker knew that Archuleta
was a liar and had not corroborated his statements.
(V2.App.245, 26165.)
3. The Magistrate Judge’s Recommendation And
LeBere’s Objection
The Magistrate Judge then recommended that
LeBere’s petition be denied. (V2.App.279.) The Magistrate Judge listed the facts described above regarding
Walker’s deposition testimony, and acknowledged
those facts as the basis for LeBere’s claims.
(V2.App.300-02, 307-08.) And he acknowledged that
LeBere had two separate claims: “that the prosecution
either relied on perjured testimony from Archuleta and
Walker or that Walker met with Archuleta and provided him information enabling Archuleta to give false
testimony.” (V2.App.312 (emphasis added).)
In his Objection to this recommendation, LeBere
argued, among other things, that the Magistrate Judge
“ignored the critical fact that Walker did not believe
Archuleta’s testimony” and did not corroborate it,

App. 203
contrary to Walker’s trial testimony. (V2.App.325-26.)
Instead, “in violation of Brady, Walker allowed the
State to present critical evidence at trial through Archuleta that Walker did not believe to be true and had
done nothing to verify.” (V2.App.329.)
4. The Appellate History
The District Court then dismissed LeBere’s petition, acknowledging that LeBere brought a claim
based on the State’s use of perjured testimony, but determining that the withheld information was immaterial. (V2.App.341-42.)
LeBere appealed, again emphasizing the facts described above, (V2.App.383-84, 389-92), and stating
that the proper standard to be applied to those facts
was that “a defendant may state a Brady claim where
the prosecution knew or should have known of the perjury.” (V2.App.398 (emphasis in original).)
This Court reversed and remanded. In doing so,
the Court stated that LeBere’s Brady claim included
two “necessarily linked” subclaims: that “(1) Walker fed
Archuleta information to concoct a false confession,
and then (2) they lied about having done so” and that
“[t]he second contention cannot be true unless the first
is also true.” (V2.App.432.) This description did not
account for the theory that LeBere had also presented
to the District Court that, even if he had not overtly
participated in the fabrication, Walker knew or should
have known that Archuleta was lying. (See supra at

App. 204
10)4 This unduly restricted description of LeBere’s
claim may have led the panel here to the erroneous
conclusion that he is now raising that theory for the
first time.
This was compounded because, on remand, the
District Court issued a decision without holding any
further proceedings or accepting any further submissions from the parties, so LeBere had no additional opportunity to amplify and explain the scope of his Brady
claim.
REASONS FOR GRANTING REHEARING
This Court should issue a COA when “the applicant has made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). To do so, a
petitioner must show “that jurists of reason would find
it debatable whether the petition states a valid claim
of the denial of a constitutional right.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). The Supreme Court has
held that a COA should issue where a party has raised
issues sufficiently before the District Court through
submissions, even if not in the formal habeas petition.
Banks, 540 U.S. at 703-04.

4

Because the District Court had denied LeBere’s Brady
claim based on immateriality of the suppressed evidence, the
prior briefing focused on that question and not the underlying
merits. Even so, on the prior appeal, LeBere raised his alternative
argument that the prosecution should have known of the perjury.
(V2.App.406.)

App. 205
As described above, the panel denied the COA
based on concluding not that LeBere’s Brady claim
failed this standard, but that it was not first presented
to the District Court. This conclusion was incorrect
because LeBere did directly challenge the District
Court’s credibility ruling. (See supra 4 n.2.) And as to
the allegedly new Brady claim, the panel’s conclusion
misreads the record and is inconsistent with the applicable case law.
The panel’s decision was based on the “long applied rule that [the Court does] not consider issues not
raised in the district court” and that if an “argument
was not raised in [an appellant’s] habeas petition, it is
waived on appeal.” (Order at 6 (quoting Owens v. Trammell, 792 F.3d 1234, 1246 (10th Cir. 2015)).) In Owens,
this Court stated that both “a bald-faced new issue,”
and “a new theory on appeal that falls under the same
general category as an argument presented [below]”
are barred. 792 F.3d at 1246 (citation omitted).
But this Court has also recognized that an argument is preserved even where the “emphasis of [the]
claim has shifted somewhat.” Jackson, 782 F. App’x at
700. This rule is grounded in the Supreme Court’s
recognition that “[o]bviously there are instances in
which the ultimate question for disposition will be the
same despite variations in the legal theory or factual
allegations urged in its support.” Picard v. Connor, 404
U.S. 270, 277-78 (1971) (internal citation omitted). And
other circuits recognize a similar rule that “[w]hen applying these standards, federal courts should avoid hypertechnicality . . . and [a] petitioner may reformulate

App. 206
his claims as long as the substance of the argument
remains the same.” Chambers v. McCaughtry, 264 F.3d
732, 738 (7th Cir. 2001) (internal citation omitted).
The question, therefore, is what constitutes a new
argument or legal theory? Here, while citing the applicable rule, the panel applied it far too narrowly, and in
effect created a new rule that inappropriately ties legal
claims to the specific facts set forth in a habeas petition. But this new rule conflicts with applicable precedent.
This Court summarized the boundaries of the applicable rule in Lyons v. Jefferson Bank & Trust (on
which Owens in turn relied). Lyons explained that,
when applying this rule, it is appropriate to give “a
liberal reading to pleadings and motions in the trial
court.” 994 F.2d at 721; accord Jackson, 782 F. App’x at
700; see also Sindi v. El-Moslimany, 896 F.3d 1, 27 (1st
Cir. 2018) (“raise-or-waive” rule is founded on important considerations, but does not always apply because “Mules of practice and procedure are devised to
promote the ends of justice, not to defeat them” (quoting Hormel v. Helvering, 312 U.S. 552, 557 (1941))).
With this in mind, Lyons held that the “touchstone” for the “kind of specificity” required to preserve
an issue for appeal “is that ‘vague, arguable references
to [a] point in the district court proceedings’ are insufficient. 994 F.2d at 721 (citation omitted). Lyons then
collected cases to demonstrate the application of this
principle. So, for example, bringing one legal theory,
such as negligent failure to warn or breach of contract,

App. 207
does not preserve related claims, such as negligent design or tortious conversion. Id. at 722. As another example, an issue “raised but not pursued in the trial
court” is not preserved, such as where a defense is
raised in an answer but never mentioned during the
trial. Id.
In habeas proceedings, courts apply these rules to
require petitioners to present the same theories. In
Owens, for example, the petitioner raised a collateral
estoppel argument supporting a double jeopardy claim
in both his petition and a brief. 792 F.3d at 1246. Then
on appeal he shifted to a new theory that he had not
previously raised that the two prior verdicts were
“truly inconsistent.” Id. The Court held that the fact
that both theories could have preclusive effect for double jeopardy purposes meant only that these theories
were in the same “general category” but remained separate issues. Id.
Similarly, in Milton v. Miller, 812 F.3d 1252 (10th
Cir. 2016), a case heavily relied on by the panel, the
petitioner attempted to “stretch the canopy” of his original claim to cover an admittedly new claim that trial
counsel was ineffective, when the prior claim was that
appellate counsel was ineffective on a different
ground. Id. at 1263. This was a shift in theories and
not merely an attempt to “clarify or amplify” the original claim. Id. at 1264 & n.18. Other cases are similar.
See United States v. Ramsey, 830 F. App’x 584, 586
(10th Cir. 2020) (general claims of ineffective assistance of counsel insufficient to preserve new alleged
improper or ineffective actions by counsel); Vaughn v.

App. 208
Woody, No. CIV-17-269-C, 2018 WL 4345283, at *2
(W.D. Okla. July 17, 2018) (petitioner waived competency claim by failing to raise it in request for COA).
In contrast, precedent requires that claims that
are consistent with the as-pled legal theories are preserved, even if the evidentiary support is not exactly
the same. In Jackson, for example, this Court held that
a petitioner preserved all his ineffective assistance
claims related to his counsel’s responses to an evidentiary order in the trial court related to prior bad acts.
Jackson, 782 F. App’x at 700. In the habeas proceedings, the “emphasis of this claim shifted somewhat
from” being based on the failure to object to the ruling
to giving improper advice about whether to testify as a
result of that ruling. Id. Even so, this Court stated that
it would “constru[e petitioner’s] arguments liberally,”
and that “all of [petitioner’s] appellate-ineffectiveness
arguments concerning trial counsel’s alleged responses
to the prior-bad-acts ruling (i.e., whether failure to object or advising [petitioner] not to testify) are of one
piece” and were therefore preserved. Id.
The issues presented by LeBere here are at most
a “shift in emphasis,” and not a wholesale change in his
Brady theory or claim. As set forth above, the petition
stated that the State violated Brady by allowing Archuleta and Walker to offer perjured testimony themselves, that Walker knew or should have known that
Archuleta’s testimony was false, and that nevertheless
Walker vouched for Archuleta’s testimony. (V1.App.3738, ¶¶ 46, 48-49.) The only change to that theory was
to identify additional evidence LeBere learned in

App. 209
discovery that confirmed that Walker had indeed committed perjury. That is, not only was there evidence
that Walker may have known the testimony was false
because he was involved in the fabrication (which is
what Archuleta claimed), but also that Walker himself admitted that both Archuleta’s and his own
testimony were materially false.
Moreover, LeBere did raise these facts and arguments in the District Court, describing them at length
in his Memorandum asking the District Court to grant
his petition, which is also sufficient to preserve the issue for appeal. See Banks, 540 U.S. at 703. Neither the
Magistrate Judge nor the District Court denied that
these claims were made, but denied the petition on
other grounds. The Magistrate Judge concluded that
Archuleta’s recantation was not credible (and thus the
confession likely occurred), whereas the District Court
first decided that the alleged perjury was immaterial,
and next, while assuming that the “confession” never
occurred, that Walker had not conspired with Archuleta to fabricate it. But the lower Court’s choice to
not expressly address the perjury theory—that Walker
did not believe the confession but falsely vouched for it
anyway—does not mean it was not raised.
For similar reasons, the panel’s suggestion that
LeBere should have amended his petition to include
the additional facts learned in discovery is not reasonable. A request to amend the petition could effectively
be seen as an admission that the additional factual
material created a “new” claim that would independently have to be exhausted in the state courts. See

App. 210
Zuniga v. Falk, 618 F. App’x 407, 410 (10th Cir. 2015)
(“Fair presentation means that the substance of the
claim must be raised in state court.”). The panel’s view
effectively reads the case law as requiring any habeas
petitioner who uncovers additional factual support for
a previously asserted theory to first seek amendment
before those new facts can be considered. That is not
the purpose for discovery or for the preservation rules.
CONCLUSION
The core question on LeBere’s appeal is whether
he received a fair trial. There was no direct evidence of
his involvement in the crime, except testimony of a
“confession” by a jailhouse snitch that there is now no
dispute was false. Nor has any court denied that the
State’s key witness, a police detective, has admitted
that at the time of trial he did not believe key aspects
of the “confession” and did not verify it, but falsely
vouched for it anyway. At this point, therefore, there is
undisputed evidence that the State suborned Archuleta’s perjury and that Walker committed perjury
himself.
LeBere raised this in his petition, citing all the
relevant facts available to him at the time, and in the
District Court, including the additional facts uncovered in discovery. Accordingly, either the panel should
grant rehearing and issue a certificate of appealability
so the merits of LeBere’s Brady claim can be fully
briefed and argued, or the en banc Court should grant

App. 211
rehearing to correct the panel’s misapplication of the
standard for when a claim is properly preserved.
Respectfully submitted this 15th day of March 2021.
s/ James L. Volling
James L. Volling
Martin S. Chester
Jeffrey P. Justman
Nathaniel Zylstra
FAEGRE DRINKER BIDDLE &
REATH LLP
2200 Wells Fargo Center
90 South Seventh Street
Minneapolis, Minnesota 55402
Telephone: 612-766-7000
Email: james.volling@faegredrinker.com
martin.chester@faegredrinker.com
jeff.justman@faegredrinker.com
nathaniel.zylstra@faegredrinker.com
Laurence W. DeMuth, III
FAEGRE DRINKER BIDDLE &
REATH LLP
1470 Walnut Street, Suite 300
Boulder, Colorado 80302
Telephone: 303-447-7700
Email: trip.demuth@faegredrinker.com
Attorneys for Appellant Kent Eric LeBere

App. 212
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
CIVIL ACTION NO. 03-cv-01424-WDM-MEH
KENT ERIC LeBERE,
Applicant,
v.
JAMES ABBOTT, Warden, and
JOHN W. SUTHERS, the Attorney General
of the State of Colorado,
Respondents.
AMENDED APPLICATION FOR
WRIT OF HABEAS CORPUS
INTRODUCTION
(Filed Aug. 12, 2009)
1. Applicant Kent Eric LeBere was convicted of
second-degree murder and second-degree arson in the
absence of any physical or direct evidence against him.
Instead, the State relied heavily on the testimony of
two key witnesses: a jail-house informant and the lead
detective who enticed the informant to testify against
LeBere. We now have concrete evidence that the informant lied in order to gain favorable treatment in his
own case, that the detective suborned perjury by coercing the informant to lie under oath and providing him
with the facts necessary to do so convincingly, and that
the detective himself lied under oath.

App. 213
2. Despite the gravity and authenticity of LeBere’s
claims, they were virtually ignored by the Colorado
state courts. Although it took more than three years to
exhaust state remedies, the extended time frame is not
indicative of fair or complete treatment by the state
courts. Indeed, the trial court—without an evidentiary
hearing—issued a meager three-page order denying
LeBere’s comprehensive state habeas petition, and the
Colorado Court of Appeals—without oral argument—
affirmed the trial court with only superficial analysis.
The Colorado Supreme Court quickly denied review.
Given the state courts’ token treatment of LeBere’s
serious constitutional claims, this Amended Application represents his only opportunity to seek meaningful review of his trial and conviction.
3. Applicant Kent Eric LeBere’s trial and conviction are unconstitutional, having been obtained in violation of his right to due process, his right to a fair
trial, and his right to be present at critical stages of
trial. See United States Const. Amends. V, VI, and XIV;
Colo. Const. Art. II, § 16, 25. These violations, whether
considered individually or together, were sufficient to
have a reasonable probability of adversely influencing
the outcome of the verdict. The Colorado state courts
erred in determining that these violations were insufficient to warrant a new trial and erred in rejecting
LeBere’s request for an evidentiary hearing. Through
this Amended Application, LeBere seeks nothing more
than a new and fair trial. At a minimum, LeBere

App. 214
respectfully requests an evidentiary hearing on the issues raised in this Amended Application.1
FACTUAL BACKGROUND
The Charges Against LeBere
4. On October 20, 1998, LeBere was arrested and
charged with first-degree murder, felony murder, seconddegree murder, first-degree sexual assault, manslaughter, and second-degree arson relating to the
death of Linda Richards. LeBere was observed leaving
a bar with Ms. Richards on the night of her death and
was later observed in the vicinity where her body and
burning van were discovered. Aside from that circumstantial evidence, no physical evidence directly linked
LeBere to the crime. The only witness who observed
the van before the fire, Yvonne Castro, described a suspect near the van who does not match LeBere’s appearance. Ms. Castro could not identify LeBere from a
police photo-lineup nor from the surveillance tape from
a convenience store where LeBere had been observed
on the evening of the crime. LeBere entered pleas of
not guilty on November 18, 1998.
The Trial
5. LeBere has consistently denied any involvement in the crime. In his defense, LeBere offered a
1

In a separate motion, LeBere will also request discovery on
the claims presently before the Court under 28 U.S.C. § 2254,
Rule 6.

App. 215
much more plausible theory of who may have harmed
Ms. Richards: her fiancé, Russell Herring. LeBere presented evidence at trial that Herring had threatened
to break off his engagement with Ms. Richards during
a fight earlier in the evening of her death. (Ex. A at
174-76, 182-83.) Herring admitted that he had been violent and abusive to Ms. Richards several times in the
past, and that the police had been called to their home
more than once. (Id. at 170-73, 183-91.) Most notably,
LeBere introduced the tape of a 911 call in which Ms.
Richards sought police assistance during an altercation in which Herring was particularly violent and
abusive. (Id. at 188.) Herring also testified that he and
Ms. Richards fought on the evening of her death, and
he knew that Ms. Richards had likely gone to a particular bar after their fight, and that he was often jealous
and concerned that Ms. Richards might have an affair.
(Id. at 194-207.) In other words, Herring had motive
and opportunity to commit the crime. Herring was interviewed by police in connection with her death. The
interview was videotaped and shown to the jury during
the trial.
6. Given the lack of evidence tying LeBere to the
crime, the State’s case rested heavily on the testimony
of a jail-house informant, Ronnie Archuleta, who had
been housed with LeBere in the El Paso County Jail
while LeBere awaited trial. As discussed in detail below, we now know that Archuleta’s testimony was fabricated at the behest of the lead detective on the case,
J.D. Walker. At trial, Archuleta falsely testified that
LeBere had admitted to sexually assaulting and

App. 216
strangling the victim, and setting the van on fire to
conceal the evidence. (Ex. B at 16-18.) Archuleta further testified that he had decided to tell J.D. Walker,
the lead detective investigating the homicide, of
LeBere’s alleged confession. (Id.) Archuleta admitted
that no one else was present during Walker’s and Archuleta’s alleged conversation. (Id.)
The Jury’s Deliberations
7. After the defense rested its case, which included evidence pointing away from LeBere and directly to Herring, the jury was excused and the trial
court and counsel addressed several legal issues, including the issue of what type of evidence the jury
would be permitted to bring to the jury room, where
jurors would have unfettered access to the evidence.
Over defense counsel’s objections, the trial court, Judge
Timothy J. Simmons, determined that the jury would
not have unfettered access to (1) the police interview
videotapes of LeBere and Herring and (2) the audio
tapes of Ms. Richards calling 911 to report the violent
and abusive conduct of Herring. (Ex. C at 19-24.) Defense counsel argued, to no avail, that the trial court’s
decision was directly contrary to clear legal authority.
(Id. at 18.)
8. During the jury deliberations on August 12,
1999, the jury asked the trial court’s permission to
view the LeBere and Herring interview videotapes
that had been introduced at trial. Defense counsel objected to the request on the grounds that allowing the

App. 217
jury to review these tapes during deliberations would
improperly highlight certain pieces of evidence at a
critical stage of the trial. (Id. at 119-120.) The trial
court overruled the objection. (Id.) The trial court
noted on the record that both tapes would be viewed in
their entireties. (Id. at 123.)
9. Both prosecution and defense counsel (without consulting LeBere) believed that, since it was the
“deliberation stage,” their presence was not needed,
particularly given the trial court’s assurances that
both tapes would be viewed from start to finish. (Id. at
120.) Judge Simmons agreed with the lawyers and decided that he alone would preside over this part of the
jury deliberations. (Id. at 121.)
10. In discussing the matter with counsel, the
trial court was clear that it would preside over the jury
deliberations without the presence of counsel. (Ex. C at
121.) The clerk confirmed that, not only was LeBere
absent from these proceedings, he had not been consulted about this approach: “Excuse me, Judge, you
don’t need Mr. LeBere?” (Id. at 122.) Without consulting his client, defense counsel summarily indicated
that, “on his behalf, . . . this is deliberation[ ], and
there’s no reason.” (Id.) In response, the court indicated
his thanks for not having to contact LeBere, inform
him of his rights, and solicit his input for the trial
court’s intention to preside over purported jury deliberations: “Thank you. That simplifies things quite a bit.
We’re going to lock that door, so . . . [g]et out of here.”
(Id.) The record is therefore clear that LeBere was

App. 218
given no opportunity to assert or waive his constitutional right to be present for a critical stage of his trial.
The Jury Was Told To Watch Both Videos
“From Start To Finish.”
11. Once the trial court excluded counsel from
the courtroom and the jury was brought in, the trial
court confirmed that it would preside over the deliberations. (Id.) The trial court also stated that the jury
would review both videotapes in their entirety: “This is
your deliberation, . . . what you get to do is observe . . .
these videos from start to finish. . . . There’s no pieces
and parts, all right?” (Id. at 122-123) (emphasis
added.)
12. Apparently concerned about presiding over
the purported jury deliberations, the trial court tried
to explain its presence: “I will stay and monitor. I won’t
listen to your deliberations, but my job is to make sure
that you’re not bothered.” (Id. at 124.) There is no record of what occurred during the jury’s viewing of the
videotapes. There is no record of whether the trial
court listened to the jury’s deliberations. There is no
record of what the jurors said. There is no record of
whether the jury asked the trial court questions. There
is no record of whether the trial court and clerk had
any discussions among themselves or with the jury.
There is no record of the effect the trial court’s presence had on the jury deliberations.

App. 219
The Jury Viewed Only A Portion Of The Videotapes.
13. Although the transcript is silent once the
trial court and the jury were off the record, the time
frame is clear. The proceedings began at 3:30 p.m., at
which time the trial court informed counsel of the
jury’s request to view the two tapes. Counsel and the
trial court engaged in significant discussion regarding
the trial court’s decision to grant the request. Defense
counsel objected to the trial court’s decision, but were
overruled. The jury was then brought back into the
courtroom. Counsel were excused, and the trial court
instructed the jury about the procedure for this phase
of deliberations in the trial court’s presence but without counsel or LeBere in attendance.
14. After the videotapes were shown, the trial
court went back on the record outside the presence of
counsel and LeBere to confirm that the jury reviewed
the videotaped interviews of LeBere and Russell Herring in their entirety: “We’re in the courtroom with the
jury. They’ve just completed reviewing two videotapes
under supervision of myself and a clerk. We had the
door of the courtroom locked. The clerk monitored to
make sure no one was making eye contact with the jury
through the windows.” (Id. at 124.) The record reflects
that the entirety of these proceedings terminated at
4:48 p.m. that same day. (Id. at 125.)
15. The trial court’s statement that the jury
watched both interviews in their entirety is demonstrably incorrect. Although there is no record of what

App. 220
occurred during the viewing of the videotapes, the trial
transcript establishes that the jury could not have
watched both videotapes in their entireties. The record
shows that one hour and eighteen minutes elapsed
during which four things purportedly occurred: (1)
counsel and the trial court discussed having the trial
court preside over the purported jury deliberations
outside the presence of counsel and LeBere; (2) the jury
was brought into the courtroom; (3) the jurors and the
trial court discussed having the trial court preside over
the purported jury deliberations outside the presence
of counsel and LeBere; and (4) the jurors watched both
videotapes in their entireties. (Id. at 119-125.)
16. The trial court indicated that the videotapes
would take at least two full hours to watch. (Id. at 123.)
Although it is difficult to gauge how long it may have
taken for the discussions between the trial court and
counsel and the trial court and the jury, the period of
time from 3:30 p.m. until 4:48 p.m. was clearly insufficient for the jury to watch almost two hours of interviews—much less for the trial court to also have
substantive discussions with both counsel and the jury.
(Id. at 119-125.)
17. Thus, neither defense counsel nor LeBere
participated in or attended the jury deliberations
where these two videotapes supposedly were viewed.
Yet, the trial transcript reflects that LeBere was not
consulted by the trial court or even his own counsel
regarding the proposal that the trial court preside over
this stage of the jury deliberations without counsel
present. (Id. at 122.) In fact, the record reflects that

App. 221
defense counsel, without consulting LeBere, actually
indicated that LeBere’s presence was not necessary.
(Id.) Judge Simmons agreed. (Id.)
18. Counsel then departed from the courtroom
and Judge Simmons informed the jury that he would
preside over that part of their deliberations. (Id. at
122.) Judge Simmons further explained that the jurors
could deliberate off the record during the playing of the
tapes and—despite the trial court’s presence in the
room—that the court would not listen to those deliberations. (Id. at 122-24.) There is no record of what occurred during the jury’s viewing of the videotapes and
there is no record of whether Judge Simmons listened
to the jury’s deliberations or otherwise interacted with
the jury during this stage of its deliberations.
19. After the videotapes were apparently shown,
Judge Simmons went back on the record outside the
presence of counsel or LeBere and indicated that the
jurors had watched both interview tapes in their entireties. (Id. at 124.) However, Judge Simmons’ statement on the record cannot be correct, as it does not
accurately correspond to the length of the tapes themselves. Before excusing counsel, Judge Simmons indicated that the videotapes would take at least two full
hours to watch. (Id. at 123.) But the record reflects that
only one hour and eighteen minutes elapsed during the
entire time in which (1) counsel and Judge Simmons
discussed having the court preside over the jury deliberations outside the presence of counsel or LeBere, (2)
the jurors and Judge Simmons discussed having the
court preside over the jury deliberations outside the

App. 222
presence of counsel or LeBere, and (3) the jurors
watched videotape and deliberated in the presence of
Judge Simmons. (Id. at 119-125.)
The Judge Instructs The Jury Regarding The
Verdict Form Without Consulting Counsel.
20. On the second day of deliberations, the jury
returned its verdict. However, the jury failed to sign all
of the verdict forms. Without consulting with counsel,
or even explaining the problem to counsel, the trial
court then instructed the jury to return to deliberations to complete the verdict forms. The trial court did
not engage counsel in discussion on the topic, nor did
it request input from counsel about how to handle the
incomplete verdict forms. The jury subsequently returned a guilty verdict as to second-degree murder, but
an acquittal as to manslaughter, a lesser included offense. The two verdicts are necessarily inconsistent, as
a defendant would logically have to be guilty of a lesser
included offense if found guilty of the greater offense.
This inconsistency demonstrates jury confusion over
the verdict forms.
21. The verdict form issue, and the circumstances surrounding the videotape replay during deliberations, show a pattern of improper contact by the
trial court with the jury that clearly tainted LeBere’s
trial and conviction.

App. 223
The Verdict
22. On August 13, 1999, the jury acquitted
LeBere on the first-degree murder, felony murder,
manslaughter, and sexual-assault charges, but found
him guilty of second-degree murder and second-degree
arson. On October 12, 1999, Judge Simmons sentenced
LeBere to 48 years’ imprisonment on the murder conviction and 12 years’ imprisonment on the arson conviction, to be served consecutively.
Archuleta Recants
23. In February 2000, after the trial, Archuleta
recanted his incriminating testimony. In a telephone
call to LeBere’s counsel, Bobby Lane Daniel, Archuleta
told Daniel that “his conscience was bothering him,
that he knew the case against Mr. LeBere was very
weak, that he felt badly he had given false testimony
and that he didn’t want an innocent man convicted or
in prison based on false testimony.” (Ex. D ¶ 4.) According to Daniel, Archuleta also stated that the police detective investigating the matter, J. D. Walker, “visited
him several times at the jail, indicated that he needed
a confession from Kent LeBere, provided police reports
to read and review and that those reports formed the
basis for his knowledge about the charges against Mr.
LeBere.” (Id. ¶ 7.) Archuleta further admitted to Daniel that Walker “was aware that no confession was ever
given and the testimony about it was untruthful.” (Id.
¶ 10.)

App. 224
The Archuleta Affidavit
24. On June 7, 2004, Archuleta submitted an affidavit that undermines the entire process under which
LeBere was tried and convicted. Specifically, Archuleta
admitted that the testimony he gave at LeBere’s trial
was “false” and that LeBere “never confessed anything”
to him. (Ex. E ¶ 4.) Archuleta further admitted that his
testimony was driven solely by the information provided to him by Detective Walker: “All of the information in my testimony was provided to me by
Detective J.D. Walker, not by Kent LeBere.” (Id.) Archuleta explained that Walker told Archuleta that he
needed a confession from LeBere. (Id. ¶ 5.) When Archuleta informed Walker that LeBere had never spoken to him about the charges against him, Walker told
Archuleta that he would receive preferential treatment and a reduced sentence if he falsely testified that
LeBere had confessed to him. (Id. ¶ 7.) Walker then
provided Archuleta with police reports relating to
LeBere’s case in order to enable him to testify convincingly. (Id. ¶ 8.) In other words, Walker secured LeBere’s
conviction by falsifying evidence and suborning perjury. Defense counsel submitted the Archuleta Affidavit to the trial court during the hearing on LeBere’s
Rule 35(c) motion. Notwithstanding this critical development, which shatters the prosecution’s only direct
evidence against LeBere, the trial court denied the motion in its entirety without an evidentiary hearing and
the Colorado Court of Appeals affirmed without oral
argument. The Colorado Supreme Court declined to review the case.

App. 225
PROCEDURAL HISTORY
The Conviction And Sentence
25. On August 13, 1999, a jury in Colorado
Springs, Colorado acquitted the Applicant, Kent Eric
LeBere, of first-degree murder, felony murder, manslaughter, and sexual-assault, but found him guilty of
second-degree murder and second-degree arson. On
October 12, 1999, LeBere was sentenced to 48 years’
imprisonment on the murder conviction and 12 years’
imprisonment on the arson conviction, to be served
consecutively.
State-Court Challenges To The Conviction And
Sentence: All of LeBere’s Claims Have Been
Fairly Presented.
26. On November 1, 1999, LeBere filed a notice
of appeal with the Colorado Court of Appeals, arguing
that his conviction should be reversed based, in part,
on Archuleta’s recantation. On May 5, 2000, the Colorado Court of Appeals granted LeBere a limited remand as to the new evidence relating to Archuleta.
Judge Simmons held a hearing on October 2, 2000, and
the trial court denied LeBere relief on that issue in an
order dated October 13, 2000, concluding that while
the new evidence supported LeBere’s theory, it would
not have changed the jury’s verdict. On January 24,
2002, the Colorado Court of Appeals issued an unpublished opinion, affirming the trial court’s denial of
a new trial. See People v. LeBere, 99 CA2088, at 6-7
(Colo. Ct. App. Jan. 24, 2002), attached as Ex. F. LeBere

App. 226
subsequently petitioned the Colorado Supreme Court
for a writ of certiorari, which was denied.
27. LeBere filed two collateral challenges to his
conviction and sentence in state court. The first, filed
on October 16, 2002, challenged his sentence under
Rule 35(b) of the Colorado Rules of Criminal Procedure. It was denied on May 20, 2003. On April 20, 2004,
LeBere filed a second collateral challenge, this time
under Rule 35(c) of the Colorado Rules of Criminal Procedure. In that motion, LeBere argued that he was entitled to a new trial, and at least an evidentiary
hearing, based on several constitutional violations.2
28. The State filed a cursory three-page response
to LeBere’s 35(c) motion. On August 30, 2005, the trial
court issued a three-sentence order stating that it
would hold oral argument on only two of the several
significant issues raised in the Rule 35(c) motion. (Ex.
I.) During that hearing on September 23, 2005, the
trial court granted LeBere’s request to file a supplemental brief on sentencing issues in light of Apprendi
v. New Jersey, 530 U.S. 466 (2000), and its rapidly
emerging progeny.
29. On October 7, 2005, even though LeBere
had not yet submitted his supplemental brief, the
trial court summarily denied LeBere’s Rule 35(c) motion. (Ex. J.) In his three-page order, Judge Simmons
2

LeBere also filed a motion requesting that the trial court
recuse itself from deciding the Rule 35(c) motion, given its involvement in jury deliberations, among other things. (Ex. G.) The
trial court summarily denied that motion. (Ex. H.)

App. 227
provided only cursory explanations for his denial of
each of the complex and important constitutional issues raised in LeBere’s motion. (See id.) Thereafter,
LeBere filed his Supplemental Memorandum of Law
addressing the sentencing issues.
30. Out of an abundance of caution, LeBere filed
a notice of appeal with the Colorado Court of Appeals
on November 18, 2005, challenging the October 7, 2005
order, even though the sentencing issues were still under advisement. On December 1, 2005, the trial court
denied relief regarding the-sentencing issues without
providing any reasoned basis for its decision. (Ex. K.)
LeBere appealed that decision on January 13, 2006.
31. On January 19, 2006, the Colorado Court of
Appeals issued an order stating that the trial court had
been without jurisdiction to enter the December 1,
2005 order because the November 18, 2005 appeal was
already pending. In an order dated February 13, 2006,
the court issued a remand and directed the trial court
to re-enter the orders “with all due speed.” (Ex. L.) Despite the Colorado Court of Appeals’ directive to handle
the matter expeditiously, the trial court did not re-enter the orders until October 11, 2006, nearly eight
months later. (Ex. M.)
32. The long-awaited appeal was fully briefed on
October 10, 2007. Despite the many troubling facts and
important issues raised, the Colorado Court of Appeals
declined to hold oral argument and; on April 24, 2008,
issued an order affirming the trial court in all respects.
(Ex. N.) LeBere petitioned the Colorado Supreme

App. 228
Court for a writ of certiorari, which was denied on August 18, 2009. (Ex. O.) The Colorado Court of Appeals
issued a final mandate on September 9, 2008. (Ex. P.)
LeBere’s Federal Habeas Corpus Proceedings
33. On July 30, 2003, LeBere filed a pro se Application for Writ of Habeas Corpus pursuant to 28 U.S.C.
§ 2254. (Court Docket No. 2.) The State filed an answer
on September 15, 2003. (Id., No. 7.) On November 26,
2003, the undersigned law firm made its first appearance on behalf of LeBere. (Id., No. 8.) Thereafter, counsel assessed LeBere’s file, trial record, and § 2254
application, and determined that several of the
grounds in his application were not exhausted as required by law.
34. On April 20, 2004, the same day he filed the
Rule 35(c) motion in state court, LeBere filed a motion
to stay his habeas application, pending exhaustion of
his state remedies. (Court Docket No. 12.) This Court
granted the stay motion on May 5, 2004, concluding
that doing so was necessary to avoid “jeopardizing the
timeliness of Applicant’s action.” (Id., No. 16 at 4.)
35. Consistent with the stay order, LeBere filed
regular status reports with the Court. (See generally
Court Docket.) On February 24, 2006, this Court issued
an Order for Administrative Closure, because the state
proceedings were still pending. (Court Docket No. 48.)
The closure order was extended on two subsequent occasions, resulting in a final order extending the closure
until February 23, 2009. (Id., No. 52.)

App. 229
36. On February 20, 2009, LeBere filed a Motion
to Reopen the Habeas case (Court Docket No. 56) and
Motion for Leave to File Amended Application for Writ
of Habeas Corpus (Court Docket No. 57). On July 13,
2009, this Court granted the Motion to Reopen and
granted in part the Motion for Leave to File Amended
Application for Writ of Habeas Corpus. (Court Docket
No. 61.) Without waiving any appeal with respect to
the July 13, 2009 Order, this Amended Application is
submitted consistent with that Order.
CLAIMS
37. LeBere’s conviction was unconstitutional, as
it was obtained in violation of his right to due process,
his right to a fair trial, and his right to be present at
critical stages of trial. See United States Const.
Amends. V, VI, and XIV; Colo. Const. Art. II, § 16, 25.
LeBere respectfully asks the Court to grant an evidentiary hearing at which to present evidence demonstrating that his trial was unconstitutional. See Townsend
v. Sain, 372 U.S. 29 (1963), overruled on other grounds
by Kenney v. Tamayo-Reyes, 504 U.S. 1 (1992) (“When
an application by a state prisoner to a Federal Court
for a writ of habeas corpus alleges facts which, if
proved, would entitle him to relief, the Federal Court
to which the application is made has the power to receive evidence and try the facts anew.”). LeBere will
also file a motion for discovery under 28 U.S.C. § 2254,
Rule 6, so that he may fully explore and uncover the
facts underlying his claims.

App. 230
I.

LEBERE WAS DEPRIVED OF HIS RIGHT
TO DUE PROCESS UNDER BRADY v. MARYLAND.

38. LeBere seeks relief under 28 U.S.C. § 2254
based, in part, on the State’s violation of Brady v. Maryland, 373 U.S. 83, 87 (1963). The trial court improperly
denied this requested relief, holding that the Brady issues were duplicative of the issues raised in LeBere’s
2000 motion for a new trial based on newly discovered
evidence. (Ex. J ¶ 3.) This was the sole basis articulated by the trial court in denying Lebere’s Rule 35(c)
Motion. (Id.) Importantly, the trial court applied the
wrong legal standard. The Brady standard for a new
trial is different than the “newly discovered evidence”
standard applied in LeBere’s Motion for a New Trial in
2000. Had the trial court analyzed this issue under the
proper standard, it should have concluded that LeBere
is entitled to a new trial. Indeed, because the State
violated Brady by failing to disclose material information in its possession, LeBere is entitled to a new
trial. At a minimum, LeBere requests an evidentiary
hearing.
A.

The Correct Brady Standard

39. In order to establish a Brady violation,
LeBere must show that (1) the State suppressed evidence; (2) the evidence was favorable to LeBere; and
(3) the evidence was material to LeBere’s defense.
Strickler v. Greene, 527 U.S. 263, 281-82 (1999); Fero v.
Kerby, 39 F.3d 1462, 1472 (10th Cir. 1994) (noting that

App. 231
even negligent or inadvertent suppression is nevertheless suppression for Brady purposes). The Colorado
courts should have applied this standard.
B. Relevant Factual Background: Witness
Tampering And Perjured Testimony
40. While Detective Walker was investigating
the murder of Linda Richards, he paid several visits to
Archuleta in the El Paso County Jail. Given the dearth
of physical evidence linking LeBere to the crime and
the fact that LeBere had no apparent motive, Walker
went about procuring a “confession.” Archuleta, a
known jail-house snitch (Ex. B. at 32-34, 49-50, 72-73,
143), had been housed with LeBere, so Walker went to
Archuleta looking for a “confession” by LeBere to the
murder of Linda Richards. (Ex. E ¶¶ 4-9.)
41. Walker did more than simply interview Archuleta during these visits with Archuleta. Walker “indicated he needed a confession from Kent LeBere,
[and] provided police reports to read and review. . . .”
(Ex. D ¶ 7; Ex. E ¶ 8.) Further, Walker “hand delivered”
police reports for Archuleta to read and review. (Ex. D
¶ 6; Ex. E ¶ 8.) These reports “formed the basis for [Archuleta’s] knowledge about the charges against Mr.
LeBere,” and for LeBere’s supposed “confession,” which
Archuleta later invented. (Ex. D ¶ 7; Ex. E ¶ 8.)
42. In fact, LeBere never made any confession to
Archuleta. (Ex. E ¶¶ 6, 9, 10.) Rather, the details of this
supposed confession came from the police reports that
Walker gave to Archuleta. (Id. ¶ 8.) Archuleta was

App. 232
eager to help Walker get his confession, because he
knew that Walker would help him get favorable treatment from the District Attorney. (Id. ¶ 7.) In the end,
Archuleta did receive such favorable treatment. (Ex. B.
at 11-12, 16, 40.)
43. Walker knew that LeBere never confessed to
murdering Ms. Richards. (Ex. E ¶ 9.) He knew that Archuleta’s testimony about the confession was false, because Archuleta created the “confession” with
information that Walker supplied. (Ex. D ¶ 7 (“J.D.
Walker was aware that no confession was ever given
and [Archuleta’s] testimony about it was untruthful.”);
Ex. E ¶ 9.)
C. The State Violated Brady And Its Progeny.
44. Walker’s conduct deprived LeBere of due process under the Fifth and Fourteenth Amendments, and
therefore deprived LeBere of a fair trial. The United
States Supreme Court long ago established that the
“suppression by the prosecution of evidence favorable
to an accused upon request violates due process where
the evidence is material either to guilt or to punishment, irrespective of the good faith or bad faith of the
prosecution.” Brady, 373 U.S. at 87. The Court thereafter held that the prosecution must turn over favorable
evidence even when the defense does not request it,
United States v. Agurs, 427 U.S. 97, 107 (1976), and
that the duty encompasses impeachment evidence as
well as exculpatory evidence, United States v. Bagley,
473 U.S. 667, 676 (1985).

App. 233
45. The Brady rule also encompasses evidence
“known only to police investigators and not to the prosecutor.” Kyles v. Whitley, 514 U.S. 419, 438 (1995).
Therefore, a prosecutor “has a duty to learn of any favorable evidence known to the others acting on the
government’s behalf . . . , including the police.” Id. at
437; see also Strickler, 527 U.S. at 280-81 (“[T]he rule
encompasses evidence ‘known only to police investigators and not to the prosecutor.”); United States v. LaVallee, 439 F.3d 670, 698 n.19 (10th Cir. 2006) (“The
‘prosecution’ for Brady purposes encompasses not only
the prosecutors handling the case, but also extends to
law enforcement personnel. . . .”); Smith v. Sec’y of New
Mexico Dept. of Corrections, 50 F.3d 801, 824 (10th Cir.
1995) (“For purposes of Brady, ‘knowledge by police or
investigators is . . . imputed to the prosecution.’ ”); see
also Colo. R. Crim. P. 16(1)(a)(2) (requiring prosecutor
to “disclose to defense counsel any material or information within his possession or control which tends to
negate the guilt of the accused as to the offense
charged or would tend to reduce the punishment therefor.”)
46. There are three components of a Brady violation, and all have been met in this case: (1) the prosecution suppressed evidence; (2) the evidence was
favorable to LeBere; and (3) the evidence was material
to LeBere’s defense. Strickler, 527 U.S. at 281-82;
Fero, 39 F.3d at 1472. In this case, the prosecution committed two separate Brady violations, both of which
stemmed from Walker’s tampering with Archuleta.
First, the prosecution relied on Archuleta’s and

App. 234
Walker’s perjured testimony, even though Walker
knew the testimony was false. Second, the prosecution
failed to disclose that Walker met with Archuleta and
fed him information that enabled Archuleta to give
false testimony against LeBere. For both of these violations, it is clear that the prosecution suppressed evidence, and that the evidence was favorable to LeBere.
Each violation has a different standard that must be
used to determine whether the withheld evidence was
“material.” Under each relevant standard, the evidence
was material, and the prosecution’s withholding of
that evidence deprived LeBere of a fair trial.
D. The State Relied On Perjured Testimony.
47. The most severe type of Brady violation involves reliance on testimony that the prosecution
knows or should know is perjured. See Agurs, 427 U.S.
at 103. A “conviction obtained by the knowing use of
perjured testimony is fundamentally unfair, and must
be set aside if there is any reasonable likelihood that
the false testimony could have affected the judgment
of the jury.” Id. Under this standard, “the fact that testimony is perjured is considered material unless failure to disclose it would be harmless beyond a
reasonable doubt.” Bagley, 473 U.S. at 680. The United
States Supreme Court has justified this stringent
standard because “the knowing use of perjured testimony involves prosecutorial misconduct.” Id. Even
more important, such misconduct involves “a corruption of the truth-seeking function of the trial process.”
Id. (quoting Agurs, 427 U.S. at 104).

App. 235
48. In this case, the prosecutors committed irreparable misconduct by allowing two key witnesses—Archuleta and Walker—to commit perjury. Archuleta
falsely testified that Kent LeBere confessed to the
murder. Walker knew that LeBere never confessed,
and Walker knew that Archuleta was able to offer his
perjured testimony only thanks to the information that
Walker himself provided. (Ex. D ¶¶ 7, 9.) This led to
Walker’s own perjury, through his testimony that Archuleta obtained the “confession” from LeBere, rather
than from information that Walker provided. Walker’s
knowledge can be directly imputed to the prosecution,
which had a duty to know all of the facts surrounding
LeBere’s supposed confession. Kyles, 514 U.S. at 437.
49. At trial, Archuleta testified that LeBere confessed to murdering Linda Richards, and the jury later
convicted LeBere of killing her. (Ex. B at 17.) This false
testimony was corroborated by further perjury from
Detective Walker. (Id. at 69, 72, 74, 134.) Given these
facts, there is at least a reasonable likelihood that Archuleta’s false testimony affected the jury’s ultimate
judgment that LeBere killed Ms. Richards. Given the
paltry evidence against LeBere—circumstantial evidence, lack of motive, and unreliable witnesses—it is
unreasonable to conclude that Archuleta’s false testimony about a nonexistent confession was harmless beyond a reasonable doubt. See Bagley, 473 U.S. at 680.
To the contrary, an examination of the false evidence
raises grave doubts about the fairness of LeBere’s trial.
Accordingly, because the prosecution knowingly used
Archuleta’s perjured testimony, LeBere was denied his

App. 236
right to due process as articulated by Brady and is entitled to a new trial.
E. The State Suppressed Evidence Favorable To LeBere.
50. Walker visited Archuleta several times in jail
and gave Archuleta police reports to prepare for his
testimony. These facts are exculpatory Brady material
because it shows that LeBere’s supposed confession
was a lie concocted by Archuleta, and made possible
and encouraged by Walker. The prosecution should
have disclosed the evidence on this basis alone. The evidence should also have been disclosed because it could
have been used to impeach the testimony of both Archuleta and Walker. See Bagley, 473 U.S. at 676 (holding that impeachment evidence must be disclosed
under Brady); Smith, 50 F.3d at 825 (same).
51. This suppressed evidence is material if
“there is a reasonable probability that, had the evidence been disclosed to the defense, the result of the
proceeding would have been different.” Bagley, 473
U.S. at 682. A “reasonable probability” means a probability sufficient to “undermine confidence in the outcome.” Id. Put another way, the Court should find a
Brady violation if “the favorable evidence could reasonably be taken to put the whole case in such a different
light as to undermine confidence in the verdict.” Kyles,
514 U.S. at 435; Engberg v. Wyoming, 265 F.3d 1109,
1118 (10th Cir. 2001).

App. 237
52. Walker’s visits with and feeding of information to Archuleta are material pieces of evidence.
Walker and Archuleta were key prosecution witnesses,
both at trial and at the preliminary hearing. There was
no physical evidence linking LeBere to the murder.
However, there was the testimony of investigating detective Walker, which linked LeBere to the murder, and
testimony—later recanted—by Archuleta that LeBere
confessed to killing Richards. Information that Walker,
seeking to manufacture a confession, visited Archuleta
in jail and fed him information puts this case in an entirely different light. It reveals witness tampering, perjury, and prosecutorial misconduct of which the jury
was wholly unaware and which, now revealed, undermines confidence in the jury’s verdict.
53. The prosecution’s withholding of this evidence is an independent constitutional violation and
another basis on which to grant LeBere a new trial.
II.

LEBERE WAS DENIED HIS CONSTITUTIONAL RIGHT TO COUNSEL WHEN HIS
LAWYERS WERE NOT CONSULTED REGARDING VERDICT FORM ISSUES.

54. The trial court denied LeBere his right to
counsel when, on the second day of deliberations, it instructed the jury to return to the jury room for further
deliberations to complete the verdict forms. (See Ex.
Q.) The trial court did so without informing counsel of
the problem with the verdict forms or asking counsel
to consult on the issue. A defendant in a criminal case

App. 238
has the right to counsel during any instructions that
the court gives to the jury or when the trial court responds to a jury question. See Siverson v. O’Leary, 764
F.2d 1208, 1214 (7th Cir. 1985) (holding that “jury deliberations and the return of the verdict constitute
critical stages of a criminal trial for purposes of the
Sixth Amendment”). The trial court effectively denied
LeBere that right when he failed to discuss the issue
with counsel, even though counsel was present in the
courtroom at the time.
55. Simply put, the trial court did not even attempt to ensure that LeBere was given the opportunity
to weigh in on one of the most critical stage of his trial,
the jury’s completion of the verdict form. The failure to
do so renders the process unfair and unconstitutional.
When considered with the many other constitutional
errors LeBere encountered during his trial, the issue
takes on great significance and supports LeBere’s right
to a new trial.
PRAYER FOR RELIEF
WHEREFORE, the Applicant, Kent Eric LeBere,
prays that this Court:
A. Issue a writ of habeas corpus to have the Applicant brought before it, to the end that he might be
discharged from his unconstitutional confinement and
restraint;
B. Direct the State to file an answer admitting or
denying each and every factual allegation made herein
and stating why the Applicant is not entitled to relief;

App. 239
C.

Permit Applicant to undertake discovery;

D. Order an evidentiary hearing at which Applicant may offer proof to support the allegations contained in this Amended Application and to rebut any
procedural or substantive defenses asserted by the
State;
E. Order the Office of the El Paso County District
Attorney, the prosecuting deputy district attorney, and
the Colorado Attorney General to turn over to counsel
for Applicant all exculpatory evidence in their possession;
F. After full consideration of the issues raised in
this Amended Application, vacate and set aside the
judgment of conviction and sentence or grant a new
trial; and
G. Grant such other and further relief as this
Court deems just and appropriate and as justice may
require.
Respectfully submitted this 12th day of August, 2009.
s/Laurence W. (Trip) DeMuth
Laurence W. (Trip) DeMuth
TDeMuth@faegre.com
FAEGRE & BENSON LLP
1900 Fifteenth Street
Boulder, Colorado 80302
Telephone: 303-447-7700
FAX: 303-447-7800

App. 240
Jennifer K. Harrison
JKharrison@faegre.com
FAEGRE & BENSON LLP
3200 Wells Fargo Center
1700 Lincoln Street
Denver, Colorado 80203-4532
Telephone: 303-607-3500
FAX: 303-607-3600
James L. Volling
jvolling@faegre.com
Jesseca R.F. Cockson
jcockson@faegre.com
Martin S. Chester
mchester@faegre.com
FAEGRE & BENSON LLP
2200 Wells Fargo Center
90 S. Seventh Street
Minneapolis, Minnesota 55402
Telephone: 612-766-7000
FAX: 612-766-1600
Attorneys for Applicant
Kent Eric LeBere

App. 241
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 03-cv-1424-MSK-MEH
KENT ERIC LeBERE,
Petitioner,
v.
JAMES ABBOTT, Warden, and
THE ATTORNEY GENERAL OF
THE STATE OF COLORADO,
Respondents.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

MEMORANDUM IN SUPPORT OF
PETITIONER’S REQUEST TO
GRANT AMENDED APPLICATION
FOR WRIT OF HABEAS CORPUS
PURSUANT TO 28 U.S.C. § 2254
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

INTRODUCTION
(Filed Dec. 30, 2015)
When the State of Colorado prosecuted Kent
LeBere, it withheld key evidence from him. The prosecution did not disclose that its lead investigator fed evidence to the State’s key witness, jailhouse informant
Ronnie Archuleta. This allowed Archuleta to falsely
testify about a jailhouse “confession” that LeBere never
gave, and allowed the investigator (Detective J.D. Walker)
to falsely testify about his interactions with Archuleta.

App. 242
Because the State never disclosed that Walker fed
information to Archuleta, LeBere could not crossexamine Walker about his conduct, nor cross-examine
Archuleta about the basis for his testimony regarding
LeBere’s supposed “confession.”
This material exculpatory evidence came to light
only after Archuleta voluntarily recanted his testimony, and revealed Walker’s misconduct. Archuleta
has stood by his recantation for fifteen years: in admissions to LeBere’s trial counsel in 2000, in a sworn affidavit in 2004, and in his recent deposition in 2015.
Archuleta’s admission—that Walker suborned Archueta’s perjury and that Walker himself lied at trial—undermines confidence in the verdict against LeBere.
More than four decades ago, the United States Supreme Court held in Brady v. Maryland that when
prosecutors fail to disclose evidence favorable to an accused, and when they rely on false testimony, they violate the accused’s constitutional right to due process.
The State of Colorado’s failure to disclose its detective’s misconduct, and its reliance on perjured testimony, violated LeBere’s constitutional rights under
Brady. The writ of habeas corpus exists to correct fundamental miscarriages of justice like this one. Kent
LeBere, who is serving a sixty-year sentence for a
crime he did not commit, respectfully asks this Court
to grant his Amended Application for Writ of Habeas
Corpus under 28 U.S.C. § 2254.

App. 243
BACKGROUND
I.

FACTUAL BACKGROUND
A. The Charges Against LeBere

On October 20, 1998, someone murdered Linda
Richards and left her body in her van, which had been
set on fire and left in a carwash. Earlier that night,
Kent LeBere was seen leaving a bar with Richards,
and he was later seen in the vicinity of where her
body was eventually discovered. LeBere was arrested
and charged with first-degree murder, first-degree felony murder arising from the commission of a sexual
assault, second-degree murder, manslaughter, and second-degree arson.
No physical evidence linked LeBere to the crime.
The only eye-witness at the scene of the crime described a person who did not look like LeBere. (Ex. 1,
08/06/1999 Trial Tr. at 68, 80-83). The same eye-witness did not identify LeBere from either a police photolineup or surveillance tape from a convenience store
that LeBere visited on the night of the crime. (Id. at
68.) LeBere pled not guilty to all charges.
B. Before Trial: Walker And Archuleta Manufacture A Confession
The investigation of Richards’ murder was assigned to Colorado Springs Detective J.D. Walker, a
police officer who has a history of unscrupulous investigatory tactics similar to those he employed in this
case against Kent LeBere.

App. 244
In 2000, the El Paso County District Court found
that Walker suppressed evidence favorable to a criminal defendant. See People v. Beatty, Case No. 99-CR1145 (El Paso Cnty. Dist. Ct.). In that case, Walker was
investigating a murder for which Elijah Beatty had
been charged. (Ex. 2, People v. Beatty, 05/02/2000 Hrg.
Tr. at 6, 34, 43-44.) A source told Walker that several
individuals—including another alternate suspect as
well as Beatty—might have been involved in the crime.
(Id. at 9-12, 22-23.) Even though that information,
which implicated an alternative suspect, would have
been favorable to the defendant Beatty, Walker did not
put that information in a police report, and the exculpatory information was not disclosed to Beatty’s attorneys. (Id. at 10-11, 15, 50.) Beatty was eventually tried
and convicted. In a later sanctions hearing regarding
Walker’s conduct, two of Walker’s fellow detectives testified that Walker should have reported the information implicating the alternative suspect. (Id. at 32,
50-53, 57.) The court concluded that Walker improperly suppressed this evidence. (Ex. 3, People v. Beatty,
06/20/2000 Hrg. Tr. at 15-16.) Walker has also been disciplined for his conduct on a variety of cases while assigned to the homicide unit. (Ex. 4, City Discipline
Report.) This included Walker’s failure, in at least
seven first-degree murder investigations, to submit
supplemental investigative reports timely. (Id.; see also
Ex. 5, Disciplinary Action Form; Ex. 6, Deposition of
J.D. Walker (“Walker Dep.”) 134:3-71.)
1

Written transcripts of the deposition testimony of both J.D.
Walker and Ronnie Archuleta are included as exhibits to this

App. 245
Walker’s unscrupulous investigative tactics and
willingness to flout the rules were at their height in
the investigation of Richards’ murder. Only six days after the murder, Walker had already decided for himself
that LeBere was the only possible suspect. (Walker
Dep. 88:10-12.) Walker focused exclusively on LeBere,
even though Richards had a violent fiancé named Russell Herring who on the very night of Richards’ death—
had a fight with Richards and threatened to break off
their engagement. (Ex. 7, 08/05/1999 Trial Tr. at 17283.) Walker knew that Herring was violent and abusive in the past, and police had been repeatedly called
to their home. (Id. at 168-74, 180-91; see also Walker
Dep. 91:23-92:10.) On October 22, 1998, Walker asked
the Colorado Bureau of Investigation to test fingernailscrapings taken from the victim. But he asked only
that LeBere’s DNA be compared, ignoring any other
possible suspects. (Walker Dep. 132:12-133:12.)
Meanwhile, LeBere was in the El Paso County
Jail, awaiting trial. There, he was housed in the same
“pod” as Ronnie Archuleta. Archuleta had a long history—since his teenage years—of working as a police
informant. (Ex. 8, Deposition of Ronald Archuleta
“Archuleta Dep.”) 10:25-11:6.) Archuleta was so well
memorandum. Additionally, pursuant to Section 4.8(f) of the
Electronic Case Filing Procedures for the District of Colorado, Petitioner is conventionally submitting discs containing J.D.
Walker’s and Ronnie Archuleta’s videotaped depositions referenced in this Memorandum. In accordance with Section 4.8(f), a
cover page is attached to this Memorandum, identifying the conventionally submitted materials, which materials will be handdelivered to the Clerk’s office and to opposing counsel.

App. 246
known as a “snitch” that when LeBere first arrived at
the jail, other inmates warned him not to speak with
Archuleta. (Walker Dep. 57: 22-58:4.)
Soon after LeBere arrived in jail, Detective Walker
received word that an inmate had information about
Richards’ murder. (Id. 28:2-20.) On October 28, 1998,
Walker met with Archuleta about the Richards murder. (Id. 28:23-25.) Walker and Archuleta have very different accounts of that meeting. According to Walker,
Archuleta said that LeBere approached him in jail to
ask about how he could obtain a bond (since Archuleta
once worked for a bail bondsman). (Id. 37:21-24). According to Walker, Archuleta said that LeBere then
confessed to the murder—even though LeBere had
been warned that Archuleta was a “snitch”so that Archuleta could determine if LeBere would qualify for a
bond. (Id. 38:7 to 39:20.)
Archuleta disputes Walker’s story. Archuleta testified in his deposition that Walker met with him several
times, all with the intent of tying Kent LeBere to Richards’ murder. (Archuleta Dep. 15:9-20.) Archuleta cooperated, based on the promise of favorable treatment
from prosecutors in his own case. (Ex. 9, 08/09/1999
Trial Tr. at 11-12, 40.)2 At first, Walker asked Archuleta
2

Ann Joyce, the Deputy District Attorney responsible for Archuleta’s case testified under oath that Walker told her that
Walker had agreed to put in a good word for Archuleta, and that
he did ask her to help Archuleta. (Ex. 10, 11/23/1998 Hr’g Tr. at
12-14, 26-27.) She also admitted that she offered Archuleta a
more favorable plea deal because of Walker’s encouragement. (Id.
at 14-15, 27.)

App. 247
to try getting LeBere to confess to the crime. (Archuleta Dep. 16:2-24.) But once it became clear that
LeBere would say nothing to Archuleta about his case,
Walker began feeding Archuleta information about the
Richards murder—so that he and Archuleta could
manufacture a confession. (Id. 16:19- 18:15.) Walker
gave Archuleta police reports and other information
about the crime, and made it clear to Archuleta that he
should use the information to invent testimony that
LeBere confessed. (See id. 14:19-15:5; 21:20-22; see also
infra Section III.A.)
C. Walker Procures Archuleta’s Plea Deal
Through Improper Means
Before LeBere’s trial, Walker went to great lengths
to obtain a plea deal for Archuleta in exchange for Archuleta’s false testimony against LeBere. This shows
Walker’s willingness to disregard a defendant’s constitutional rights, to employ unethical tactics to obtain
evidence favorable to the State’s case, and to disregard
the authority of officers of the court.
After Walker identified Archuleta as a possible
witness against LeBere, Walker told the prosecutor
on LeBere’s case, Assistant District Attorney Kim
Kitchen,3 that he intended to speak with Archuleta.
(Ex. 9 at 116-18.) Kitchen explicitly told Walker not to
3

Kim Kitchen and her office were later disqualified from
prosecuting LeBere because she became a material witness to
Walker’s unauthorized procurement of Archuleta’s testimony.
(Ex. 11, 04/30/1999 Motion for Disqualification.)

App. 248
talk to Archuleta about Archuleta’s own pending case.
(Id. at 118; Ex. 12, 11/17/1998 Hr’g Tr. at 167.) But
Walker disregarded the prosecutor’s instructions and
spoke with Archuleta at least twice about the criminal
charges then pending against Archuleta, and about
getting Archuleta a plea deal. (Ex. 10 at 79-80, 83.)
Archuleta told Walker that he wanted a continuance in his case, a check fraud matter being prosecuted
by Deputy District Attorney Ann Joyce. (Id. at 69-70.)
Archuleta wanted a continuance so he could have time
to get money for restitution, which would allow him to
get a plea deal. (Id. at 69.) Walker spoke with Joyce
and asked her to give Archuleta the continuance. (Id.
at 69; Ex. 9 at 122-23.) Walker did even more to help
Archuleta get a plea deal, including speaking with Archuleta’s public defender about a plea deal, and contacting Archuleta’s employer and Archuleta’s mother
to ask for help in getting money for Archuleta’s restitution. (Ex. 10 at 77, 98-99; Ex. 13, 11/18/1998 Hr’g Tr.
at 260, 298, 304.)
Even worse, Walker communicated an unauthorized plea deal to Archuleta—even though prosecutor
Kim Kitchen expressly told Walker not to speak with
Archuleta about his pending case, and despite the fact
that Archuleta’s counsel was not present. This deal,
which Walker was not authorized to offer (and which
presumably was contingent on Archuleta’s cooperation
in the LeBere case) was even more favorable than the
one that Archuleta’s prosecutor Ann Joyce was prepared to offer. Based on Walker’s “good word” to Joyce
about Archuleta, Joyce told Walker that she would

App. 249
reduce the charges against Archuleta, Archuleta would
pay restitution, and Joyce would waive probation ineligibility (meaning that Archuleta could be sentenced to
prison or probation). (Ex. 10 at 13-15, 26-28.) But
Walker, outside of the presence of Archuleta’s counsel,
communicated a different—and better—deal directly
to Archuleta. On November 9, 1998, Walker told Archuleta that if Archuleta paid restitution on November
13 he could plead guilty to the reduced charge, get
out of jail the same day, and receive probation. (Id. at
46, 74.) Unlike the authorized plea deal, Walker’s unauthorized deal to Archuleta guaranteed probation,
promising that prison was not an option. (Id. at 46, 74.)
Prosecutor Joyce had not offered guaranteed probation. (Id. at 13-15, 26-28.) Walker’s unauthorized offer
of this plea deal eventually came to light, but the court
granted Archuleta’s motion to enforce the deal, allowing the State to secure the perjured testimony that was
instrumental in LeBere’s conviction.
D. The Trial: Walker And Archuleta Lie
At trial, the prosecution presented no direct evidence and no physical evidence linking LeBere to the
crime. LeBere presented substantial evidence that
pointed away from him as the murderer, and toward a
more likely perpetrator: the victim’s abusive and anger-prone fiancé, Russell Herring, with whom the victim had a heated argument on the night she died. The
State’s case relied on testimony from witnesses that we
now know—through information that the State should

App. 250
have disclosed under Brady—were lying: Archuleta
and Walker.
LeBere presented evidence that on the night of
Richards’ death, Herring fought with Richards and
threatened to break off their engagement. (Ex. 7 at
172-83.) Herring admitted that he had been violent
and abusive to Richards in the past and that the police
had been called to their home more than once. (Id. at
168-75, 180-91.) LeBere also introduced the tape of a
911 call in which Richards sought police assistance
during an altercation in which Herring was particularly violent and abusive. (Id. at 188-91.) Herring admitted that he and Richards fought on the evening of
her death, that he knew Richards had likely gone to a
particular bar after their fight, and that he was often
jealous that Richards might have an affair. (Id. at 192205.) LeBere also introduced expert evidence rebutting
Herring’s claim that he did not leave home the entire
night of Richards’ death. (Id. at 177-78; Ex. 14,
08/11/1999 Trial Tr. at 164-65, 171-72, 186-87.) In sum,
LeBere’s evidence showed that Herring had both the
motive and the opportunity to kill Richards.
Given the lack of evidence tying LeBere to the
crime, and the significant exculpatory evidence, the
State’s case hinged on two key witnesses: Archuleta
and Walker. Archuleta testified that LeBere confessed
to raping and murdering Richards, then setting her vehicle on fire to destroy any evidence. The State presented
no evidence corroborating the facts in Archuleta’s testimony. Detective Walker testified about his investigation and interactions with Archuleta, but did not tell

App. 251
the jury about his role in manufacturing LeBere’s “confession.”
On August 13, 1999, the jury found LeBere guilty
of second-degree murder and second-degree arson. The
jury acquitted LeBere on the charges of first-degree
murder, first-degree felony murder arising from the
commission of a sexual assault, and manslaughter. On
October 12, 1999, the state trial court sentenced
LeBere to a total of 60 years in prison: 48 years on the
murder conviction and 12 years on the arson conviction, to be served consecutively.
E. After Trial: Archuleta Recants
In February 2000, Archuleta placed a phone call to
LeBere’s trial counsel, Bobby Lane Daniel. In that call,
Archuleta recanted his incriminating trial testimony.
Archuleta told Daniel that “his conscience was bothering him, that he knew the case against Mr. LeBere was
very weak, that he felt badly he had given false testimony and that he didn’t want an innocent man convicted or in prison based on false testimony.” (Ex. 15,
Affidavit of Bobby Lane Daniel ¶ 4.) Archuleta also
stated that Walker “visited him several times at the
jail, indicated he needed a confession from Kent LeBere, provided police reports to read and review and
that those reports formed the basis for his knowledge
about the charges against Mr. LeBere.” (Id. ¶ 7.) Archuleta also told Daniel that Walker “was aware that
no confession was ever given and the testimony about
it was untruthful.” (Id. ¶ 10.)

App. 252
F. Archuleta’s Affidavit
On June 7, 2004, Archuleta submitted an affidavit
that undermines the entire process under which
LeBere was investigated, tried, and convicted. In the
affidavit, Archuleta confirmed his February 2000 recantation, and again admitted that his testimony at
LeBere’s trial was false. (Ex. 16, Affidavit of Ronnie Archuleta ¶¶ 4.) Archuleta explained that LeBere “never
confessed anything to me” and that all of the information Archuleta testified about at trial “was provided
to me by Detective J.D. Walker, not by Kent LeBere.”
(Id. ¶ 4.) Archuleta explained that Walker said that he
“needed a confession” from LeBere. (Id. ¶ 5.) When Archuleta told Walker that LeBere had never spoken to
him about Richards or the murder, “J.D. Walker suggested to me that I could receive preferential treatment and less jail time if I testified to the information
that he provided me about Kent LeBere.” (Id. ¶¶ 6-7).
Archuleta disclosed that Walker provided Archuleta
with police reports about LeBere’s case so that Archuleta could testify convincingly. (Id. ¶ 8.) Archuleta
confirmed that Walker knew that LeBere had never
confessed, and that Archuleta’s testimony about the
“confession” was false. (Id. ¶ 9.) Archuleta’s affidavit
confirmed that the State secured LeBere’s conviction
by falsifying evidence and suborning perjury.

App. 253
II.

POST-CONVICTION PROCEDURAL HISTORY
A. State Court Post-Conviction Proceedings
1. Direct Appeal

On November 1, 1999, LeBere filed a timely notice
of appeal with the Colorado Court of Appeals. (Ex. 17,
Notice of Appeal.) On February 29, 2000, Archuleta unexpectedly contacted LeBere’s trial counsel and recanted his testimony about LeBere’s “confession.” (Exs.
15-16.) On May 5, 2000, the Colorado Court of Appeals
granted LeBere a limited remand to move for a new
trial based on the newly-discovered evidence of Archuleta’s perjury. (Ex. 18, 05/11/2000 Order.) The
state trial court denied LeBere’s motion, the Colorado Court of Appeals affirmed, and the Colorado Supreme Court denied LeBere’s petition for a writ of
certiorari. (Ex. 19, 10/13/2000 Order; Ex. 20, 01/24/2002
Opinion.) LeBere’s Brady claim was never raised or
considered as part of his direct appeal.
2. Collateral Attack In State Court
On April 20, 2004, LeBere filed a collateral challenge to the fairness and constitutionality of his trial
under Rule 35(c) of the Colorado Rules of Criminal Procedure. (Ex. 21, Rule 35(c) Motion.) LeBere argued that
he was entitled to a new trial based on several constitutional violations, including the Brady violations relating to Archuleta’s and Walker’s perjury. (Id. ¶¶ 1731.) The state trial court refused to hear oral argument

App. 254
on the Brady issue and summarily denied LeBere’s
Rule 35(c) motion without an evidentiary hearing.
(Ex. 22, 10/07/2005 Order.) The Colorado Court of Appeals affirmed without hearing oral argument. (Ex. 23,
04/24/2008 Opinion.) LeBere petitioned the Colorado
Supreme Court for a writ of certiorari, which was denied on August 18, 2008. (Ex. 24, 08/18/2008 Order.)
B. Federal Habeas Corpus Proceedings
1. Original Application
On July 30, 2003, LeBere filed a pro se petition for
a writ of habeas corpus under 28 U.S.C. § 2254. (Dkt.
No. 1.) The State answered on September 15, 2003.
(Dkt. No. 7.) On November 26, 2003, the undersigned
law firm made its first appearance on LeBere’s behalf.
(Dkt. No. 8.) Counsel then determined that several of
the grounds in his original application were not exhausted as required by law.
2. Amended Application
On April 20, 2004, the same day that he filed the
Rule 35(c) motion in state court, LeBere filed a motion
to stay his federal habeas application, pending exhaustion of his state remedies. (Dkt. No. 12) This Court
(Daniel, J.) granted the stay, and LeBere proceeded
with his state court remedies. (Dkt. No. 16.)
On February 20, 2009, after exhaustion of all state
remedies regarding his Brady claim, LeBere moved to
reopen his federal habeas case and for leave to file an

App. 255
amended application that would include the Brady
claim. (Dkt. No. 56.) On July 13, 2009, the Court
granted LeBere’s motion, (Dkt. No. 61), and LeBere
filed his Amended Application on August 12, 2009,
(Dkt. No. 62). The Court later sua sponte dismissed
LeBere’s amended petition concluding (incorrectly, the
Tenth Circuit held) that the Brady claim was procedurally defaulted. (Dkt. No. 77.)
3. Tenth Circuit Appeal
LeBere appealed the dismissal of his Amended
Application, and the Tenth Circuit reversed and remanded. (Ex. 25, Tenth Circuit Opinion.) The Court of
Appeals held that the District Court erred in dismissing LeBere’s petition on the basis of procedural default,
because no Colorado state court had ever addressed
the merits of LeBere’s Brady claim. The Court of Appeals remanded the case to this Court for further proceedings.
4. Motion For Discovery Upon Remand
On remand, LeBere moved to conduct discovery
in support of his Brady claim. (Dkt. No. 92.) LeBere
sought information regarding Walker’s investigatory
practices and job history, as well as regarding Archuleta’s relationship with agents of the State, and
he requested the opportunity to depose Walker. (Id. at
15-20.) Over the State’s objections, the Court allowed
LeBere to conduct discovery. (Dkt. No. 117.)

App. 256
III. RESULTS OF DISCOVERY
The parties have now deposed the two key witnesses who testified against LeBere: Walker and (at
the State’s request) Ronnie Archuleta. In Archuleta’s
deposition, Archuleta testified that he lied at trial
when he said that LeBere confessed. Walker’s deposition testimony reveals that Walker knew Archuleta
was a “chronic liar,” but that he still put Archuleta
forth as the key witness against LeBere.
A. Archuleta Confirms That His Trial Testimony Was False, And Done At Walker’s
Behest
Archuleta’s deposition testimony affirmed what he
has been saying for the last fifteen years:
•

LeBere never confessed;

•

LeBere never told Archuleta anything about
Linda Richards or his case;

•

Archuleta’s trial testimony about a confession
was false;

•

Archuleta received the information for his
trial testimony from Walker; and

•

Walker knew that his and Archuleta’s testimony was false when they testified.

(See Archuleta Dep. 14:19-15:5; 21:20-22.)
Archuleta testified that he understood that “J.D.
Walker wanted me to get information on Kent LeBere
in regards to his murder case because of the fact that I

App. 257
had done it before in other cases. . . .” (Id. 16:5-18.) Archuleta tried, but was unable to get any information
from LeBere about his case. (Id. 16:19-17:1.) Archuleta
testified in deposition that he “told J.D. Walker that
Kent would not talk about his case” and had not confessed to him. (Id. 17:6-15; 21:23-22:3.)
So instead, Walker and Archuleta “went through a
case file” that contained “police reports about the incident . . . about how the body was found, how it was positioned, what happened . . . what bar they were at,
where [LeBere] was arrested,” giving Archuleta “the
basic information on the case.” (Id. 16:23, 18:2-10.)
Archuleta testified that Walker clearly asked him
to lie at trial: “Detective Walker [told me] that when I
am testifying, that I am to testify that that is what
Kent told me; that I had conversations with Kent.” (Id.
46:5-8; see also id. 47:14-16.) In sum, Archuleta testified in his deposition that the content of his trial testimony came not from Kent LeBere, but from Walker.
(Id. 20:1-18, 21:9-19.)
Archuleta’s motivation for testifying falsely at
LeBere’s trial is clear—avoiding more jail time himself.
In his deposition, Archuleta testified that he was told
by Walker and Deputy District Attorney Ann Joyce
that although “they were looking at hitting me with a
habitual criminal charge” because of his criminal record, “in return for me testifying against Mr. LeBere,
I would be allowed to leave jail, pay . . . restitution,
leave jail, and . . . I’d get to go home.” (Id. 18:16-19:4.)
Archuleta explained his incentive to do what Walker

App. 258
asked, and to testify falsely against LeBere: “I was
promised that if I came through for this, basically, that
I was going home; I wasn’t going to prison.” (Id. 35:2024.) As we now know, the offer for Archuleta to avoid
prison entirely was not even authorized by the prosecutor and was instead improperly offered by Walker,
bypassing both the District Attorney and Archuleta’s
own lawyer. (Ex. 10 at 13-15, 2628, 46, 74.) Archuleta
accepted Walker’s offer. And, after holding up his end
of the deal with Walker, Archuleta received the favorable treatment he wanted, and was able to leave jail.
(Archuleta Dep. 19:18-22.)
When confronted at his deposition with the fact
that he lied under oath, Archuleta admitted that he did
so:
Q: So it appears that the oath doesn’t mean
anything to you.
A.

At the time it didn’t. Okay. At the time I
was saving my butt.

(Id. 73:9-13.)
In contrast to Archuleta’s strong incentive to lie at
trial, Archuleta had no comparable incentive to voluntarily place a phone call to LeBere’s trial attorney a
few months after LeBere was sentenced, and to recant
his testimony. At his deposition, Archuleta testified
that he called LeBere’s lawyer because “my conscience
was eating at me” and felt that “I lied on someone and
basically took their life away from them, or I feel I did.”
(Archuleta Dep. 23:15-21.) Archuleta also confirmed

App. 259
that he had not been in touch with LeBere, LeBere’s
counsel, LeBere’s family, or anyone acting on LeBere’s
behalf when he called LeBere’s attorney to recant. (Id.
22:4-23:5.)
For the last fifteen years, Archuleta has had no incentive—other than a clean conscience—to set the record straight. (Id. 29:4-21.) Discovery confirms that
Archuleta lied at trial at the behest of Detective J.D.
Walker, that Walker elicited and knew about Archuleta’s perjury, and that Walker himself testified falsely
about his interactions with Archuleta. The State’s failure to disclose this information violated LeBere’s constitutional rights under Brady v. Maryland.
B. Walker Testifies That He Knew Archuleta Was An Inveterate Liar
Walker’s testimony at his deposition provides further support for LeBere’s Brady claim. Walker knew,
from his long history with Archuleta, that Archuleta
was an inveterate liar. Based on this knowledge, when
Walker found himself with insufficient evidence to
solve Richards’ murder, he knew that Archuleta would
be amenable to and capable of providing perjured testimony against LeBere.
Detective Walker’s relationship with Ronnie Archuleta began in the 1980s. (Walker Dep. 21:21-22:6.)
By the time Walker was investigating the Richards
murder in 1998, Walker and Archuleta were “on a first
name basis.” (Id. 24:13-15.) And by that time—October

App. 260
of 1998—Walker regarded Archuleta as a “chronic liar.”
(Id. 27:11-22.)
Long before the investigation in 1998, Walker
knew that Archuleta had a criminal record and a history of giving questionable information to police. (Id.
21:21-25:1.) Others in the Colorado Springs’ law enforcement community agreed that Archuleta was a
“chronic liar.” Before LeBere’s trial, Walker learned of
a memorandum from a section of the police force that
routinely dealt with informants, which warned that
Archuleta should not be used as an informant because
he lied so often. (Id. 58:18-63:8.) Local prosecutors also
“already knew” Archuleta was a chronic liar at the
time of LeBere’s trial. (Id. 62:1823; 172:13-173:6.)
Walker also believed that prison officials arranged
Archuleta’s housing to maximize his opportunity to
“snitch.” For example, Walker noted that LeBere’s
prison pod housed “four homicide suspects . . . and
one guy [Archuleta] that had property crime convictions.” (Id. 25:22-26:12.) Unsurprisingly, Archuleta
was placed in the pod as “an informant on a high profile case”—or potentially as an informant on “all of [the
four homicide suspects in the pod].” (Id. 26:5-12.) The
other inmates also knew that speaking to Archuleta
was a risky proposition. Archuleta told Walker that one
of the other inmates in the pod had warned LeBere
that Archuleta was “a snitch.” (Id. 57:22-58:11.)
Although Walker allowed Archuleta to take the
stand and testify to a confession that Walker knew was
false, at Walker’s deposition he admitted that several

App. 261
aspects of the supposed confession seemed untrue.
Walker testified that, even in that first meeting with
Archuleta concerning the Richards investigation, he
believed that some of the “confession” may not have
come from LeBere. For example, the coarse language
Archuleta ascribed to LeBere probably “came from
Ronnie Archuleta, not Kent LeBere.” (Id. 39:39:3-8.)
Walker found it likely that those comments were from
Archuleta rather than LeBere because, among other
reasons, Archuleta “ad libs a lot of things and you have
to continue to test him.” (Id. 43:11-24.)
But Archuleta’s alleged story of a confession from
LeBere never passed any such tests. The aspects of Archuleta’s story that Walker now seizes on as reasons to
credit the alleged confession—and thereby discredit
Archuleta’s recantation—do not hold up. Contrary to
Walker’s contention, none of the aspects of the confession Walker cites contain information that could only
have come from LeBere himself. Instead, the information identified was either readily available to Archuleta from sources other than LeBere, or is information
that to this day Walker does not know is true. Walker
seizes on this information to defend Archuleta’s trial
testimony against LeBere, even though the information
plainly does not support the credibility of Archuleta’s
testimony. This demonstrates Walker’s own lack of
credibility.
For example, Walker claimed to be impressed that
Archuleta knew about LeBere’s phoenix tattoo, but the
tattoo was on LeBere’s shoulder, and LeBere and Archuleta were housed in the same jailhouse pod. (Id.

App. 262
40:13-22.) Walker did nothing to rule out the distinct
possibility that Archuleta could have simply seen
LeBere’s tattoo. (Id. 40:13-22, 48:9-49:3.) Additionally,
Walker testified he believed Archuleta because Archuleta said LeBere had been arrested after a police
officer came to his door with a composite sketch depicting LeBere. (Id. 42:10-18.) But Walker later admitted
that the composite sketch story was in the media, and
that Archuleta told Walker that he had seen the news
related to the LeBere case. (Id. 49:4-18.) Finally,
Walker testified that Archuleta told him that LeBere
had confessed to sexually assaulting Richards at the
amphitheater in Cheyenne Canyon, but the police
“didn’t have anything that [suggested] she was sexually assaulted and we didn’t have any evidence that
she wasn’t killed right there in the carwash.” (Id. 43:244:11.) Moreover, Walker admits that he had then—
and has now—reason to doubt the information came
from LeBere because LeBere was not familiar with the
area. (Id. 44:23-45:5.)
Walker’s story that Archuleta testified about a real
confession is further undermined by the fact that, although Walker was an experienced detective, he admits
that he did nothing to test the assertions from Archuleta that Walker says he found questionable. This
makes perfect sense. Why would Walker test the assertions of a story he knew to be false? For example, having heard Archuleta’s allegations about Cheyenne
Canyon, Walker says that he did nothing to try to corroborate those alleged critical facts. (Id. 43:2-44:11,
44:18-45:5, 50:3-8.) In fact, the only information in the

App. 263
record suggests that LeBere would not have taken
Richards to Cheyenne Canyon4 and that Walker
thought it unlikely LeBere would have even known
about the canyon. (Id. 44:23-45:5.) And the result is
that, even today, unsurprisingly given the circumstances under which Archuleta’s testimony was manufactured, Walker admits he cannot corroborate the
story that Richards was murdered in Cheyenne Canyon or that there was any sexual assault. (Id. 53:6-15.)
Walker suggests that he was “testing” Archuleta’s
knowledge when he asked whether he knew the position of Richards’ body in the van. (Id. 43:11-24.) But if
that is the case, then Archuleta failed the test. Archuleta “didn’t bite on it” and instead “just passed it
over,” saying “I don’t know the position of the body.” (Id.
43:11-24.) Even though he failed the test, the State
still put Archuleta on the stand at LeBere’s trial.
Despite all of the red flags concerning the alleged
“confession” by LeBere, Walker admits that he fixated
on LeBere and never investigated any other “bona fide”
suspect in the Richards case. (Id. 88:10-12, 91:23-92:10.)
Instead, Walker—knowing he had a liar who was willing, and had every incentive to lie—did everything he
4

The main entrance to the canyon would have been closed
with an electric gate during the time of day when LeBere and
Richards allegedly would have driven into the canyon according
to the alleged “confession.” (See Ex. 26, Investigative Report (noting that park ranger stated that gates close at 11:00 pm and open
at 5:00 am during the relevant time period).) Moreover, Walker
testified that an ex-girlfriend of LeBere’s who was interviewed
“did not indicate that they ever went to Cheyenne Canyon.”
(Walker Dep. 90:20-25.)

App. 264
could to secure Archuleta’s perjured testimony to obtain a conviction of Walker’s chosen suspect, including
personally intervening on Archuleta’s behalf and arranging the deal that got Archuleta out of jail in exchange for his false testimony about LeBere. (Id. 46:1647:21; 69:20-74:15.)
ARGUMENT
I.

STANDARD OF REVIEW
A. This Court Reviews LeBere’s Petition
De Novo

LeBere’s petition is governed by the Antiterrorism
and Effective Death Penalty Act of 1996 (“AEDPA”).
“Under AEDPA, the standard of review applicable to a
particular claim depends upon how that claim was resolved by the state courts.” Milton v. Miller, 744 F.3d
660, 668 (10th Cir. 2014). AEDPA provides for deferential review of claims that were adjudicated on the merits by a state court. See Williams v. Taylor, 529 U.S.
420, 429 (2000). But for claims—like LeBere’s Brady
claim—that were not decided on the merits by the
state court, or where the state court “employed the
wrong legal standard in deciding the merits of the federal issue,” a federal court must review the claim de
novo. Stouffer v. Trammell, 738 F.3d 1205, 1213 (10th
Cir. 2013); Douglas v. Workman, 560 F.3d 1156, 1170
(10th Cir. 2009); Cummings v. Sirmons, 506 F.3d 1211,
1221-22 (10th Cir. 2007). Here, the Tenth Circuit found
that the Colorado courts did not decide LeBere’s Brady
claim on the merits or under the proper standard. See

App. 265
LeBere v. Abbott, 732 F.3d 1224, 1233 n.12 (10th Cir.
2013). Accordingly, this Court reviews LeBere’s habeas
corpus petition de novo.
B. The Court Is Authorized To Make Credibility Determinations Based On The
Record In Lieu Of Conducting An Evidentiary Hearing
Rule 7 of the Rules Governing Habeas Corpus
Cases expressly allows “expansion of the record to include any appropriate materials that enable the judge
to dispose of some habeas petitions not dismissed on
the pleadings, without the time and expense required
for an evidentiary hearing.” Blackledge v. Allison, 431
U.S. 63, 82-83 (1977) (holding that district courts may
“employ a variety of measures in an effort to avoid
the need for an evidentiary hearing” so long as the
measures provide “careful consideration and plenary
processing of [petitioner’s claim] including full opportunity for presentation of the relevant facts”).
Here, the record is complete and contains all of the
evidence necessary for the Court to grant LeBere’s petition. The record is so clear and the objective facts supporting the credibility of Archuleta’s recantation—and
fifteen subsequent years of affirming that recantation
including a sworn affidavit and deposition testimony—
are so strong, that LeBere does not believe an evidentiary hearing is necessary for the Court to resolve the
issues, make credibility determinations, and grant
his habeas petition. See United States v. Jones, 315 F.

App. 266
App’x 714, 716 (10th Cir. 2009) (“In cases where the
written record allows a district court judge to make
credibility findings (and for us to evaluate such findings), no evidentiary hearing is necessary.”); United
States v. Pearson, 203 F.3d 1243, 1274-75 (10th Cir.
2000).
The evidence relevant to the issues before the
Court is contained in the current record, which includes lengthy video depositions of the only witnesses
that bear upon LeBere’s Brady claim, at which both
LeBere and the State were provided ample opportunity to examine the witnesses. Therefore, the Court
has before it all of the resources necessary to make the
types of factual and credibility determinations usually
made at an evidentiary hearing, making such a proceeding unnecessary. See United States v. Laymon, 127
F.R.D. 534, 535 (D. Colo. 1989) (noting that video depositions allow the court, as trier of fact “to evaluate the
witnesses’ credibility”); see also Davis v. Puritan-Bennett
Corp., 923 F. Supp. 179, 180 (D. Kan. 1996) (noting that
a factfinder can “assess credibility” from videotaped
depositions).
Although LeBere believes that an evidentiary
hearing is not necessary to grant his petition, should
the Court disagree that the record is sufficient, LeBere
has—at a minimum—satisfied the standard for obtaining an evidentiary hearing and should be allowed to
present the evidence supporting his claim at such a
hearing. See, e.g., Milton v. Miller, 744 F.3d 660 (10th
Cir. 2014); Green v. Addison, 500 F. App’x 712, 720-21

App. 267
(10th Cir. 2012); United States v. Velarde, 485 F.3d 553
(10th Cir. 2007).
II.

LEBERE’S HABEAS PETITION MUST BE
GRANTED BECAUSE HE WAS DEPRIVED
OF HIS RIGHT TO DUE PROCESS UNDER
BRADY v. MARYLAND

“Criminal convictions obtained by presentation of
known false evidence or by suppression of exculpatory
or impeaching evidence violate[ ] the due process guarantees of the Fourteenth Amendment.” Douglas v.
Workman, 560 F.3d 1156, 1172 (10th Cir. 2009); see
Brady v. Maryland, 373 U.S. 83, 86 (1963); Giglio v.
United States, 405 U.S. 150, 153-55 (1972); Napue v. Illinois, 360 U.S. 264, 269-70 (1959). Accordingly, the
Constitution’s “fair trial guarantee,” United States v.
Ruiz, 536 U.S. 622, 628 (2002), and the “concept of ordered liberty” require the prosecution to timely turn
over any information in the government’s possession
that is materially favorable to a criminal defendant.
Brady, 373 U.S. at 87. The government also violates
Brady when it engages in “deliberate deception of a
court and jurors by the presentation of known false evidence,” Giglio, 405 U.S. at 153, or allows false evidence, even if unsolicited, “to go uncorrected when it
appears,” Napue, 360 U.S. at 269; see also United States
v. Agurs, 427 U.S. 97, 103 (1976) (holding that Brady
violations include situations where “undisclosed evidence demonstrates that the prosecution’s case includes perjured testimony and that the prosecution
knew, or should have known, of the perjury”). “Brady

App. 268
and its progeny are thus grounded in notions of fundamental fairness and they embody a practical recognition of the imbalances inherent in our adversarial
system of criminal justice.” Smith v. Secy of N.M. Dep’t
of Corr., 50 F.3d 801, 823 (10th Cir. 1995). Brady also
acknowledges ‘that the prosecutor’s role transcends
that of an adversary’ because the prosecutor, acting as
the representative of the sovereign, has an obligation
to ensure ‘not that it shall win a case, but that justice
shall be done.’ ” Id. (quoting Bagley, 473 U.S. at 675 n.
6).
A. Scope Of Brady
The State’s duty to disclose under Brady encompasses all evidence favorable to an accused, including
evidence that is useful in impeaching government witnesses. See Giglio, 405 U.S. at 154 (“When the reliability of a given witness may well be determinative of
guilt or innocence, nondisclosure of evidence affecting
credibility falls within [the Brady] rule.” (internal quotation marks omitted)); Douglas, 560 F.3d at 117273.
The government must turn over exculpatory or impeaching evidence even if the defense does not request
it. See Agurs, 427 U.S. at 107; United States v. Summers, 414 F.3d 1287, 1304 (10th Cir. 2005).
To comply with Brady, “the individual prosecutor
has a duty to learn of any favorable evidence known to
others acting on the government’s behalf,” including
the police. Stickler v. Greene, 527 U.S. 263, 281 (1999);
see also Kyles v. Whitley, 514 U.S. 419, 437 (1995).

App. 269
Brady thus requires disclosure of evidence “known
only to police investigators and not to the prosecutor.”
Kyles, 514 U.S. at 438; see also United States v. Smith,
534 F.3d 1211, 1221 (10th Cir. 2008) (“This duty to disclose applies not only to prosecutors, but also to police
and other government investigators.”); Smith, 50 F.3d
at 824 (“[B]ecause investigative officers are part of the
prosecution, the taint on the trial is no less if they, rather than the prosecutors, were guilty of nondisclosure.” (quotations omitted)).
To establish a Brady claim, “the defendant must
prove by a preponderance of the evidence that: (1) the
government suppressed evidence; (2) the evidence was
favorable to the defendant; and (3) the evidence was
material.” United States v. Garcia, 793 F.3d 1194, 1205
(10th Cir. 2015). Here, the State of Colorado violated
Brady when it failed to disclose Walker’s tampering with Archuleta to manufacture a “confession” by
LeBere and, as a result, the State was able to rely on
Archuleta’s and Walker’s perjured testimony at trial.
B. The State Failed To Disclose Evidence
Favorable To LeBere And Relied On
Periured Testimony To Obtain A Conviction
Evidence is “favorable” to a defendant if it “may
make the difference between conviction and acquittal”
had it been “disclosed and used effectively.” United
States v. Bagley, 473 U.S. 667, 676 (1985). Here, the

App. 270
evidence shows that the State suppressed evidence favorable to LeBere. Specifically:
•

While J.D. Walker was investigating the murder of Linda Richards, he paid several visits
to known snitch Ronnie Archuleta in an attempt to secure a “confession” by LeBere to
the murder of Linda Richards. (Ex. 9 at 32-33;
Walker Dep. 27:23-25, 28:21-25, 63:10-16; Archuleta Dep. 15:9-20.)

•

J.D. Walker did more than simply interview
Archuleta during these visits. Walker “indicated he needed a confession from Kent
LeBere,” and “hand delivered” police reports
for Archuleta to read and review. (Daniel Aff.
¶ 7; Archuleta Aff. ¶ 8; see also Archuleta Dep.
18:2-10)

•

The reports that Walker gave to Archuleta
“formed the basis for [Archuleta’s] knowledge
about the charges against Mr. LeBere,” and
for LeBere’s supposed “confession,” which Archuleta later invented. (Daniel Aff. ¶ 7; Archuleta Aff. ¶ 8; Archuleta Dep. 20:1-18, 21:919.)

•

LeBere never made any confession to Archuleta. (Archuleta Aff. ¶¶ 6, 9, 10.) Rather,
the details of this supposed confession came
from the information that J.D. Walker fed to
Archuleta. (Id. ¶ 8; Archuleta Dep. 46:5-8,
47:14-16.)

•

Archuleta was eager to help Walker get his
confession, because he knew that Walker
would help him get favorable treatment from

App. 271
the District Attorney. (Archuleta Aff. ¶ 7; Archuleta Dep. 18:16-19:4.) In the end, Archuleta did receive such favorable treatment. (Ex.
9 at 9-18, 40.)
•

Walker knew that LeBere never confessed to
murdering Richards. (Archuleta Aff. ¶ 9.) He
knew that Archuleta’s testimony about the
confession was false, because Archuleta created the “confession” with information that
Walker supplied. (Id.; Daniels Aff. ¶ 10).

The State did not disclose any of these facts to LeBere’s
trial lawyers. That failure to disclose allowed the State
to commit further Brady violations by presenting perjured testimony from Archuleta regarding a confession
that LeBere never made, and from Walker who lied to
the jury about the true circumstances surrounding the
procurement of Archuleta’s testimony.
Walker, of course, disputes these facts. But the record shows that Archuleta’s testimony about these
events is more credible than Walker’s flat-out denials
that he did anything improper.
Archuleta’s recanted testimony—which has remained consistent for the past fifteen years—makes
far more sense than his trial testimony trial regarding
LeBere’s “confession.” To assess the credibility of a
post-trial recantation, courts look especially to any objective facts or evidence that support the finding that
the original testimony was perjured. See Ortega v.
Duncan, 333 F.3d 102, 107 (2d Cir. 2003). “In the face
of a specific recantation of critical testimony, a court
must evaluate the recantation itself and explain what

App. 272
it is about that recantation that warrants a conclusion
that it is not credible evidence.” Dobbert v. Wainwright,
468 U.S. 1231, 1235-36 (1984).
Here, the objective evidence shows that Archuleta’s recantation, and not his trial testimony, is the
true version of events. Nothing at trial corroborated
Archuleta’s testimony regarding LeBere’s alleged confession. Cf. Case v. Hatch, 731 F.3d 1015, 1044 (10th
Cir. 2013) (finding recantation not credible because the
testimony given at trial corroborated many circumstances of the murder and was “highly similar” to testimony of other witnesses, including a pathologist). At
trial, Archuleta provided the only evidence of LeBere’s
supposed motive for committing the murder—that
LeBere raped Richards and then killed her to prevent
her from identifying him based on his tattoo. (See
Walker Dep. 53:20-54:10.) Archuleta also provided the
only evidence at trial about where the crime supposedly took place. (Id. 44:18-20.) There was no other
evidence supporting these elements, and indeed, as explained more fully above, it is unlikely that Archuleta’s
testimony about the location of the crime could have
been true. (See supra Section III.B.) The balance of Archuleta’s testimony included information that could
have been gleaned either from police files or the newspaper. Under these circumstances, it is more plausible
that Archuleta obtained these details from Walker, police files, and newspapers rather than learning of them
through a detailed “confession” that LeBere gave to Archuleta. The “confession” story is even less plausible
when considered against the fact that LeBere did not

App. 273
even know Archuleta, and that immediately before
LeBere’s supposed “confession” to Archuleta, LeBere
was warned by other inmates not to talk with Archuleta because he was a “snitch.”
More important, the circumstances surrounding
Archuleta’s trial testimony and his recantation show
that his recantation is substantially more credible. In
February 2000, Archuleta, unprompted, contacted LeBere’s counsel and recanted. (Archuleta Dep. 22:420.)
He explained that Walker gave him access to the police
files regarding Richards’ death, and that Walker told
him what to say in his trial testimony. There is no evidence that Archuleta’s recantation was coerced, and he
had absolutely nothing to gain by admitting to perjury.
Cf. United States v. Miller, 987 F.2d 1462, 1467 (10th
Cir. 1993) (finding recanted testimony not credible because there was evidence the “recantation was coerced”); United States v. Ford, 931 F.2d 63 (10th Cir.
1991) (same). For more than fifteen years, Archuleta’s
story has remained the same: he lied at LeBere’s trial
based on information provided by Walker.
If any testimony was coerced, the record shows
that it was Archuleta’s trial testimony about a “confession.” As Archuleta recently testified at his deposition,
his motive for testifying falsely at LeBere’s trial was
obvious—he wished to avoid more jail time Without
the plea deal that Walker (improperly) offered, Archuleta faced a habitual criminal charge and likely jail
time But “in return for me testifying against Mr. LeBere, I would be allowed to . . . pay . . . restitution,
leave jail, and . . . I’d get to go home.” (Archuleta Dep.

App. 274
18:16-19:4.) In fact, Archuleta admits that he lied at
LeBere’s trial because “I was saving my butt.” (Id. 73:913.) Indeed, Archuleta accepted Walker’s unauthorized
deal, and in exchange for his testimony against
LeBere, Archuleta got out of jail.
Archuleta clearly had tremendous motive to lie at
trial. But he had no such incentive to recant this testimony shortly after trial, or to maintain the truth multiple times, in sworn testimony, over the past 15 years.
And today, Ronnie Archuleta has no incentive to do anything other than tell the truth about his and Walker’s
misconduct.
In contrast, Walker has a powerful motive to lie
right now. Walker’s misconduct in LeBere’s case would
subject him to serious consequences. Furthermore,
Walker’s own testimony tends to corroborate Archuleta’s deposition testimony. For example, Walker testified that it would be helpful if Archuleta could supply
certain information to obtain a conviction of LeBere.
(Walker Dep. 43:7-10.) This supports Archuleta’s version of events—that Walker dealt with Archuleta because Walker had already settled on LeBere as a
suspect, and needed some evidence to get a conviction.
Walker’s conduct in this case is also consistent with
Walker’s suppression of evidence in another criminal
case and other improprieties in conducting investigations. (See supra Section I.B.)
The facts surrounding Walker’s interactions with
Archuleta constitute favorable, exculpatory evidence
that the State was required to disclose. When it

App. 275
became clear that LeBere would not talk to Archuleta
about the charges against him, Walker provided Archuleta with information about LeBere’s case and
encouraged Archuleta to invent LeBere’s supposed
confession. Walker knew that LeBere never confessed,
and that Archuleta’s testimony was based on information Walker himself had provided to Archuleta, but
the State never disclosed those facts to LeBere. These
are favorable facts that, under Brady, should have
been disclosed.
As a result of this nondisclosure—which in and of
itself is a Brady violation that entitles LeBere to habeas relief—the State was able to present and rely
upon perjured testimony from Walker and Archuleta to
obtain a conviction. In doing so, the State committed
another Brady violation. At trial, Archuleta lied to the
jury when he testified about LeBere’s supposed “confession.” This testimony was false, because LeBere
never confessed and Archuleta concocted this testimony from police reports provided to him by Walker,
publicly available information, and unverified facts
that he simply made up. Walker also lied when he testified about his interactions with Archuleta, and
Walker told the jury that Archuleta said LeBere had
confessed. Walker knew that LeBere had never confessed, and that Archuleta’s testimony was false.
The State’s failure to disclose clearly favorable evidence—coupled with its presentation of perjured testimony from Archuleta and Walker that was critical to
the State’s case—violated Brady and deprived LeBere
of his constitutional right to due process.

App. 276
C. The Suppressed Evidence Was Material
Evidence is material “if there is a reasonable probability that, had the evidence been disclosed to the defense, the result of the proceeding would have been
different.” Kyles v. Whitley, 514 U.S. 419, 433 (1995) (internal quotation marks omitted). A “reasonable probability” means “the likelihood of a different result is
great enough to undermine confidence in the outcome.”
United States v. Reese, 745 F.3d 1075, 1083 (10th Cir.
2014) (internal quotation marks omitted). Put another
way, a court should find a Brady violation if “the favorable evidence could reasonably be taken to put the
whole case in such a different light as to undermine
confidence in the verdict.” Kyles, 514 U.S. at 435; Engberg v. Wyoming, 265 F.3d 1109, 1118 (10th Cir. 2001).5

5

A slightly different materiality standard applies to the
prosecution’s knowing presentation of perjured testimony. Under
that standard, false testimony is material “unless failure to disclose [the perjury] would be harmless beyond a reasonable doubt.”
Bagley, 473 U.S. at 680. Unlike a traditional Brady claim that can
rest upon unintentional conduct by the State, Brady claims based
upon knowing use of perjured testimony require evidence that the
State knew or should have known that the testimony at issue was
false. See United States v. Agurs, 427 U.S. 97, 103 (1986); United
States v. Garcia, 793 F.3d 1194, 1207-08 (10th Cir. 2015).
LeBere concedes that if he must show actual knowledge by
prosecutors to meet the “harmless beyond a reasonable doubt”
materiality standard, he does not have that evidence. But case
law from the Tenth Circuit and other circuits indicate that, as
with any other Brady claim, knowledge of police investigators
can be imputed to the prosecuting attorneys for purposes of establishing a Brady claim based on knowing use of perjured testimony. See, e.g., United States v. Rangel, 519 F.3d 1258, 1265
(10th Cir. 2008) (acknowledging that for purposes of knowledge

App. 277

in a perjured testimony case “the case agent is the alter ego of the
government and of the prosecutor” (citing United States v. Antone,
603 F.2d 566, 569-70 (5th Cir. 1979); Mesarosh v. United States,
352 U.S. 1, 9 (1956)); see also Guzman v. Secy, Dep’t of Corr., 663
F.3d 1336, 1349 (11th Cir. 2011) (holding detective’s knowledge
of perjured testimony “was imputed to the prosecutor”); Mastracchio v. Vose, 274 F.3d 590, 600-01 (1st Cir. 2001) (holding that
“the state supreme court’s refusal to impute the police officers’
knowledge [of false evidence] to the prosecutor runs contrary to
established Supreme Court case law.”); Boyd v. French, 147 F.3d
319, 329 (4th Cir. 1998) (“[K]nowingly false or misleading testimony by a law enforcement officer is imputed to the prosecution.”).
Here, Walker, and by imputation, the prosecution, clearly
knew that Archuleta’s and Walker’s testimony regarding
LeBere’s confession and Walker’s interactions with Archuleta
was perjured. Archuleta testified credibly in his affidavit, and
more than nine years later in his deposition, that Archuleta
clearly told Walker that LeBere would not speak with Archuleta
about LeBere’s case. (Archuleta Dep. 17:6-15; 21:23-22:3.) Accordingly, Walker provided Archuleta with the police reports about
the incident and the case file so that Archuleta could learn information he needed to testify against LeBere. (See id. 16:19-17:1,
18:2-10.) But even if Walker had not been directly informed by
Archuleta that Archuleta’s testimony about LeBere’s confession
was false, the record amply demonstrates that Walker knew, or
should have known, that Archuleta was lying. The record is undisputed that Walker knew that Archuleta was a “chronic liar,”
including knowing about an internal police memorandum warning that Archuleta should not be used as an informant. (Walker
Dep. 27:9-22, 58:18-63:8.) And there was objective evidence to
support a conclusion that Archuleta was lying: Walker knew that
when LeBere arrived at the jail another inmate had warned
LeBere not to talk to Archuleta because Archuleta was a “snitch.”
(Id. 57:22-58:4.) Furthermore, despite the overwhelming evidence
available to Walker and the prosecuting attorneys that Archuleta
was dishonest and could not be trusted, neither Walker nor the
prosecution did any independent investigation of Archuleta’s
story. Walker has consistently stated that he was aware of the
ample reasons not to trust Archuleta and that he, Walker, had

App. 278
Detective Walker’s tampering with Archuleta,
their manufacturing a “confession” that LeBere never
actually made, and their presentation of perjured testimony regarding that confession was material information that—had the jury known about it—creates a
reasonable probability that the result of trial would
have been different.
The State of Colorado’s case against Kent LeBere—
without Ronnie Archuleta’s testimony—was quite thin.
The State presented no DNA or other physical evidence linking LeBere to the crime, and the only “eyewitness” to the scene of the crime could not identify
LeBere from either a police line-up or surveillance
video. LeBere also presented considerable evidence
pointing to somebody else: the victim’s violent, jealous
fiancée who had a fight with her the night she died.
The dearth of other evidence supporting LeBere’s conviction made Archuleta—and his testimony about
LeBere’s so-called “confession”—critical to the State’s
implemented safeguard procedures to ensure the veracity of Archuleta’s story about a “confession.” But in reality, the prosecution did nothing to check Archuleta’s story, even the easiest parts
to objectively verify. (See supra Section III.B.) See Morris v. Ylst,
447 F.3d 735, 743 (9th Cir. 2006) (“The prosecution was obliged
to, but did not, investigate the possibility that a government witness had perjured himself.”). This utter failure to investigate, coupled with Walker’s knowledge of his dealings and concerns with
Archuleta, are more than sufficient to demonstrate that the prosecution knew or should have known that both Archuleta and
Walker committed perjury at LeBere’s trial.
In any event, regardless of which materiality standard the
Court applies, LeBere satisfies either standard, as properly construed.

App. 279
case. Therefore, evidence that he manufactured that
confession at the behest of the police, using information that the police provided, would be highly material. See Moore v. Gibson, 195 F.3d 1152, 1165 (10th Cir.
1999) (finding suppression of evidence that police officers planted fiber and hair evidence would be material
where the “existence and cross-transference of the fiber and hair evidence was crucial to the State’s case”).
The Tenth Circuit recognized that Archuleta offered the only direct evidence linking LeBere to the
murder. LeBere, 732 F.3d at 1226. Under these circumstances, where the State’s conviction hinges on the
credibility of a key witness, courts in the Tenth Circuit
routinely find that exclusion of evidence that could be
used to substantively attack or impeach that key witness is material under Brady. See, e.g., United States v.
Cooper, 654 F.3d 1104, 1123 (10th Cir. 2011); United
States v. Torres, 569 F.3d 1277, 1282-82 (10th Cir.
2009); Douglas v. Workman, 560 F.3d 1156, 1174 (10th
Cir. 2009) (concluding that district court correctly
granted habeas petition based on Brady where witness
recanted trial testimony that: had “played the indispensable role” of identifying the defendants; that provided “the only direct evidence linking [defendants] to
the murder;” and where if “the jury discounted [the]
testimony as not credible, it almost certainly would not
have had sufficient evidence on which to convict”).
The State has previously argued that Archuleta’s
trial testimony about the “confession” could not have
been material because the jury heard evidence and
cross-examination about Archuleta’s reputation for

App. 280
untruthfulness. (See, e.g., Dkt. No 70 at 54-59; Dkt. No.
95 at 30-31.) This is beside the point. The Tenth Circuit
has found, in a very similar case, that where the government’s case hinged on the credibility of a confidential informant, the government violated Brady when it
failed to disclose all evidence that could be used as
impeachment. See Torres, 569 F.3d at 1284. In Torres,
for example, the government argued that it was not
required to disclose evidence that the confidential informant had misidentified the defendant to law enforcement, because the evidence was cumulative of
another misidentification by the same confidential informant. Id. at 1284. The Tenth Circuit rejected the
government’s position. Instead, the Tenth Circuit concluded that this additional evidence could have allowed defense counsel to show that the informant’s
first misidentification was more than a “one-time slipof-the-tongue.” Id.
Here, the State may have disclosed evidence about
prior instances when Archuleta was untruthful, but
that does not excuse the State from its duty to disclose
that Archuleta’s testimony in this case was a lie manufactured by the State’s own lead detective. Indeed,
disclosing this crucial evidence would have undermined the credibility of the State’s entire investigation
and would have been a unique tool for impeaching Archuleta. See id. (“Merely because other impeachment
evidence was presented does not mean that additional
impeachment evidence is cumulative; rather, this is a
case where the agents’ identification was weak at best
and no physical evidence exists to link the defendant

App. 281
to the alleged crime. The government’s near-total reliance on the testimony of the [confidential informant]
to establish that [defendant was linked to the crime]
requires a new trial.”).
The Brady evidence regarding Ronnie Archuleta
goes far beyond his general character for truthfulness.
Rather, it goes directly to the credibility of the central
players in LeBere’s conviction: Detective J.D. Walker
and Archuleta.
It is undisputed that the jury heard no evidence
that lead investigator Walker offered Archuleta favorable treatment if Archuleta fabricated a “confession”
that LeBere never gave. It is undisputed that the jury
heard no evidence that Walker gave Archuleta police
reports and other information that Archuleta used to
manufacture his trial testimony about that so-called
“confession.” And it is undisputed that the jury heard
no evidence that LeBere refused to speak to Archuleta
about his case and that Archuleta’s and Walker’s testimony to the contrary was perjured.
Furthermore, Archuleta’s perjured trial testimony
was not some run-of-the-mill falsehood about a tangential aspect of the crime. Archuleta’s trial testimony
went to the heart of LeBere’s conviction. Archuleta presented the only direct evidence of LeBere’s involvement in the crime—and his evidence was dramatic,
stating that LeBere had actually confessed to the murder. As the Supreme Court has recognized, “[a] confession is like no other evidence” and “is probably the
most probative and damaging evidence that can be

App. 282
admitted against him.” Arizona v. Fulminante, 499 U.S.
279, 296 (1991) (emphasis added). Because of their
unique qualities, “confessions have profound impact on
the jury.” Id.; see also United States v. Perdue, 8 F.3d
1455, 1469 (10th Cir. 1993) (reversing conviction where
confessions admitted into evidence were the only direct
evidence of defendant’s involvement in the crime). At
LeBere’s trial, the State itself emphasized the importance of Archuleta’s testimony; in the prosecution’s
closing argument, the prosecutor frequently referenced
the confession, recognizing that it was an important
cornerstone of the State’s case. (Ex. 27, 08/12/1999
Trial Tr.)
The evidence at the heart of LeBere’s Brady claim
shows police misconduct and suborning perjury—before LeBere’s trial—of the only witness who provided a
direct link between LeBere and the crime. Walker’s
knowledge of those exculpatory facts are imputed to
the prosecution. Kyles, 514 U.S. at 438. If the State had
complied with Brady and informed LeBere’s counsel
about these facts, the jury would have seen Walker
cross-examined about his feeding police reports to Archuleta. The jury would have seen Archuleta cross-examined about how he really got the information in his
testimony, and how Walker told him to turn that information into a false “confession” by LeBere. Or, the
State would have decided not to put Archuleta and
Walker on the witness stand, thus preventing the false
“confession” from ever being presented to the jury.
Had the jury heard this true evidence, there is
surely more than a “reasonable probability” that the

App. 283
result of LeBere’s trial would have been different.
Kyles, 514 U.S. at 433. The evidence about Walker’s
misconduct and the resulting perjury by Archuleta and
Walker is plainly material.
CONCLUSION
By suppressing evidence that profoundly challenges the credibility of the detective who led the investigation into Kent LeBere, and the credibility of
his only direct accuser, who falsely testified about a
confession that never happened, the State of Colorado
violated LeBere’s right to due process of law as guaranteed by the United States Constitution. Because
J.D. Walker and Ronnie Archuleta were able to testify
against LeBere, unchallenged by information that the
State knew but failed to share with LeBere’s lawyers
as required by Brady, LeBere’s trial was constitutionally infirm and fatally flawed.
Kent LeBere respectfully requests that the Court
grant his Amended Petition for a Writ of Habeas Corpus, and order the State of Colorado to be given 180
days from the date of the Court’s order to commence a
new trial. See, e.g., Powell v. Mullin, Civ. No. 00-1859,
2006 WL 249632, at *12 (W.D. Okla. Jan. 31, 2006).

App. 284
Dated: December 30, 2015
Respectfully submitted,
s/ Laurence W. DeMuth, III
Laurence W. DeMuth, III
Jennifer Sullivan
FAEGRE BAKER DANIELS LLP
1470 Walnut Street, Suite 300
Boulder, Colorado 80302
Telephone: 303-447-7700
Email: Trip.Demuth@
FaegreBD.com
Jennifer.Sullivan@
FaegreBD.com
James L. Volling
Martin S. Chester
Cicely Miltich
FAEGRE BAKER DANIELS LLP
2200 Wells Fargo Center
90 South Seventh Street
Minneapolis, Minnesota 55402
Telephone: 612-766-7000
Email: James.Volling@
FaegreBD.com
Martin.Chester@
FaegreBD.com
Cicely.Miltich@
FaegreBD.com
Attorneys for Petitioner
Kent Eric LeBere

